<html>
<title> - CURRENT WATER AND POWER BILLS</title>
<body><pre>[Senate Hearing 113-284]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-284
 
                     CURRENT WATER AND POWER BILLS 

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                        S. 1419                               S. 2010

                        S. 1771                               S. 2019

                        S. 1800                               S. 2034

                        S. 1946                               H.R. 1963

                        S. 1965



                                    __________

     
                                 FEBRUARY 27, 2014



                           Printed for the use of the
                    Committee on Energy and Natural Resources


                                     -------

                         U.S. GOVERNMENT PRINTING OFFICE 

88-043 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                   MARY L. LANDRIEU, Louisiana, Chair

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                Elizabeth Leoty Craddock, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                     BRIAN SCHATZ, Hawaii, Chairman

TIM JOHNSON, South Dakota            MIKE LEE, Utah, Ranking
MARIA CANTWELL, Washington           JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             JAMES E. RISCH, Idaho
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina

   Mary L. Landrieu and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee




                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming...................     2
Batten, Belinda A., Director, Northwest National Marine Renewable 
  Energy Center, Oregon State University.........................    39
Carr, Mike, Senior Advisor to the Director, Energy Policy and 
  Systems Analysis, Principal Deputy Assistant Secretary, Energy 
  Efficiency and Renewable Energy, Department of Energy..........     7
Duyck, Andy, Chairman, Washington County, Oregon Board of 
  Commissioners, Chairman, Clean Water Services, Board of 
  Directors......................................................    35
Katz, John, Deputy Associate General Counsel, Federal Energy 
  Regulatory Commission..........................................    11
Merkley, Hon. Jeff, U.S. Senator From Oregon.....................     5
Quint, Robert, Senior Advisor, Bureau of Reclamation, Department 
  of the Interior................................................    13
Schatz, Hon. Brian, U.S. Senator From Hawaii.....................     1
Stern, Charles V., Specialist in Natural Resources Policy, 
  Congressional Research Service.................................    31
Wyden, Hon. Ron, U.S. Senator From Oregon........................     3

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    47

                              Appendix II

Additional material submitted for the record.....................    61


                     CURRENT WATER AND POWER BILLS

                              ----------                              


                      THURSDAY, FEBRUARY 27, 2014

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Brian Schatz 
presiding.

     OPENING STATEMENT OF HON. BRIAN SCHATZ, U.S. SENATOR 
                          FROM HAWAII

    Senator Schatz. Good afternoon.
    This afternoon the Subcommittee on Water and Power will 
consider 8 bills covering several different aspects of our 
water and power jurisdiction. Two of the bills on today's 
agenda, S. 1800 and S. 1946, directly address the Bureau of 
Reclamation's aging infrastructure. Reclamation provides vital 
services for irrigators, hydropower dams, recreation and canals 
in 17 Western States.
    However, much of Reclamation's infrastructure is aging. 
Most of its 476 dams were built more than 50 years ago. This 
aging infrastructure can be a challenge to maintain.
    Recognizing this maintenance challenge, Senator Barrasso 
and I introduced, S. 1800, the Bureau of Reclamation 
Transparency Act. Our bipartisan legislation would require the 
Secretary's Annual Asset Management Plan to provide more 
information about major repair and rehabilitation needs at all 
Reclamationsites.
    Aging infrastructure can be dangerous. Three out of every 4 
dams are listed as high or significant hazard meaning that the 
failure of the dam could cause death or significant damage to 
nearby communities. Reclamation's Safety of Dams program works 
to ensure that these dams are as safe as possible.
    However, since the program's inception in 1978 it has 
received only piecemeal funding. Senators Wyden, Feinstein and 
I all agree that public safety is paramount. So together we 
introduced S. 1946, a bill to permanently authorize the Safety 
of Dams program allowing Reclamation to continue updating its 
aging infrastructure.
    Another method of addressing aging infrastructure is the 
title transfer process in which Reclamation works with 
interested project operators to transfer title of certain 
Reclamation facilities out of government ownership. This 
transfer divests Reclamation of responsibility and liability 
for the project. It also provides the recipient with greater 
autonomy and flexibility to manage the facilities.
    Currently all transfers require an act of Congress. My 
bill, S. 2034 would give Reclamation the authority to transfer 
certain uncomplicated projects to willing recipients. I'm 
looking forward to hearing the Bureau's testimony on it.
    Finally I want to briefly talk about S. 2019, the Secure 
Water Act Amendments Act of 2014. Reclamation's WaterSMART 
program provides grants to fund local water management 
projects. These grants go toward cost shared projects which 
leverage government money by attracting non Federal 
investments. Because WaterSMART saves water and money I want to 
make sure that this program continues its good work. This work 
is particularly important as the Nation continues to experience 
severe and recurring droughts.
    We have a number of other bills on the agenda today. I'm 
looking forward to hearing more about them.
    Now I'll turn to our Ranking Member, Senator Barrasso for 
his opening comments, followed by the Finance Chairman, Senator 
Wyden.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. I have 
two bills, as you know, on this hearing today, S. 1800, the 
Bureau of Reclamation Transparency Act and S. 2010, the Bureau 
of Reclamation Conduit Hydropower Development Equity and Jobs 
Act.
    I'd also note that I'm pleased to be sitting in for 
subcommittee Ranking Member Mike Lee. He and I share the same 
concerns regarding addressing aging infrastructure and 
promoting hydropower, especially in the West where the Bureau 
of Reclamation facilities are located.
    Water is the most fundamental issue in my home State of 
Wyoming. The need to provide a clean, abundant supply of water 
is essential to the survival of the Intermountain West. The 
infrastructure we have today in my home State and across the 
Nation is aging.
    Where the weak points are we do not fully know. The longer 
we wait the more likely these facilities will fall into 
disrepair. This will impact the economic livelihood of ranchers 
and farmers in Wyoming and across the West that rely on these 
facilities to provide water.
    I'm very concerned that the Interior Department and its 
leadership has been less than forthcoming about the depth and 
scope of this problem. In 2008 Reclamation testified that the 
backlog was $3.2 billion. Similar figures have been quoted by 
the Administration officials since then. I still have not been 
able to get the information as to how these figures have been 
constructed nor have I been able to get a complete written list 
of the complete maintenance backlog for my home State of 
Wyoming.
    I've introduced legislation, the Bureau of Reclamation 
Transparency Act, which would provide the maintenance and 
public safety information by project so Congress can address 
our backlog. I want to work together with my colleagues to get 
the answers we need and to find the solutions that we need to 
improve the aging water delivery systems and Bureau of 
Reclamation facilities across the West. Mr. Chairman, I think 
this is a common sense bill that will accomplish that. I also 
want to thank the Chairman of this subcommittee for being an 
original co-sponsor of this important legislation.
    Also briefly like to mention, S. 2010, the Bureau of 
Reclamation Conduit Hydropower Development Equity and Jobs Act. 
This act builds on common sense legislation that I'm proud to 
have worked with Senator, I'm sorry, Representative Scott 
Tipton in spurring private investment in clean hydroelectric 
power generation on existing Reclamation conduits all over the 
West. That bipartisan bill is now public law.
    The legislation we consider here today, a companion to H.R. 
16, I'm sorry, 1963 in the House, would complete the goal of 
allowing non Federal interests to develop electricity at 
Federal facilities. This bill will do this by promoting 
hydropower development at projects authorized under a very 
different statute than those covered by the previous 
legislation. Taken together Public Law 133-24 and S. 2010 would 
facilitate the development of clean, renewable energy at over 
373 sites across the West lowering power cost to customers and 
creating new jobs in rural America while raising Federal 
revenue.
    Mr. Chairman, I may say after this hearing that both of 
these bills be added to the earliest possible full committee 
markup. Thank you for your help. Thank you for the testimony of 
those here today.
    Senator Schatz. Thank you, Senator Barrasso.
    Senator Wyden.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you very much, Chairman Schatz. I want 
to thank you and Senator Barrasso for this courtesy because I 
have to go to the Floor to handle a matter coming up for the 
Finance Committee. So I thank you both.
    This is a particularly important hearing because it deals 
with the critical and timely issues with respect to that all 
important resource, water. There are 3 bills before the 
subcommittee today that are especially important to me and to 
my State. I'd just like to touch on them briefly.
    The first bill is Senator Merkley's, S. 1771, the Crooked 
River Collaborative Water Security Act of 2013. Senator 
Merkley, for those who have been following this debate, has 
been the go to person for bringing together all of the 
stakeholders on the Crooked River to provide uncontracted water 
in Bowman dam for the city of Prineville and for endangered 
fish populations while giving the irrigators certainty on their 
contracted water. I want it understood that, I believe, Senator 
Merkley has done invaluable work on this, particularly in terms 
of bringing everybody together.
    It's my intension to work closely with him, with 
Congressman Walden, with other colleagues in the Congress and 
the stakeholders in Central Oregon to see this bill through 
this year. As far as I'm concerned the city of Prineville needs 
this water yesterday. We are committed to getting that done.
    The second bill I want to touch on is S. 1946, which I have 
proposed with you, Chairman Schatz and Senators Feinstein and 
Senator Merkley would permanently reauthorize the Safety of 
Dams programs within Reclamation. This is an important matter 
with respect to water infrastructure, a critical task across 
the West. To help illustrate the importance of this program, 
the Chair of Washington County, Andy Duyck, has made the trek, 
the 3,000-mile trek across the country, to explain how the 
program affects the safety and economic vitality in the 
Tualatin Basin given the process underway at Scoggins Dam.
    Washington County is home to our semiconductor industry and 
to other major employers in our State making Scoggins Dam a 
central part of the region's water supply infrastructure that 
drives residential, agricultural and industrial development. 
This legislation is absolutely key, Mr. Chairman, to ensure 
that the necessary safety modifications are made in a timely 
way. I'm very appreciative of the opportunity to talk about the 
bill, to have Andy Duyck here and for your leadership.
    Finally, I want to speak on behalf of S. 1419, my 
bipartisan bill with Senator Murkowski that would reauthorize 
the Department of Energy's Marine Hydrokinetic Energy program 
including research centers like the one hosted at Oregon State 
University and the University of Washington. We're glad to have 
Dr. Belinda Batten, Director of the Northwest National Marine 
Renewable Energy Center, as a witness. Oregon State University 
has been a world leader in the development of wave energy 
technology. I think that all who have observed their work have 
acknowledged that leadership.
    One last point. A year ago, as Chair of the full committee, 
I asked Ernie Moniz, Dr. Ernie Moniz, during his confirmation 
hearing to make a greater commitment to what I've come to call 
the forgotten renewables, the forgotten renewable energy 
sources, particularly water, geothermal and biomass. In a few 
weeks when the President's FY 2015 budget is presented to the 
Congress we'll all have a chance to see whether or not these 
energy sources have finally made it to the Department's 
priority list. I do have some doubts that the executive branch 
will have made that commitment.
    So one purpose of your valuable hearing, Mr. Chairman, is 
to underscore the committee's commitment to wave and tidal 
energy. Over the past decade congressional authorizing and 
appropriating committees have worked to maintain a Federal 
commitment to both conventional hydropower and wave energy 
technologies even when the Department was not particularly 
interested in that being done. So we've discussed this with 
Assistant Secretary Danielson, most recently a couple of weeks 
ago when he appeared before the committee. It seems that even 
when the Congress has appropriated funds for wave energy the 
Department has not been following through enough to ensure that 
those funds actually get turned into research and the important 
work that we could like to see in the wave energy field.
    Now it's my understanding that Assistant Secretary 
Danielson and his team have taken a look to see what additional 
steps can be taken to address this matter. I'm looking forward 
to hearing from Dr. Danielson and his staff. I want to thank 
them for indicating that they will make this issue a higher 
priority.
    At a time when our competitors around the world are putting 
an enormous effort into this very promising technology, S. 1419 
puts this committee and the Congress on record as saying we are 
not going to sit out the competition in this important area.
    So I thank you very much, Mr. Chairman, for your leadership 
and also for allowing me to break from the committee's regular 
order to make this statement. I look forward to working with 
you and Senator Barrasso on these matters.
    Senator Schatz. Thank you very much, Senator Wyden.
    We are honored to have Senator Merkley, also from the great 
State of Oregon, who is here to discuss a bill that he has 
introduced, S. 1771. We know you've worked very hard on this. 
We know that your tremendous negotiating skills and local 
knowledge have come to bear here. We look forward to hearing 
from you, Senator Merkley.
    Go ahead.

         STATEMENT OF HON. JEFF MERKLEY, U.S. SENATOR 
                          FROM OREGON

    Senator Merkley. Thank you very much, Mr. Chair. It's a 
pleasure to be here. I'm going to submit my full testimony for 
the record and make a very abbreviated remarks given the 
pressure of time between votes.
    I'd like to acknowledge Belinda Batten, Director of the 
Northwest National Marine Renewable Energy Center at Oregon 
State University, who is here as Senator Wyden noted, to 
testify on the bill related to wave energy, the Marine and 
Hydrokinetic Renewable Energy Act. I'm a proud co-sponsor of 
that bill.
    I'd also like to recognize Commissioner Andy Duyck, who has 
been a County Commissioner for Washington County for many years 
and is here to advocate for the Safety of Dams Act because the 
Scoggins Dam is highly at risk. It is a critical supply of 
water to the region. We need to get more water behind that dam 
as well.
    In terms of the bill I've come to testify on, it's the 
Crooked River Collaborative Water Security Act of 2013.
    It will create economic opportunity by providing the city 
of Prineville with greater access to ground water.
    The bill will also allow for retrofitting the Bowman Dam to 
generate hydroelectric power.
    The bill strikes a balance between providing certainty to 
the agricultural community that depends on the reservoir for 
irrigation water, but also to release water to maintain healthy 
runs of steelhead salmon and to provide healthy conditions for 
trout.
    The bill will create a dry year management process to help 
plan for years in which we have drought which occur all too 
often in order to best manage the available water, to have the 
best possible conditions for the ecosystem and for the 
recreational opportunities in the dam and on the river.
    This issue of managing the water has been going on for 
decades, 4 decades, 40 years. We now have an opportunity where 
so many stakeholders have come together to say that there is a 
win/win solution.
    I do have letters from those stakeholders that I'll submit 
for the record.
    Let us seize this opportunity so that it is not yet another 
40 years before we have this type of win/win opportunity for 
the various interests in this county.
    Thank you very much, Mr. Chair.
    Senator Schatz. Thank you very much, Senator Merkley.
    We really appreciate your testimony, your leadership and 
your skill in helping to negotiate a solution and create an 
opportunity where this has been a long standing challenge for 
an area that you represent. I know this has been tremendously 
difficult. We're hopeful that the committee will be able to 
help along those lines.
    We know you have a vote. Thank you very much, Senator 
Merkley.
    [The prepared statement of Senator Merkley follows:]

   Prepared Statement of Hon. Jeff Merkley, U.S. Senator From Oregon
    I'd like to thank Subcommittee Chairman Schatz, and Ranking Member 
Lee, as well as other members of the Subcommittee for inviting me to 
give remarks today on a bill both Senator Wyden and I have worked hard 
on for several years now. I would like to particularly thank Senator 
Wyden for dedicating so much of his time and effort to negotiating a 
historic agreement that has garnered such broad support in Oregon.
    This bill is called the Crooked River Collaborative Water Security 
Act of 2013.
    What the bill does is forge an agreement in a debate that has 
lasted for decades over how to manage water releases from the Bowman 
Dam, which is a Bureau of Reclamation project on the Crooked River in 
Crook County, Oregon.
    This Bureau project is critical to the well-being of central 
Oregon. The dam itself has reduced the risk of flooding downstream by 
stabilizing flows in the river, particularly in the rainy winter 
months.
    The water released from this dam has provided a reliable source of 
irrigation water for the agricultural community in the area.
    But unlike virtually any other Bureau of Reclamation Project, this 
one has the good fortune of having significant excess storage capacity, 
and for decades there has been debate over how to make the best use of 
that capacity.
    This bill strikes a compromise across a broad range of stakeholders 
in the region, and enjoys the support of the local irrigation 
districts, fishing groups, conservation groups, Crook County, the Warm 
Springs Tribe, the City of Prineville, and the Governor of Oregon.
    These groups have written letters of support for this bill, which 
will accompany my testimony for the record.
    The bill will create economic opportunity in the region by 
providing the City of Prineville with greater access to groundwater, 
which will meet their growing municipal water needs.
    The bill will also allow for retrofitting the Bowman Dam to 
generate hydroelectric power, which will create jobs as well as clean 
power for the region.
    The bill also strikes a balance between providing greater certainty 
to the agricultural community that depends on the Prineville Reservoir 
for water, while also allowing water to be released from Bowman Dam to 
help maintain healthy steelhead, salmon and trout fisheries, which are 
cherished by local fisherman.
    Finally, this bill will create a dry-year-management-process to 
help better plan for dry years, including the impact on fish habitat 
and fishing, as well as boating and other recreational activities.
    The Crooked River Collaborative Water Security Act, to me, 
represents the best solution to a decades old debate in Central Oregon, 
and is a solution that came about by many diverse interests taking a 
leap of faith to come to the table together and ultimately find common 
ground.
    I am proud that we are now at a point where we can move this bill 
through the committee, and it is my hope that this bill can move 
quickly through the Senate.
    I would also like to quickly highlight two other bills that will be 
discussed in today's hearing, both of which are led by Senator Wyden 
and are bills I am proud to cosponsor. One is a bill to amend the 
Reclamation Safety of Dams Act, and the other would help to facilitate 
the development of marine hydrokinetic technologies.
    I'd also just like to recognize and welcome the two witnesses from 
Oregon who will be testifying on these bills later--Belinda Batten and 
Andy Duyck. We are very grateful to each of you for coming to testify 
on these important bills today.
    We have a dam in Oregon, the Scoggins Dam in Washington County, 
that has been in need of repairs for years to ensure that it could 
withstand a major earthquake.
    The bill to amend the Reclamation Safety of Dams Act will help get 
more funding for dam safety work, which I know is an issue not only for 
this dam in Oregon, but many other Bureau dams across the country.
    We also have in Oregon a program at Oregon State University that is 
working on creating a test facility for wave energy. This facility is 
exciting because it will allow companies to try out their technologies 
at utility scale and be grid connected.
    The Marine and Hydrokinetic Renewable Energy Act will also help to 
develop wave energy technology by removing regulatory obstacles for 
pilot projects and encourage more research and development.
    I am grateful for Senator Wyden's leadership on these two important 
bills, and I look forward to working with the members of the committee 
to advance these bills as well as the Crooked River Collaborate Water 
Security Act.

    I will now call upon the witnesses to come to the table and 
ask you to provide your testimony.
    Our first witness is Michael Carr, Principal Deputy 
Assistant Secretary in the Office of Energy Efficiency and 
Renewable Energy at the Department of Energy.
    We have also John Katz, Deputy Associate General Counsel 
for the Federal Energy Regulatory Commission.
    Finally Robert Quint, Senior Advisor at the Bureau of 
Reclamation in the Department of the Interior.
    Thank you very much for being here. Your written testimony 
will be included in the record in full. So please take 
approximately 5 minutes to summarize.
    Mr. Carr, we will start with you and then move down the 
line.

STATEMENT OF MIKE CARR, SENIOR ADVISOR TO THE DIRECTOR, ENERGY 
    POLICY AND SYSTEMS ANAYLSIS, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY, ENERGY EFFICIENCY AND RENEWABLE ENERGY, DEPARTMENT 
                           OF ENERGY

    Mr. Carr. Thank you, Chairman Schatz, Ranking Member Lee 
and members of the subcommittee. Thank you for the opportunity 
to testify on behalf of the U.S. Department of Energy on S. 
1419, the Marine and Hydrokinetic Renewable Energy Act of 2013.
    The Administration is still reviewing S. 1419 and does not 
yet have a formal position on the bill. But I'd like to 
summarize briefly here a few points about the bill.
    S. 1419 would reauthorize the Department's research and 
development program on marine and hydrokinetic or MHK 
technologies to improve their performance and survivability and 
drive down cost; among other things, directing DOE to develop 
appropriate testing infrastructure and support demonstrations 
of MHK energy technologies to verify performance and cost; and 
would expand the role of the National Marine Renewable Energy 
Centers to include in water testing and demonstration of MHK 
technologies.
    DOE supports the goals of ensuring U.S. leadership in 
innovating, validating and manufacturing MHK domestically and 
deploying these technologies sustainably.
    The Office of Energy Efficiency and Renewable Energy or 
EERE leads DOE's efforts to build a strong clean energy 
economy. We support research, development, and demonstration of 
cutting edge technologies in sustainable transportation, energy 
efficiency and renewable electricity generation including both 
hydropower and MHK technologies.
    Within EERE, the Water Power Program has made significant 
strides in advancing next generation MHK technologies; 
assessing existing resource potential; promoting deployment 
opportunities; and, in cooperation with other government 
agencies, assessing and mitigating any potential wildlife or 
environmental conflicts.
    A recent resource assessment of the Nation's wave, tidal, 
ocean and river current energy shows that the extractable 
potential of these resources represents up to 25 percent of 
projected U.S. generation needs by 2050. In particular there is 
significant potential to provide MHK generated electricity to 
coastal communities with higher average electricity prices and 
where long transmission runs are not cost effective.
    The Department plans to invest $41.3 million in fiscal year 
2014 to promote MHK technology, research, development, testing 
and demonstration.
    Fostering a domestic MHK industry requires strategic 
investments in research and development to drive down the cost 
and improve the performance of the most promising and cost 
competitive technologies. The Water Power Program goal is to 
achieve cost competitiveness at local coastal hurdle rates 
which are about 12 to 15 cents per kilowatt hour in 2030, 
projected.
    The Program's research activities enable the development of 
innovative technologies such as new drive train, generator and 
structural components and software that can better predict 
ocean conditions. DOE research also improves MHK reliability, 
technology readiness and survivability, like, for example, 
research on innovative corrosion resistant composite materials 
that can reduce the need for repairs and lower operations and 
maintenance costs.
    For testing and demonstration of MHK devices DOE has 
invested in 3 National Marine Renewable Energy Centers or 
NMRECs which are geographically diverse and test a wide range 
of MHK technologies in different water conditions and climates 
in order to validate technology performance and identify and 
address technology challenges early in the development cycle.
    A recent example includes the Northwest National Marine 
Renewable Energy Center's launch of a mobile instrumentation 
buoy that obtains critical technical and cost performance data 
for a variety of wave energy technologies. In general these 
centers will continue to support rapid technology evolution 
enabling cost competitive MHK technologies.
    One specific Water Power Program focus is on making 
strategic investments in transformative technologies like wave 
energy converter technologies through open water and test tank 
environment demonstrations. In-water demonstrations help 
evaluate the entire process of deploying MHK devices, 
validating construction, generation and operating expenses, and 
have greatly increased our knowledge and understanding of 
device performance and commercial readiness of MHK 
technologies.
    EERE's MHK sub program also pursues market acceleration and 
deployment activities that address key environmental and 
ecological uncertainties, which DOE believes currently 
represent the most significant barrier to rapid and efficient 
permitting and licensing of new demonstrations or commercial 
projects.
    In fiscal year 2014 DOE plans to invest $5 million in 
research that includes development of instrumentation for cost 
effective MHK environmental monitoring.
    In conclusion I'd like to thank you, the committee, for the 
opportunity to testify on S. 1419 and on DOE's work in 
advancing marine and hydrokinetic technologies. I look forward 
to working with this subcommittee to foster U.S. leadership in 
this nascent industry. I look forward to any questions you may 
have.
    Thank you.
    [The prepared statement of Mr. Carr follows:]

Prepared Statement of Mike Carr, Senior Advisor to the Director, Energy 
 Policy and Systems Analysis and Principal Deputy Assistant Secretary, 
 Office of Energy Efficiency and Renewable Energy, Department of Energy
                              introduction
    Chairman Schatz, Ranking Member Lee, and members of the 
Subcommittee, thank you for the opportunity to testify on behalf of the 
U.S. Department of Energy (DOE) on S. 1419, the Marine and Hydrokinetic 
Renewable Energy Act of 2013.
    The Department is still reviewing S. 1419 and therefore does not 
have a position on the bill at this time. S. 1419 would authorize the 
Department to perform research and development on marine and 
hydrokinetic (MHK) technology components, materials, and systems in 
order to improve performance, increase survivability, and drive down 
the technology's cost. S. 1419 would authorize the Department to 
develop appropriate testing infrastructure and support demonstrations 
of MHK energy technologies to verify their performance and cost. The 
legislation also would expand the authorized role of National Marine 
Renewable Energy Research, Development, and Demonstration Centers to 
include in-water testing and demonstration of MHK technologies.
                               background
    DOE is pursuing an all-of-the-above approach to developing every 
source of American energy. The Office of Energy Efficiency and 
Renewable Energy leads DOE's efforts to help build a strong clean 
energy economy, a strategy that is aimed at reducing our reliance on 
oil, saving families and businesses money, creating jobs, and reducing 
pollution. We support research, development, and demonstration (RD&D) 
of cutting-edge technologies in sustainable transportation, energy 
efficiency, and renewable electricity generation, including both 
hydropower and MHK technologies. The Department supports the goals of 
ensuring United States leadership in innovating, validating, and 
manufacturing MHK technologies domestically, as well as deploying these 
technologies sustainably in order to harness the energy potential of 
our various water resources while building a clean energy economy.
    The Water Power Program has recently completed comprehensive 
resource assessments that identify the potential of the nation's waves, 
as well as tidal, ocean, and river currents. These resource assessments 
estimate that the technically extractable resource potential is almost 
900 TWh/yr for wave energy\1\ and under 400 TWh/yr for tidal\2\ and 
ocean current,\3\ which represents up to 25 percent of projected U.S. 
generation needs by 2050. With more than 50 percent of the population 
living within 50 miles of coastlines, there is significant potential to 
provide clean, renewable electricity to communities and cities in these 
coastal regions using marine and hydrokinetic technologies. MHK 
technologies can more readily compete in the near term in coastal 
regions with higher average electricity prices, and close proximity of 
coastal populations to water resources reduces transmission distances. 
There are potentially many different ways that we can sustainably 
develop our water resources for energy and the Department is committed 
to helping identify new opportunities for developing renewable energy 
resources.
---------------------------------------------------------------------------
    \1\ Reprocessed at 100 meter depth data from P. Jacobson, G. 
Hagerman, and G. Scott, ``Mapping and Assessment of the United States 
OceanWave Energy Resource,'' Electric Power Research Institute, Report 
Number 1024637, 2011.
    \2\ K. Haas, H. Fritz, S. French, B. Smith, and V. Neary, 
``Assessment of Energy Production Potential from Tidal Streams in the 
United States,'' Georgia Tech Research Corporation, 2011.Upper bound 
derives from variation on assumptions in numerical models used.
    \3\ K. Haas, H. Fritz, S. French, and V. Neary, ``Assessment of 
Energy Production Potential from Ocean Currents Along the United 
StatesCoastlines,'' Georgia Tech Research Corporation, 2013. Upper 
bound derives from variation on assumptions in the numerical models 
used, and represents Gulfstream from FL to NC.
---------------------------------------------------------------------------
    Since DOE restarted its Water Power Program in fiscal year 2008, 
the Program has made significant strides in advancing next-generation 
water power technologies that can extract energy from moving water, 
including waves and currents in oceans, rivers, and tidal areas; 
assessing existing resources; promoting deployment opportunities; and 
developing this resource in an environmentally responsible manner.
    Fostering a domestic MHK industry requires strategic investments in 
research, development, testing, and demonstration to drive down the 
cost and improve the performance of the most promising and cost-
competitive technologies. The Department plans to invest $41.3 million 
in fiscal year 2014 to promote MHK technology development and testing 
in laboratory and open-water settings, while gathering the operational, 
environmental, and cost data needed to accelerate the responsible 
deployment and commercialization of MHK technologies.
    Furthermore, like all energy development, MHK deployment requires 
ensuring that our water, ecological, and marine life resources are 
protected. I will address these broad areas in turn.
                        research and development
    The levelized cost of energy (LCOE) of today's wave energy devices 
is between 61 and 77 cents per kilowatt-hour (/kWh), and is between 47 
and 53 /kWh for tidal stream energy devices.\4\ The MHK subprogram 
goal is to achieve cost-competitiveness at local coastal hurdle rates, 
which is approximately 12 to 15 /kWh by 2030. The Program has 
developed detailed cost models for six different MHK device designs 
using performance simulations and small-scale laboratory tests for 
validation. To build on these cost models and clearly identify cost 
reduction pathways, the Program is identifying research and development 
opportunities to reduce the LCOE for MHK devices, supporting a 
detailed, internal techno-economic assessment of MHK technologies and 
helping stakeholders identify research and development gaps to achieve 
cost-competitive energy rates by 2030. Using data from internal techno-
economic MHK assessment, the Department has established baseline costs 
for the technology to better inform MHK RD&D activities.
---------------------------------------------------------------------------
    \4\ ``The Carbon Trust, Accelerating Marine Energy,'' July 2011: 
http://www.carbontrust.com/resources/reports/technology/accelerating-
marine- energy
---------------------------------------------------------------------------
    Research activities enable the development of innovative 
technologies and improve the reliability and technology readiness of 
MHK systems. DOE currently supports systems and performance advancement 
projects to develop new drivetrain, generator and structural components 
as well as develop software that predicts ocean conditions and adjusts 
device settings accordingly to optimize power production. One example 
includes innovative components with cross-platform applicability, such 
as simplified drivetrain designs that will eliminate costly and 
unreliable gearboxes and hydraulics by utilizing permanent magnet and 
linear direct-drive generators. DOE also researches ways to improve the 
technology's survivability, like innovative corrosion resistant 
materials, such as composites, which can lower repairs and reduce 
operations and maintenance costs.
                       testing and demonstration
    DOE has invested in three National Marine Renewable Energy Centers. 
These Centers are geographically diverse, offering testing sites for a 
wide range of MHK technology types in different water conditions and 
climates, to help validate technology performance and identify and 
address technology deficiencies early in the development cycle. 
Recently, the Northwest National Marine Renewable Energy Center, led 
jointly by Oregon State University and the University of Washington, 
launched the Ocean Sentinel, a mobile instrumentation buoy to support 
ocean testing that obtains critical technical and cost performance data 
for a variety of wave energy technologies.
    Additionally, the Water Power Program is focused on making 
strategic investments in transformative technologies, including systems 
demonstration for advanced MHK industry projects like wave energy 
converter technologies. By supporting in-water demonstrations, the 
Program will have the opportunity to evaluate the entire process from 
demonstration inception to completion, validating construction, 
generation, and operating expenses and informing the investor community 
on the status and progress of MHK systems. Between fiscal year 2011 and 
fiscal year 2013, the Program cost-shared the testing of 10 MHK devices 
in open-water environments, and the testing of 8 MHK devices in test 
tanks in controlled conditions. These demonstrations have greatly 
increased our knowledge and understanding of device performance and 
their interaction with the environment. This important demonstration 
work helps to advance the commercial readiness of full-scale MHK 
technologies, like the first-ever grid-connected tidal power device in 
the United States in Cobscook Bay, Maine, now delivering enough 
electricity to the utility grid to alone power 25 to 30 homes annually.
                  developing mhk resources sustainably
    EERE's MHK subprogram pursues market acceleration and deployment 
activities that address key environmental and ecological uncertainties, 
which DOE believes currently represent the most significant barrier to 
rapid and efficient permitting and licensing of new demonstrations or 
commercial projects. In fiscal year 2014, DOE plans to invest $5 
million in activities that support a range of environmental studies and 
tool development to ensure that energy generated from MHK is not only 
renewable, but environmentally sustainable. This includes the 
development of instrumentation, associated processing tools, and 
integration of instrumentation packages for quickly and cost-
effectively conducting environmental monitoring of MHK technologies. 
Additionally, DOE is an active member of the International Energy 
Agency's Ocean Energy Systems group and recently collaborated with 
international partners to create the Tethys database, which catalogues 
and shares environmental research and monitoring information from 
around the world to enable sustainable development and expansion of 
clean, renewable ocean and offshore wind power. For the past four 
years, DOE has also served as the convener of the Federal Renewable 
Ocean Energy Working Group to discuss issues of importance, including 
environmental considerations, amongst relevant federal agencies.
                               conclusion
    In conclusion, I would like to thank you for the opportunity to 
testify on S. 1419 and on DOE's work to advance MHK technologies. The 
Department's goals are to help build a viable domestic MHK industry and 
secure a supply of efficient clean energy from our water resources by 
supporting innovations enabling cutting-edge MHK technology, testing 
and demonstration of these technologies, and tools and analysis to 
ensure we develop our marine and hydrokinetic resources sustainably. I 
look forward to working with this Subcommittee and with Congress to 
ensure United States leadership in this industry and to enable the 
deployment of this source of clean energy.

    Senator Schatz. Thank you very much.
    Mr. Katz.

   STATEMENT OF JOHN KATZ, DEPUTY ASSOCIATE GENERAL COUNSEL, 
              FEDERAL ENERGY REGULATORY COMMISSION

    Mr. Katz. Mr. Chairman, it's a pleasure to appear before 
you again. As a member of the staff of the Federal Energy 
Regulatory Commission my testimony represents my opinions alone 
and not necessarily those of the Chairman or of any 
Commissioner.
    The bill I'm here to testify also as to S. 1419, the Marine 
and Hydrokinetic Renewable Energy Act, the first portions of 
the bill deal with the Department of Energy's development, 
support of development, activities for the marine and 
hydrokinetic industry to the extent that the bills calls for 
the Commission to consult with DOE. FERC staff is prepared and 
happy to do that.
    The second portion of the bill deals with the development 
of test centers. As the Commission staff has discussed with 
you, DOE staff actually, with Dr. Batten as well, we recommend 
that such centers be under the aegis of DOE because if they're 
done as private entities then the Commission would have to----
    Senator Schatz. Mr. Katz, excuse me. I'm being told that we 
need to take a brief recess so I can visit the Floor and cast 
my vote. I'll be back as soon as possible.
    Thank you.
    [RECESS]
    Senator Barrasso [presiding]. I just visited with the 
Chairman downstairs. I was coming back from the vote. He was 
heading to the vote. He asked that we just please resume the 
testimony as things were and apologize for the interruption 
with votes like this.
    But thank you all.
    Mr. Katz. Thank you, Senator.
    I believe I was just in the middle of saying that with 
respect to the provisions of the bill that would authorize DOE 
to develop test centers, the Commission staff strongly 
recommends that those be under the aegis of DOE because if 
they're done by private entities those private entities would 
have to get involved in the process of obtaining a FERC 
license. Therefore it would be easier on them as if they were 
under the aegis of being a Federal facility since the 
Commission has no authorization to grant licenses for Federal 
facilities.
    The final part of the bill that I wanted to address would 
authorize the Commission to issue pilot licenses for test 
projects. The Commission has already issued several licenses 
for such projects under its existing authority. But should 
Congress choose to further define that authority the Commission 
would be happy to proceed under Congress' direction.
    With that I'm happy to answer any questions you might have.
    [The prepared statement of Mr. Katz follows:]

  Prepared Statement of John Katz, Deputy Associate General Counsel, 
                  Federal Energy Regulatory Commission
    Chairman Schatz, Ranking Member Lee, and Members of the 
Subcommittee:
    My name is John Katz, Deputy Associate General Counsel for Energy 
Projects, Federal Energy Regulatory Commission. I appreciate the 
opportunity to appear before you to discuss S.1419, the Marine and 
Hydrokinetic Renewable Energy Act. As a member of the Commission's 
staff, the views I express in this testimony are my own, and not 
necessarily those of the Chairman or of any individual Commissioner.
                             i. background
    Pursuant to Part I of the Federal Power Act (FPA), the Federal 
Energy Regulatory Commission authorizes and regulates non-federal 
hydropower projects. FPA section 4(e) provides that the Commission may 
issue licenses for hydropower project works located across, along, 
from, or in any of the streams over which Congress has jurisdiction 
under its commerce clause authority, and on any part of the public 
lands and reservations of the United States. FPA section 23(b) makes it 
unlawful (with exceptions not relevant here) for any person, state, or 
municipality, for the purpose of developing electric power, to 
construct hydropower project works on the navigable waters of the 
United States, on non-navigable waters over which Congress has Commerce 
Clause jurisdiction, on public lands or reservations, or using surplus 
water or power from any government dam, except pursuant to a license 
issued by the Commission.
    Under the FPA, the Commission regulates over 1,600 hydropower 
projects at over 2,500 dams. Together, these projects represent 54 
gigawatts of hydropower capacity, more than half of all the hydropower 
in the United States. Hydropower is an essential part of the Nation's 
energy mix and offers the benefits of an emission-free, renewable, 
domestic energy source with public and private capacity together 
totaling about nine percent of the U.S. electric generation capacity.
    During the last decade, there has been increasing interest in 
developing projects using new technology that produces electricity 
utilizing waves or the flow of water in ocean currents, tides, or 
inland waterways. These are referred to as marine and hydrokinetic 
projects. By early 2007, the Commission had received more than 50 
applications for preliminary permits to study such projects, and had 
held a technical conference with respect to the development of these 
new technologies. The Commission then issued an interim policy 
statement with respect to its review of marine and hydrokinetic 
preliminary permit applications.
    In 2008, Commission staff issued guidance on licensing marine and 
hydrokinetic pilot projects. The guidance discussed the issuance, under 
the Commission's existing authority and regulations, of five-year pilot 
licenses to enable developers to study and test new technology. Pilot 
project licenses would be for projects that were small, short-term, not 
located in environmentally sensitive areas, would be able to be shut 
down on short notice, and would be removed at the end of the pilot 
license term, unless a new license was granted at that time. Applicants 
would be required to consult with affected federal, state, and local 
resource agencies, Indian tribes, non-governmental agencies, and 
members of the public.
    Since the issuance of the Commission policy statement and staff 
guidance, Commission staff has worked closely with project developers 
and other stakeholders to explore the development of marine and 
hydrokinetic projects. There are currently 11 preliminary permits in 
effect for marine and hydrokinetic projects. To date, the Commission 
has licensed six marine and hydrokinetic projects, three of which were 
pilot projects, and is reviewing one application for a pilot tidal 
project.
                               ii. s.1419
    Section 102 of S.1419 provides that the Secretary of Energy, in 
consultation with the Secretary of the Interior, the Secretary of 
Commerce, and the Commission, shall carry out a program of research, 
development, demonstration, and commercial application to expand marine 
and hydrokinetic renewable energy production. While the Commission is 
not authorized or funded to engage in research, development, or 
commercial application activities, Commission staff is prepared to 
assist the Secretary, as appropriate, in these matters.
    Section 103 of S.1419 provides for the development, under the 
Secretary of Energy, of national marine renewable energy research, 
development, and demonstration centers. Commission staff has discussed 
such centers with staff at the Department of Energy and believes that 
the centers could provide important support for the development of 
marine and hydrokinetic technology. Because the FPA requires that 
projects developed by private entities, states, and municipalities that 
are located in the navigable waters be licensed by the Commission, 
Commission staff believes that a regime in which the test centers would 
be owned by the Department of Energy would be preferable, so that 
testing would not require Commission authorization.
    Section 201 of S.1419 would amend the FPA to authorize the 
Commission to issue pilot project licenses under specified criteria. As 
noted, the Commission has already issued pilot project licenses and 
Commission staff has developed guidance with respect to such licenses, 
under the assumption that the FPA currently provides authority for the 
Commission to do so. No entity has to date suggested that these actions 
are beyond the scope of the FPA. However, it is up to Congress to 
determine whether the Commission should be provided with explicit 
statutory authority in this area. To the extent that section 201 
establishes criteria for qualifying pilot projects, Commission staff 
recommends that project developers and other stakeholders be given the 
opportunity to present their views on these matters. In addition, 
Commission staff recommends providing some flexibility in the criteria, 
given the unknowns in developing a new industry.
    I would be pleased to answer any questions you may have.

    Senator Barrasso. Thank you very much, Mr. Katz.

     STATEMENT OF ROBERT QUINT, SENIOR ADVISOR, BUREAU OF 
            RECLAMATION, DEPARTMENT OF THE INTERIOR

    Mr. Quint. Thank you, Senator Barrasso and other members of 
the subcommittee. Thank you for the opportunity to testify on 7 
bills before the subcommittee today.
    I'm Bob Quint, Senior Advisor at the Bureau of Reclamation. 
My full written statements have been submitted for the record 
on all 7 bills.
    Because of the number of bills and the limited time I will 
summarize my written statements here and be available for 
questions.
    Taking them in order, S. 1771, the Crooked River 
Collaborative Water Security Act.
    S. 1771 is the latest version of legislation that has 
carried over from the 112th Congress. S. 1771 would move a Wild 
and Scenic River's boundary that had been placed across the 
center line of Bowman Dam and place it a quarter mile 
downstream. The bill also allows for water supply and 
operational changes of the reservoir.
    With some technical changes detailed in my written 
statement the Department would support S. 1771.
    S. 1800, the Reclamation Transparency Act.
    S. 1800 deals with information available on Reclamation's 
water and power infrastructure. As written the bill requires 
Reclamation to prepare biannual reports to Congress with 
detailed assessments of major repair and rehabilitation needs 
at each of the several thousand individual facilities within 
Reclamation's more than 180 projects. We understand the desire 
in Congress for more information on the state of Reclamation's 
infrastructure. However, Reclamation has several concerns with 
the bill as written among them the cost to implement it, the 
value of the end product and the difficulty of achieving a 
uniform level of detail for facilities that are hugely variable 
in their role and importance.
    We would like to work with the sponsor and this 
subcommittee to provide additional information on our 
facilities and to offer amendments to the bill consistent with 
my written statement.
    S. 1946, to amend the Safety of Dams Act.
    S. 1946 amends the Reclamation's Safety of Dams Act to 
authorize such sums that are necessary for ongoing safety and 
corrective actions at Reclamation dams. Dam safety will be a 
permanent obligation of our agency and we do not foresee a time 
when this work will not require Federal funding. For that 
reason we believe that it's good policy to remove the ceiling 
for appropriations from this important program. The Department 
strongly supports this bill.
    S. 1965, the East Bench Irrigation District Contract 
Extension.
    S. 1965 renews a water service contract between Reclamation 
and the East Bench Irrigation District that is necessary due to 
the circumstances under current Montana State Law. Reclamation 
has supported Federal legislation to legislatively extend this 
contract before. We are glad to support S. 1965.
    S. 2010/H.R. 1963, Conduit Hydropower Development Equity 
and Jobs Act.
    S. 2010 builds on previous legislation meant to expand the 
number of facilities where Reclamation can permit non-Federal 
development of hydropower on existing facilities. Reclamation 
testified on H.R. 1963, a companion measure to S. 2010 last May 
before the House Water and Power Subcommittee. H.R. 1963 was 
amended by the House of Representatives and that bill is 
identical to the legislation before the subcommittee today, S. 
2010.
    With some technical amendments detailed in my testimony the 
Department supports S. 2010 and H.R. 1963.
    S. 2019, the Secure Water Act Amendments of 2014.
    S. 2019 would amend Section 1904(e) of the Secure Water Act 
raising the ceiling from 200 million to such sums that are 
necessary for each of the fiscal years 2015 through 2023. The 
bill also clarifies the Department's ability to plan for and 
address drought and makes Hawaii an eligible State for 
participation of the WaterSMART, water conservation grant 
program.
    The Department strongly supports this bill.
    Last, S. 2034, Title Transfer legislation.
    The subcommittee has requested testimony on S. 2034, 
Reclamation Title Transfer Act of 2014. The Department has long 
recognized the value providing programmatic authority for the 
transfer of title for facilities that are non-controversial and 
typically single purpose. We believe S. 2034 would achieve this 
goal and we support the bill.
    In summary the Department with a few changes in these bills 
and could potentially support passage of all 7 bills. Passage 
of these will afford Reclamation's mission of delivering water 
and power providing continuing benefits to the American West.
    I'd just like to add on a personal note. I was just 
informed that my former, my new, soon to be former boss, Mike 
Connor, was just confirmed as Deputy Secretary of Interior. I 
applaud the Senate for their wisdom in doing that.
    This concludes my statement. I'd be pleased to answer 
questions at the appropriate time. Thank you.
    [The prepared statements of Mr. Quint follow:]

     Prepared Statement of Robert Quint, Senior Advisor, Bureau of 
                Reclamation, Department of the Interior
                                s. 2034
    Chairman Schatz and members of the Subcommittee, I am Bob Quint, 
Senior Advisor at the Bureau of Reclamation. I am pleased to provide 
the views of the Department of the Interior on S. 2034, The Reclamation 
Title Transfer Act of 2014. While we support the intent of this 
proposal, we have not had the opportunity to conduct a thorough 
analysis of the bill, so we would appreciate the opportunity to work 
with the Committee to address any technical issues that we may 
identify. Today, I will share the Bureau of Reclamation's ongoing 
efforts to facilitate the transfer of title to Reclamation projects and 
facilities and some examples of technical considerations we have 
identified already.
    S. 2034 would authorize the Secretary of the Interior to establish 
a program to identify and analyze the potential for public benefits 
from the transfer of eligible facilities out of Federal ownership. It 
would also authorize the Secretary to transfer title, without a further 
Act of Congress, to certain Reclamation facilities out of Federal 
ownership to qualifying entities that the legislation identifies as 
having the capacity to ``manage the conveyed property for the same 
purposes that the property has been managed under Reclamation law.''
    The Department believes that S. 2034 is consistent with efforts 
that the Bureau of Reclamation currently has underway and meets the 
goals for improving the effectiveness, timeliness and efficiency of 
managing water resources facilities in the West.
    Mr. Chairman, we see title transfer as an important tool for 
improving the management of water in the West. In many cases, because 
of the evolution of water resource management and business in the West, 
there is no longer a compelling public, national or Federal interest in 
some of the projects or project facilities that Reclamation owns, but 
which are operated by the entities that enjoy the benefits and bear the 
costs of operating those facilities. For these types of projects, title 
transfer is a win-win. For the water user, taking title would afford 
greater flexibility in how they carry out project operations and would 
enable them to avoid certain costs associated with reporting and 
compliance with Federal requirements. From our perspective, title 
transfer would allow Reclamation to refocus our limited resources on 
other high priority activities and relieves us of some liability as the 
owners of the project.
                               background
    In 1995, the Bureau of Reclamation began an effort to facilitate 
the transfer of title to Reclamation projects and facilities in a 
consistent and comprehensive way. Reclamation developed a process known 
as the Framework for the Transfer of Title--whereby interested non-
Federal entities could work with and through Reclamation to identify 
and address all of the issues that would enable a title transfer to 
move forward. Once completed, Reclamation and the entity interested in 
taking title would work with the Congress to gain the necessary 
authorization for such a title transfer. As we gained experience, the 
process has evolved and improved. As we worked through various 
transfers, some were successful and some were not. Over that time 
period, we've learned important lessons and have modified the process 
to improve the efficiency and reduce the associated costs.
    Since 1996, the Bureau of Reclamation has transferred title to 
twenty-seven (27) projects or parts of projects across the West--
pursuant to various Acts of Congress. There are some additional 
transfers that are authorized and awaiting completion. In one case, a 
district receiving title is completing real estate surveys and 
preparing the quit claim deeds necessary to record the change of 
ownership with the county. There are two other authorized transfers 
where portions of the project were already transferred, but the 
entities receiving title decided to split the transfers up in order to 
accomplish other objectives prior to completing the transfer on a 
portion of the project that still remains in Federal ownership. 
Further, there is another transfer that is working through completing 
certain steps and activities which require compliance with various 
Federal laws including the National Environmental Policy Act (NEPA) and 
the National Historic Preservation Act (NHPA) as called for by the 
authorizing legislation.
    Since each project is unique, each of the authorizing laws enacted 
has different terms. Each requires that different actions be taken 
prior to transfer, such as the completion of the process under NEPA, or 
agreements with State and local agencies over recreation or cultural 
resources management.
    While Reclamation has had success with title transfer of projects 
and facilities, we remain concerned that the process takes too long and 
can be too costly. The number of new proposed transfers is declining, 
and it may be due in part to time and cost of the process. We believe 
that there may be several opportunities for mutual benefit that could 
come from the transfer of projects or facilities that are not being 
realized, and we see the goals of S. 2034 as helping in that regard.
Comprehensive Review of Reclamation's Title Transfer Efforts
    Every few years, Reclamation steps back and reviews our title 
transfer efforts with an eye toward making the process more effective. 
In 2003, a Team lead by the Department of the Interior's Office of 
Policy Analysis undertook a comprehensive review of Reclamation's title 
transfer effort. The review looked at the process as a whole as well as 
specific individual transfers that were successfully completed and 
other transfers that did not move forward. This effort included a 
survey of Reclamation employees involved in title transfer, a workshop 
and numerous interviews with water users that both pursued title 
transfer and those that opted not to pursue title transfer. It also 
included interviews with stakeholders from states, local governments, 
the environmental community and congressional staff members who were 
involved in various legislative efforts related to individual transfers 
at the time. This effort was followed up by the Managing for Excellence 
Initiative, which was proposed in 2008; and we implemented many changes 
to make the process more efficient. However, we are still not satisfied 
that we are maximizing the benefits of title transfer.
    At this point, I would like to share a number of important lessons 
that we learned in these efforts that are still relevant--and I hope 
these lessons inform the discussion surrounding this legislation.
Each Project is Unique
    One of the early lessons that we learned, and that is reinforced 
with each new title transfer effort, is that each project and set of 
facilities is unique. Each project was authorized to address a 
particular set of circumstances, both hydrologic as well as economic. 
As such, a ``cookie cutter'' or ``one size fits all approach'' would 
not meet the needs of the water users, the customers, other 
stakeholders or Reclamation. That is not to say that there cannot be a 
set of criteria developed, but those would need to be flexible. We 
believe that S. 2034 acknowledges these circumstances.
No Such Thing As a ``Simple Project''
    Many Reclamation projects may appear to be ``simple'' title 
transfers or ``simple'' projects for title transfer because complex or 
controversial issues are absent. However, in our experience even the 
``simple'' title transfers had unique complexities that were unknown 
when we started the process that must be identified and addressed. 
Certain types of projects tend to have complicating issues, such as 
older projects, projects with facilities that cover a relatively large 
geographic area, and particularly projects where significant amounts of 
land or built up structures exist. Land records associated with older 
projects may be missing or the quality of the information in existing 
records may be poor. Projects covering a wide geographical area have a 
large volume of land records which must be located, assembled, and 
reviewed.
Develop Local Agreements Prior to the Legislative Process
    While Reclamation's title transfer process has evolved, we believe 
that one central tenet of the process continues to hold true. Since 
each project is unique and has its own potentially complex 
circumstances, the analysis of the implications of that transfer should 
be completed and an agreement should be reached on the terms and 
conditions before seeking authorization of the transfer of projects and 
facilities. Further, we have had the most success when that analysis 
has been completed collaboratively with the relevant customers and 
stakeholders and those agreements were developed at the local level. 
This has led to innovative solutions that allowed the proposal to move 
forward.
    Early on in the title transfer effort, some districts opted not to 
go through Reclamation's locally negotiated process. Instead, they 
immediately approached their congressional representatives in hopes of 
getting legislation passed and the facilities transferred quickly. In 
most cases, this proved to be a slower route than those that went 
through Reclamation's cooperative process. In many of these cases, 
there were issues or controversies related to the facilities that were 
not addressed at the local level between customers and stakeholders of 
the facilities. Instead, they were being negotiated through the 
legislative process. In some situations, where legislation was 
authorized prior to the analysis being completed, circumstances or 
problems were identified that required a second or third legislative 
proposal and Congressional action to address, thereby delaying the 
ultimate transfer even further.
    In many recent cases--particularly those that have been 
successful--we have seen water districts and interested non-Federal 
entities work with Reclamation to complete all the necessary analysis 
and public involvement, and then reach an agreement prior to pursuing 
the legislative authorization from Congress. This has made the 
legislative process less controversial and has made implementation, 
once the transfer was authorized, less costly and more efficient. Two 
excellent examples are the American Falls Reservoir District #2 in 
Idaho, which was transferred in 2008, and the Yakima Tieton Irrigation 
District in Washington State, which was transferred in 2009. In both 
these cases, Reclamation worked closely with the districts, the states 
involved and other stakeholders to identify issues and concerns and to 
reach agreements to address them. By working with stakeholders to 
address issues and build consensus in advance of legislation, the 
Administration was able to enthusiastically support both bills in 
testimony before this Committee.
Legislative Process
    Another source of delay and cost is the process and time needed to 
get the legislation authorizing the transfer completed. In some of the 
cases where we followed the established process--that is, the terms and 
conditions of the title transfer had been negotiated at the field level 
and there was consensus among all of the stakeholders--the legislative 
process still took a long time. In many cases the length of time was 
longer than the process of negotiating the title transfer agreement and 
completing compliance with the Federal and state laws, such as NEPA. In 
some cases, this process has taken 4--6 years or more and resulted in 
significant costs to the water users for advocating for their title 
transfer legislation. This delay and the costs associated with 
advocating for legislation has acted as a disincentive for the pursuit 
of title transfer.
Administrative and Transaction Costs
    Because the Bureau of Reclamation does not currently have a title 
transfer program, costs to complete the process--including 
investigating financial, operational and economic issues and complying 
with NEPA and other Federal and State laws--cannot be budgeted or 
provided by Reclamation but must be paid for with funds being provided 
by the water users. In some cases, the legislation authorizing title 
transfer has authorized a reimbursement or offset to the valuation, but 
by and large, the entity interested in taking title must bear those 
initial costs without any promise that the process will result in title 
transfer. As such, many water users who would otherwise be interested 
in title transfer and whose projects would be a good candidate do not 
choose to pursue title transfer, thereby losing a mutually beneficial 
opportunity to transfer facilities out of Federal ownership.
                                s. 2034
Section 3(a)
    The Reclamation Title Transfer Act of 2014 proposes to address many 
of the issues identified above by authorizing the establishment of a 
program that would enable Reclamation to proactively identify and 
analyze the potential public benefits from the transfer out of federal 
ownership. Assuming funds are appropriated, this program would help 
avoid the uncertainties and conflicts that arise when determining how 
the transaction and administrative costs will be paid and avoid the 
water users having to up front all the costs associated with the early 
activities necessary to determine whether title transfer is an 
appropriate option. This is an important provision that we believe 
would improve Reclamation's flexibility for addressing the costs 
associated with title transfer and would provide an incentive for water 
users to seriously consider title transfer. . We do believe that water 
users who would benefit from title transfers should still assume the 
appropriate costs related to such transfers, but we view this section 
as consistent with that position in that it would provide additional 
flexibility for how and when such costs should be addressed.
Section 3(b)
    This section authorizes the Secretary to convey all right title and 
interest in any eligible facilities without a further Act of Congress 
that meet certain eligibility criteria that are identified in Section 
5. This provision would enable the Department to save significant 
amounts of time, as well as Federal and non-Federal resources, while 
ensuring that the Federal and public interests are protected.
    We believe that the combination of these provisions of S. 2034 
would provide incentives for Reclamation and water users to pursue 
title transfer and more importantly, would remove some of the barriers 
that currently act as road blocks for moving forward.
    We laud and share the goals identified in S. 2034. Transferring 
title can result in increased efficiencies and other benefits that 
would be of significant importance to both the project beneficiaries as 
well as Reclamation. We see this proposal as a step in the right 
direction. Because of the limited time we've had to review this 
proposal, I don't have an exhaustive list of recommendations for you. 
In the near future we hope to identify and offer alternatives for any 
technical problems in the language of the bill that would otherwise 
delay implementation. We look forward to working with the Committee in 
this effort.
    That concludes my statement. I would be happy to answer any 
questions.
                                s. 1771
    Chairman Schatz and members of the Subcommittee, I am Bob Quint, 
Senior Advisor at the Bureau of Reclamation (Reclamation). I am pleased 
to provide the views of the Department of the Interior (Department) on 
S. 1771, the Crooked River Collaborative Water Security Act of 2013. 
The provisions of S. 1771 address the Crooked River Wild and Scenic 
River designation along with water supply concerns relating to 
Reclamation's Crooked River Project.
    The Department supports the goals of correcting the Wild and Scenic 
River boundary near Bowman Dam and improving Reclamation project 
operations, where possible, to further enhance water use and 
availability. We also recognize refinements made since similar 
companion legislation was heard in the House in June of last year. We 
believe that some of the provisions of S. 1771 will advance the goal of 
water security on the Crooked River, and we offer the following 
recommendations for improvements to the bill. If the changes summarized 
below are incorporated to the bill, the Department can support S. 1771.
    S. 1771 includes seven sections which address: the Wild and Scenic 
River designation near Bowman Dam; water supply for the City of 
Prineville; first fill protection for water in Prineville Reservoir; 
operating requirements ``for the benefit of downstream fish and 
wildlife''; repayment contract provisions for the Ochoco Irrigation 
District (District); requirements that Reclamation participate in 
``dry-year management planning meetings''; and savings clause language 
clarifying the bill's effect on existing law. This statement summarizes 
the Department's interest in the most significant provisions of each 
section.
    An eight-mile segment of the Lower Crooked River near Prineville, 
Oregon was designated as a National Wild and Scenic River in 1988 with 
enactment of the Omnibus Oregon Wild and Scenic Rivers Act (Public Law 
100-557). The Lower Crooked River meanders through canyons of deeply 
eroded basalt and banks covered with riparian vegetation. A variety of 
wildlife including river otters, beaver, great blue herons and mule 
deer inhabit the corridor. A wide-range of recreation opportunities are 
available along the Lower Crooked River including native trout fishing, 
camping, hiking and boating.
    When the Wild and Scenic River boundary was administratively 
finalized for this section of the Crooked River, the centerline of 
Bowman Dam was used as the upstream terminus of the designation. 
However, the placement of the beginning of the designation within this 
man-made feature is both counterintuitive and cumbersome to administer. 
Section 2 of S. 1771 addresses this by moving that upper limit of the 
designated river one-quarter mile downstream. The Department of the 
Interior supports the proposed modification of the boundary as a 
reasonable solution consistent with the original intent of the Wild and 
Scenic designation. The Department is willing to work with the Sponsor 
and the Committee to determine the exact placement of the new boundary. 
Clearly the dam and related facilities were never intended to be 
included within the wild and scenic river designation.
    Section 3 of S. 1771 amends the Act of August 6, 1956 (70 Stat. 
1058), by requiring releases to serve as mitigation for groundwater 
pumping by the City of Prineville. The Department does not oppose the 
concept of providing releases to mitigate for municipal use of 
groundwater. We believe the bill's language of ``without further action 
by the Secretary. . .'' and its references to applicable Bureau of 
Reclamation policies, directives and standards to be contradictory and 
subject to interpretation as to the need for NEPA compliance and a 
contract. We recommend deleting the words ``Without further action by 
the Secretary of the Interior, beginning on the date of enactment of 
the Crooked River Collaborative Water Security Act of 2013'' and 
replacing it with, ``Upon passage of the Crooked River Collaborative 
Water Security Act of 2013, the Secretary of the Interior is authorized 
to contract with the City of Prineville for up to 5,100 acre-feet of 
water in Prineville Reservoir and upon receipt of required payments may 
release such water on an annual basis to serve as mitigation. . .''
    An additional concern with S. 1771 is the bill's statement that 
``the Secretary may contract exclusively with the City of Prineville 
for additional quantities of water, at the request of the City of 
Prineville.'' This language would preferentially benefit the City of 
Prineville and appears to close the door to any potential future 
irrigation or municipal water contractors of the Crooked River Project 
(Project).
                     first fill storage and release
    Section 4 of S. 1771 also proposes an entirely new addition to the 
1956 Act. The proposed addition would provide existing contractors and 
others with a ``first fill'' priority basis, rather than the current 
situation where both contracted and uncontracted storage space in 
Prineville Reservoir fill simultaneously. While this provision is not 
likely to have any immediate effect, it is possible under the proposed 
first fill priority system that in very dry water years the last fill 
entity could be shorted. Also, the additional quantity of water 
reserved for the City of Prineville is not addressed in this section, 
and Reclamation interprets the bill such that any future quantities of 
water made available to the City (beyond the 5,100 acre feet) will not 
be subject to first fill protection and may affect the use of water for 
the benefit of downstream fish and wildlife.
        storage and release of remaining stored water quantities
    The Department supports the concept of providing some of the now 
uncontracted space in the reservoir for fish and wildlife purposes. 
However, the inserted Section 7(a) requirements to release all 
remaining stored water quantities for the benefit of downstream fish 
and wildlife will prevent Reclamation from issuing new contracts.
    We note that the bill's language also inserts a Section 7(b) into 
the 1956 Act which would require that if a consultation under the 
Endangered Species Act or an order of a court requires releases of 
stored water from Prineville Reservoir for fish and wildlife, the 
Secretary shall use uncontracted stored water. Reclamation would 
interpret this provision to set a new precedent in legislatively 
prescribing operation of the Crooked River Project. Reclamation 
interprets this section as altering but not eliminating agency 
discretion with respect to contract water supplies, therefore, 
sufficient discretion would remain with respect to the operation of the 
Project to warrant consultation under Section 7(a)(2) of the Endangered 
Species Act. The limit of Reclamation's discretion is not entirely 
clear, and could be subject to contrary interpretations.
    S. 1771 adds a Section 7 (c) to the 1956 Act, requiring the 
development of ``annual release schedules'' to maximize biological 
benefit for downstream fish and wildlife. This subsection also requires 
consideration of guidance provided on the annual release schedule by 
the Warm Springs Reservation of Oregon and the State of Oregon and an 
opportunity for comment and advice on the annual release schedules by 
the US Fish and Wildlife Service and the National Marine Fisheries 
Service. As in past versions of this bill, Reclamation notes a 
potential for conflict if the federal, state and tribal management 
priorities are not aligned. Likewise, the limitation of the use of the 
reservoir for downstream resources, could cause similar problems if a 
species were to be listed in or above the Reservoir. As drafted 
however, Reclamation would interpret the amended Section 7(c) as not to 
alter Reclamation's obligations under Section 7(a)(2) of the Endangered 
Species Act.
    Section 5 of S. 1771 would provide for early repayment of project 
construction costs by landowners within the District and the District's 
participation in conserved water projects of the State of Oregon. The 
Department fully supports these objectives and has no concerns 
regarding corresponding language in the bill.
    The Department also supports the McKay Creek Exchange Project which 
has been the subject of periodic discussions between the District and 
Reclamation and which would provide enhanced instream flows in McKay 
Creek in exchange for water from a portion of the uncontracted water 
supply from Prineville Reservoir.
    The Department does not see the need for language in Section 6 of 
S. 1771 requiring that Reclamation participate in ``Dry Year Management 
Planning'' meetings and develop a Dry Year Management Plan. Reclamation 
already has standing authority to provide technical and planning 
assistance to state, local and tribal government entities under Title 
II of the Reclamation States Emergency Drought Relief Act (PL 102-250 
as amended). This planning authority does not expire, and is not 
subject to a standing drought declaration being in place in the area of 
interest. The Drought Act authority is sufficiently broad to cover the 
topic areas proscribed in Section 6 of S. 1771, without creating a new 
Congressional reporting burden on the Department. However, if this 
language remains, we suggest deleting at the end of Section 6(c), 
``with the voluntary agreement of North Unit Irrigation District and 
other Bureau of Reclamation contract holders referred to in that 
paragraph, the Secretary may release that quantity of water for the 
benefit of downstream fish and wildlife as described in section 7 of 
that Act.'' This language limits Reclamation's authority and creates a 
burdensome requirement that could more efficiently be addressed by 
requiring entities to contact Reclamation prior to June 1 of any year 
or the water will be released downstream.
    While the Department supports the goals of S. 1771, we believe that 
the bill would benefit from changes as outlined here. This concludes my 
written statement. I am pleased to answer questions at the appropriate 
time.
                                s. 1800
    Chairman Schatz and members of the Subcommittee, I am Bob Quint, 
Senior Advisor at the Bureau of Reclamation (Reclamation). I am pleased 
to provide the views of the Department of the Interior (Department) on 
S. 1800, the Bureau of Reclamation Transparency Act. As currently 
written, the Department does not support S. 1800 but would be pleased 
to work with the bill sponsors on refinements to the legislation to 
address the concerns described below.
    Under Section 4 of S. 1800, the Secretary of the Interior would be 
required to submit biennial reports to Congress on `the efforts of the 
Bureau of Reclamation to manage all Reclamation facilities,' including 
efforts to standardize and streamline data reporting and processes for 
managing Reclamation facilities. S. 1800 directs that the reports 
provide itemized lists of ``major repair and rehabilitation needs'' at 
all Reclamation facilities, showing estimated costs, and ranked via a 
categorical rating system to be developed through new regulations 
pursuant to Section 4(b)(3)(B) of the bill. Sensitive or classified 
information could be excluded from a required public version of the 
report, but that information would be required in the versions 
delivered to Congress. The Department has several concerns with this 
legislation as introduced, and believes that the preparation and 
publication of the reports in this bill would constitute a duplication 
of other existing efforts which will not improve the body of 
information available on Reclamation's infrastructure, nor result in 
more effective application of available resources to address facility 
maintenance. Having said that, the Department is aware of the desire in 
Congress for more information on the status of Reclamation's 
infrastructure, and in accordance with the Administration's Open Data 
Policy and Executive Order, the Department is committed to openness and 
transparency of data, including Reclamation data on facility 
management. To that end we would appreciate the opportunity to work 
with the sponsors on potential amendments to the bill that would 
provide Congress and the public additional information regarding 
Reclamation's infrastructure though augmentation of other existing 
reporting efforts.
    Reclamation's annual budget requests include the best yearly 
representations of the appropriated funds needed for maintenance at 
Reclamation facilities. Reclamation's budget documents, delivered to 
Congress annually and posted online, are developed over a multi-step 
18-month process that begins at the field office level where managers 
consider the condition of the facilities under their jurisdiction, 
safety considerations associated with facilities' condition, and--very 
importantly--the ability of operating partners to fund the work 
identified pursuant to the terms of their contract and requirements of 
Reclamation Law. Investments in major rehabilitations and replacements 
are analyzed and prioritized at the field, regional, and bureau levels 
based on criteria such as: Engineering Need; Risks and Consequences of 
Failure; Efficiency Opportunities; Financial Feasibility; and 
availability of Non-Federal Cost Share.
    During this process, Reclamation categorizes the information that 
will go into its budget requests using its Programmatic Budget 
Structure (PBS). The PBS uses two of its five primary categories to 
show the budget request for Operations and Maintenance (O&M) 
activities: 1. Facility Operations, and 2. Facility Maintenance and 
Rehabilitation. It should be noted that in addition to the appropriated 
funds in these two budget categories, a generally equal amount of O&M 
activities are paid for directly by water and power users with their 
own funds or project revenues.
    The Facility Operations category includes items and activities that 
are necessary to operate Reclamation facilities to produce authorized 
project benefits for water supplies, power, flood control, fish and 
wildlife, and recreation. This category includes not only facility 
operations by Reclamation at reserved works, but also Reclamation's 
oversight of the operations of facilities performed by water user 
entities at transferred works. Facility Operations includes all routine 
or preventive maintenance activities. Routine maintenance is defined as 
recurring daily, weekly, monthly, or annually, and most tasks performed 
by Reclamation maintenance staff are included in this category. Also 
included in this category are routine safety and occupational health 
items, including those for workplace safety inspection and hazard 
abatement. The amount budgeted under this category for each facility is 
the funding necessary to perform routine O&M activities. On an annual 
basis, each region, along with centralized program management staff, 
determines the appropriate budget level to support staffing and other 
resources necessary at each facility for continued operations to 
deliver authorized project benefits.
    The second category, Facility Maintenance and Rehabilitation, 
addresses the needs over and above the resources in Facility 
Operations, and corresponds roughly to the concept of major 
rehabilitations and replacements. The Facility Maintenance and 
Rehabilitation category includes major and non-routine replacements and 
extraordinary maintenance of existing infrastructure. This category 
also includes activities to review and conduct condition assessments 
(facility O&M, dam safety and site security inspections), as well as 
funding necessary for the correction of dam safety deficiencies (dam 
safety modifications), the implementation of security upgrades, and 
building seismic safety retrofits. Consequently, most of the budgeted 
items under this category are related to site-specific facility needs.
    After the field offices identify prioritized major rehabilitation 
and replacement activities in their jurisdiction that require 
appropriated funds, they are evaluated at the regional level where 
these are compared to the needs and priorities of other activities and 
facilities in that region. There are five regions within Reclamation. 
The regions' PBS allotments for Facility Maintenance and Rehabilitation 
each year are then evaluated at the next level of internal review, with 
Reclamation's Budget Review Committee (BRC) process. A given year's BRC 
is working in advance of a budget request two years into the future, 
and is comprised of senior management from across the agency, providing 
the maximum breadth of relevant experience and program knowledge. The 
region presents its priorities to the BRC, which evaluates the major 
rehabilitation and replacement needs and priorities against those of 
other regions in order to ensure that Facility Maintenance and 
Rehabilitation activities reflect Reclamation's greatest overall need 
and agency priorities. No urgent maintenance issues necessary to the 
safe operation of a facility are deferred in the budgeting or facility 
review processes. The end result is a budget request that has been 
prioritized and vetted across the organization, concurrent with input 
from the Department and Reclamation leadership.
    To better understand upcoming needs, and for the purpose of 
reporting asset condition at a specific point in time to the Federal 
Real Property Profile to meet requirements of the Executive order 
13327, ``Federal Real Property Management'', in a separate effort which 
informs the annual budget process, Reclamation develops and annually 
updates estimates of major rehabilitation and replacement (MR&R) needs, 
including deferred maintenance, for its infrastructure looking out five 
years. As a result, these ``MR&R needs'' represent an outlook of 
Reclamation's best estimate of identified extraordinary maintenance, 
repairs, rehabilitation, and replacement needs at a point in time 
looking forward five years, regardless of funding source, for all 
assets. The estimated total in 2011 amounted to $2.6 billion over five 
years (fiscal years 2012-2016)\1\. It is important to note that a 
substantial portion of projected needs to address the rehabilitation of 
aging infrastructure (roughly $1.2 billion of the $2.6 billion 
estimate) will be financed directly by our water and power customers. 
Cost estimates associated with these identified needs range from 
``preliminary'' to ``appraisal/feasibility'' level. Thus, these 
estimates should not be collectively assumed to be at one particular 
uniform level of detail. Variability in the MR&R estimates from year to 
year may be the result of additional information received from the 
estimating source (i.e., Reclamation field offices and non-federal 
operating entities), changes in field conditions, further evaluations 
conducted, and work priorities, thus impacting the inclusion or 
deletion of specific identified needs within a particular year, or from 
year to year.
---------------------------------------------------------------------------
    \1\ www.usbr.gov/assetmanagement/Asset%20Inventory/
AssetManagementPlanFY2011FinalWithSignaturePageOnly.pdf
---------------------------------------------------------------------------
    As stated in prior testimony before this Subcommittee, one of the 
main challenges Reclamation faces in securing funding for the 
identified near-term needs as well as longer-term MR&R needs is the 
varying economic strength of our operating partners. Given the 
requirement under Reclamation Law for the repayment of maintenance 
costs either in the year incurred or over time, Reclamation must work 
in collaboration with our water and power partners that must repay 
these investments. For some of these partners, the cost-share 
requirements associated with MR&R work are simply beyond the financial 
capabilities of their beneficiaries. Like any organization tasked with 
constructing, operating, and maintaining a wide portfolio of assets, 
Reclamation has to prioritize its actions to maximize the benefits 
derived from its investment of both federal and non-federal funds. Over 
the past 10 years, funds requested for Facility Operations and Facility 
Maintenance and Rehabilitation have kept pace with or grown relative to 
Reclamation's overall Water and Related Resources budget (graphic 
attached).* Given the substantial economic and financial interest of 
Reclamation's non-federal partners, the development of cost estimates 
for maintenance requirements on reserved and transferred works is both 
collaborative and dynamic. Reclamation must also balance its asset 
management responsibilities with other aspects of its mission to manage 
water and related resources in the West. We acknowledge there are 
tradeoffs associated with decisions to fund one identified need versus 
another, but Reclamation's annual budget request reflects our best 
effort to balance those constantly evolving needs associated with all 
elements of our mission.
---------------------------------------------------------------------------
    * Graphics have been retained in subcommittee files.
---------------------------------------------------------------------------
    The requirements of S. 1800 would duplicate and draw resources away 
from the processes described above, and the bill makes no allowance for 
the valuable input from operating partners that is central to 
Reclamation's asset management program. Based on arrangements 
originating with Section 6 of the Reclamation Act of 1902, over two-
thirds of Reclamation's facilities are managed by non-federal project 
beneficiaries. These operating entities provide valuable input to the 
formulation of Reclamation's annual asset management activities. 
Reclamation believes the requirements of S. 1800 will complicate 
Reclamation's and our operating entities' budget processes, since the 
reporting requirements would make no allowance for operating partners' 
budgeting and financing processes associated with most of the tasks 
that would be identified. Reclamation also believes that providing a 
new layer of reports separate and apart from the annual budget request 
process would create unnecessary difficulties, since budget requests 
for subsequent years would not be consistent with the maintenance 
snapshot provided by the reports under S. 1800. If possible, we would 
like to propose amendments to S. 1800 which would still provide 
additional information on the status of Reclamation's infrastructure, 
but allow for the bill's reporting requirements to better integrate 
with Reclamation's existing budget formulation process and schedule and 
fully consider the needs and interests of our water and power 
contractors.
    In conclusion, the Department of the Interior is aware of and 
appreciates the concerns expressed by some Members of Congress about 
the accessibility of data on Reclamation's infrastructure. In 
accordance with the Administration's Open Data Policy and Executive 
Order, we are working to improve the availability and accessibility of 
data on Reclamation's infrastructure and would be happy to keep the 
committee informed of our progress in this area. In recent years, 
Reclamation has made substantial progress in developing and improving 
estimates of MR&R needs for both reserved and transferred works, and 
has provided testimony at hearings of the Senate Energy and Natural 
Resources Committee on this topic, as well as responding in writing to 
several questions for the record. It is also worth noting that the 
Federal Government is making important strides in improving the 
accuracy, efficiency and level of data available on the federal real 
property portfolio. The Office of Management and Budget (OMB) 
established the Real Property Advisory Committee (RPAC) in 2011 to work 
across agencies to determine real property best practices, 
opportunities for short and long-term cost savings, and realigning real 
property inventories to agency mission and service delivery. We believe 
these processes should be allowed to work or be accounted for in the 
requirements of this bill before S. 1800 or similar legislation is 
enacted.
    This concludes my written statement. I am pleased to answer 
questions at the appropriate time.
                                s. 1965
    Chairman Schatz and members of the Subcommittee, I am Bob Quint, 
Senior Advisor at the Bureau of Reclamation (Reclamation). I am pleased 
to provide the views of the Department of the Interior (Department) on 
S. 1965, to amend the East Bench Irrigation District Water Contract 
Extension Act to permit the Secretary of the Interior to extend the 
contract for certain water services. The Department supports S. 1965.
    Reclamation's Clark Canyon Dam and Reservoir are located in 
southwest Montana and supply irrigation water under contract to the 
East Bench Irrigation District (EBID). EBID's water service contract 
with Reclamation was first executed in October 1958 and expired on 
December 31, 2005. Pursuant to Section 1 of the Act of May 15, 1922 (42 
Stat. 541), Section 46 of the Omnibus Adjustment Act of 1926 (44 Stat. 
649), and Section 85-7-1957, Montana Code Annotated, execution of a new 
contract between the United States and any irrigation district requires 
confirmation by a Montana District court..
    In 2006, EBID filed a petition with the Montana Fifth Judicial 
District Court seeking confirmation of the execution of their renewed 
contract with Reclamation. A hearing was convened on December 14, 2006, 
in Dillon, MT, and one objection to the confirmation was filed.
    A part of the legal challenge to confirmation of the contract 
involves the proper place of use of the water, which is an element of a 
water right which the Montana Water Court has sole jurisdiction over. 
Therefore, the case was certified from the Montana District Court to 
the Montana Water Court.
    Once the Montana Water Court addresses the proper place of use for 
the subject water right, it will send the case back to the Montana 
District Court for further proceedings on the various additional legal 
challenges to the contract. A decision by either the Montana Water 
Court or the Montana District Court may be appealed directly to the 
Montana Supreme Court, which is the court of last resort.
    Prior year appropriations bills have extended the contracts for 
terms of up to two years. Most recently, in the 112th Congress, Public 
Law 112-139; 126 Stat. 390 extended the contract for four years (to 
December 31, 2013) or until the date on which a new long-term contract 
is executed. EBID remains concerned about losing their right to renew 
their 1958 contract if it is allowed to expire prior to securing court 
confirmation of the renewed 2006 Contract. For this reason they are 
pursuing extension of the 1958 contract.
    Under current law, the 2006 contract is not binding on the United 
States until court confirmation is secured. A final decree from the 
court confirming the 2006 contract has not occurred. Therefore, EBID is 
seeking authority under S. 1965 to extend the 1958 contract. S. 1965 
would extend the contract for six years beyond Public Law 112-139 for a 
total of ten years (to December 31, 2019) or until a new contract is 
executed and still defer to the court to take up the issue again at a 
time of its choosing. The Department believes that a 10 year extension 
under S. 1965 will allow adequate time for confirmation by the Montana 
Fifth Judicial District Court. The Department supports this legislation 
because it would allow water service to the EBID to continue and 
protects the right for contract renewal while the court confirmation 
process is given time to be completed.
    This concludes my statement. Again, the Department supports S. 
1965. I would be pleased to answer questions at the appropriate time.
                         s. 2010 and h.r. 1963
    Chairman Schatz, members of the Subcommittee, I am Bob Quint, 
Senior Advisor at the Bureau of Reclamation (Reclamation). I am pleased 
to provide the views of the Department of the Interior (Department) on 
S. 2010, the Bureau of Reclamation Conduit Hydropower Development 
Equity and Jobs Act. The Department, with some technical amendments 
summarized in this statement, supports S. 2010, which amends the Water 
Conservation and Utilization Act (16 U.S.C. Sec. Sec.  590y et seq.) to 
authorize the development of non-federal hydropower and issuance of 
leases of power privilege at projects constructed pursuant to the 
authority of the Water Conservation and Utilization Act (WCUA). In 
general, the Department supports the increase in the generation of 
clean, renewable hydroelectric power in existing canals and conduits. 
As noted in previous hearings, the Department has an aggressive 
sustainable hydropower agenda, which we continue to implement under 
existing authorities. My testimony today will summarize the 
Department's efforts to encourage the development of sustainable 
hydropower, provide an overview of the history of WCUA, and detail the 
areas in the bill where we believe improvements could be made.
                    department's hydropower efforts
    Before I share the Department's views on S. 2010, I want to 
highlight some of the activities underway at the Department to develop 
additional renewable hydropower capacity. In March 2011, the Department 
of the Interior and Department of Energy announced nearly $17 million 
in funding over three years for research and development projects to 
advance hydropower technology. The funding included ten projects for a 
total of $7.3 million to research, develop, and test low-head, small 
hydropower technologies that can be deployed at existing non-powered 
dams or constructed waterways. The funding will further the 
Administration's goal of meeting 80 percent of our electricity needs 
from clean energy sources by 2035.
    In March 2010 the Department entered into a Hydropower Memorandum 
of Understanding (MOU)\1\ with the Department of Energy, and the Army 
Corps of Engineers to study and promote opportunities to develop 
additional hydropower. In March 2011, the Department released the 
results of an internal study, the Hydropower Resource Assessment at 
Existing Reclamation Facilities, that estimated the Department could 
generate up to one million megawatt hours of electricity annually and 
create jobs by addressing hydropower capacity at 70 of its existing 
facilities. While this first phase, completed in 2011, focused 
primarily on Reclamation dams, the second phase focused on constructed 
Reclamation waterways such as canals and conduits. In March 2012, 
Reclamation completed the second phase of its investigation of 
hydropower development, Site Inventory and Hydropower Energy Assessment 
of Reclamation Owned Conduits, as referenced in the 2010 MOU. The two 
studies revealed that an additional 1.5 million megawatt-hours of 
renewable energy could be generated through hydropower at existing 
Reclamation sites.
---------------------------------------------------------------------------
    \1\ http://www.usbr.gov/power/SignedHydropowerMOU.pdf, 2010
---------------------------------------------------------------------------
    Reclamation worked diligently with our stakeholders and the 
hydropower industry to improve our lease of power privilege (LOPP) 
processes, and this collaboration culminated in the release of an 
updated and improved LOPP directive and standard in September 2012. 
These new procedures better define roles, timelines and 
responsibilities that will allow us to better support and encourage 
sustainable hydropower development at Reclamation facilities. This 
directive and standard was revised earlier this month to incorporate 
new process requirements established by Public Law 113-24, Bureau of 
Reclamation Small Conduit Hydropower Development and Rural Jobs Act. 
New process requirements updated in the document include: LOPPs being 
offered first to irrigation districts or water user associations 
operating or receiving water from Reclamation transferred or reserved 
works and establishing timeframes for irrigation districts or water 
user associations to accept or reject the LOPP offer. The temporary 
revised procedures are out for public comment until March 28, 2014.
                      overview of history of wcua
    The WCUA was enacted on August 11, 1939 (amended October 14, 1940) 
to provide assistance to people hard hit by drought in the Dust Bowl 
and other similar arid and semiarid areas of the United States through 
the construction and development of irrigation projects. WCUA leveraged 
the considerable labor available by the Work Project Administration and 
other federal agencies during the New Deal, which absent congressional 
authorization, were precluded from using appropriations for many of the 
requisite needs of irrigation projects. For example, the Work Project 
Administration and other federal agencies did not have the authority to 
purchase water rights, rights-of-way, heavy machinery, and the services 
required to design and construct engineering features, prepare legal 
documents, and administer projects. WCUA resolved this issue by 
authorizing the Bureau of Reclamation to use appropriations to purchase 
rights-of-way, equipment and supplies, and for the payment of competent 
supervisory, technical, legal and administrative assistance, while the 
Work Project Administration and other federal agencies funded the costs 
of mechanics and laborers. Under WCUA, the Bureau of Reclamation 
retained the responsibility for the construction and administration of 
these projects. The Bureau of Reclamation has been authorized to 
construct 11 projects and three separate units under the WCUA \2\.
---------------------------------------------------------------------------
    \2\ WCUA Projects: Mancos Project, Colorado; Buford-Trenton Project 
(North Dakota); Buffalo Rapids Project, Montana; Scofield Project, 
Utah; Intake Project, Montana; Mirage Flats Project, Nebraska; Missoula 
Valley Project, Montana; Mann Creek Project, Idaho (not eventually 
constructed under WCUA); Newton Project, Utah; Rapid Valley Project, 
South Dakota; Balmorhea Project, Texas. The Eden Project, Wyoming, was 
originally considered under the WCUA but was constructed under separate 
authority. In addition, three units were authorized pursuant to WCUA 
authority. Each unit is part of a Reclamation project that was not 
altogether authorized by the WCUA. The three units include: Dodson 
Pumping Unit, Milk River Project, Montana; Post Falls Unit, Rathdrum 
Prairie Project, Idaho; and the Woodside Unit, Bitterroot Valley 
Project, Montana (no construction has been undertaken).
---------------------------------------------------------------------------
    Reclamation is authorized to issue LOPP contracts on projects that 
were authorized under Reclamation law pursuant to Section 5 of the Town 
Sites and Power Development Act of 1906, 43 U.S.C. Sec.  522, and 
Section 9(c) of the Reclamation Project Act of 1939, 43 U.S.C. Sec.  
485h(c). However, WCUA projects were not authorized pursuant to 
Reclamation law and the provisions of WCUA are only subject to 
Reclamation law where explicitly identified in the WCUA. The LOPP 
authority granted in Section 5 of the Town Sites and Power Development 
Act of 1906, 43 U.S.C. Sec.  522, and Section 9(c) of the Reclamation 
Project Act of 1939, 43 U.S.C. Sec.  485h(c) does not apply to WCUA 
projects since it is not identified in the WCUA, and therefore WCUA 
projects are not authorized to develop non-federal hydropower absent 
congressional action. The Mancos Project in southwestern Colorado is 
such a case where Congress authorized the non-federal development of 
hydropower on a WCUA project through project specific legislation (P.L. 
103-434).
                                s. 2010
    Reclamation testified on H.R. 1963, a companion measure to the 
legislation before the subcommittee today, last May before the House 
Water and Power Subcommittee. The legislation was amended by the House 
of Representatives, and that bill is identical to the legislation 
before the Subcommittee today, S. 2010. The Department would be pleased 
to work with the Subcommittee to further refine the legislation.
    Section 2(c) of S. 2010 would specifically authorize Reclamation to 
develop or enter into LOPP contracts for the development of new 
hydropower on projects and facilities authorized by WCUA, consistent 
with the Reclamation Project Act of 1939. In accordance with federal 
Reclamation law, typically LOPP charges paid by Lessees are deposited 
in the Reclamation Fund as a credit to the affected project. However, 
WCUA projects were not funded by the Reclamation Fund, but rather the 
General Fund of the Treasury. To this point, the WCUA states that all 
receipts from WCUA project operations--including power--are to be 
covered into the Treasury, rather than the Reclamation Fund, to the 
credit of miscellaneous receipts. Therefore, if the intention of S. 
2010 is for WCUA LOPP charges to credit the affected WCUA project, 
additional clarification is necessary in Section 2(g) of S. 2010 
detailing where the charges will be covered and how they will be 
applied to the affected project. The Department looks forward to the 
opportunity to work with the sponsors to address this issue.
    Sections 2(h), 2(i), 2(j), 2(k), and 2(m) are duplicative of 
Section 9(c) of the Reclamation Project Act of 1939, as amended by PL 
113-24, Bureau of Reclamation Small Conduit Hydropower Development and 
Rural Jobs Act. If the 1939 Act is amended again, there will be two 
distinct LOPP processes, one for traditional Reclamation projects and 
one for WCUA projects, as prescribed in S. 2010. For that reason, the 
Department recommends deleting these duplicative areas of the bill. 
Reclamation would be happy to work with the Subcommittee to address 
these concerns.
    Finally, Reclamation is concerned that the bill as written may be 
interpreted in such a way that the LOPP authorization granted is 
restricted to small conduit hydropower development and would not apply 
to all WCUA conduit development or dam development. For context, all 
WCUA conduit sites that show hydropower potential are under 5 MW and 
would qualify as ``small conduit hydropower;'' however, the majority of 
WCUA hydropower potential exists at WCUA dams. Therefore, if the intent 
of the bill is to ``unlock'' the WCUA for non-federal development 
through LOPP, the authorization needs to extend to all WCUA conduits 
and dams. As the bill is written, it is unclear if the authorization 
extends to all WCUA conduits and dams. Reclamation would be happy to 
work with the Subcommittee to address this concern.
    In conclusion, as stated at previous hydropower hearings before 
this subcommittee, Reclamation will continue to review and assess 
potential new hydropower projects that provide a high economic return 
for the nation, are energy efficient, and can be accomplished in 
accordance with protections for fish and wildlife, the environment, or 
recreation. As the nation's second largest hydropower producer, 
Reclamation strongly believes in the past, present and bright future of 
this important electricity resource.
    Thank you for the opportunity to discuss S. 2010. This concludes my 
written statement, and I am pleased to answer questions at the 
appropriate time.
                                s. 2019
    Chairman Schatz and members of the Subcommittee, I am Bob Quint, 
Senior Advisor at the Bureau of Reclamation (Reclamation). Thank you 
for the opportunity to provide the views of the Department of the 
Interior (Department) on S. 2019. The bill would raise the 
authorization ceiling for water and energy conservation grants under 
the Secure Water Act of 2009 (42 USC 10364(e)), clarify that activities 
related to drought are authorized under the program, and revise the 
program's eligibility to include the State of Hawaii as discussed 
below. The Department supports this bill.
    Reclamation owns and operates water projects that promote and 
sustain economic development within the 17 Western States. The mission 
of Reclamation is to manage, develop, and protect water and related 
resources in an environmentally and economically sound manner in the 
interest of the American public. Since it was established in 1902, 
Reclamation has constructed more than 600 dams and reservoirs including 
Hoover Dam on the Colorado River and Grand Coulee on the Columbia 
River. Reclamation is the largest wholesaler of water in the country, 
delivering water to more than 31 million people, and providing one out 
of five western farmers with irrigation water for 10 million acres of 
farmland across the United States. Reclamation is also the second 
largest producer of hydroelectric power in the United States, and 
provides significant amounts of renewable energy to customers 
throughout the West.
    On February 10, 2010, Secretary Ken Salazar signed a Secretarial 
order establishing the Department's WaterSMART Initiative, which 
implements the Secure Water Act. The ``SMART'' in WaterSMART stands for 
``Sustain and Manage America's Resources for Tomorrow.'' The WaterSMART 
Program includes WaterSMART Grants, Reclamation's Basin Studies, 
Landscape Conservation Cooperatives, West-Wide Climate Risk 
Assessments, the Title XVI Water Reclamation and Recycling program, the 
Cooperative Watershed Management Program, the Water Conservation Field 
Service Program, USGS's Water Availability and Use Assessments, and the 
WaterSMART Clearinghouse. Through the WaterSMART Program, the 
Department works with states, tribes, local governments, and non-
governmental organizations to secure and stretch water supplies for use 
by existing and future generations to benefit people, the economy, and 
the environment and will identify measures needed to address climate 
change and future demands.
    WaterSMART activities are the most effective means the Department 
of the Interior has to assist state and local water providers and users 
address volatility of supplies, economic security, and create 
resilience in the face of climate change. WaterSMART allows the 
Department to provide incentives and tools to achieve sustainable 
supplies, while supporting water managers who make their own decisions 
about what programs and activities will be the best and most practical 
fit in their particular watersheds.
    WaterSMART Grants are directly aligned with the Department's 
Priority Goal for Water Conservation: to enable capability to increase 
the available water supply to 730,000 acre-feet of water savings per 
year by September 2013 and to a cumulative goal of 790,000 acre-feet by 
September 2014. Reclamation has met the September 2013 goal and is on 
track to meet the 2014 target: together, projects funded through 
WaterSMART and Reclamation's other water conservation activities from 
2010 through 2013 are expected to result in over 734,000 acre-feet of 
water savings per year. This would not have been possible without the 
ingenuity and resourcefulness of our water and power customers who 
apply for and implement WaterSMART's water and energy efficiency grant 
projects at the district level. The projects funded by the WaterSMART 
program not only play a major role in helping minimize the effects of 
drought on the environment and agriculture and urban communities, but 
also contributes to drought resiliency.
    WaterSMART also acknowledges the nexus between energy and water 
use. In addition to saving water, WaterSMART Grant projects from 2010-
2013 are expected by their sponsors to save over 45 million kilowatt-
hours annually--enough power for 3,900 households--and additional 
savings are expected in the future. Additional milestones are described 
in the program's three-year progress report, online at http://
www.usbr.gov/WaterSMART.
    Reclamation is committed to continuing WaterSMART, and it is 
anticipated that the program will exhaust its authorized appropriations 
for WaterSMART Grants. Therefore, in order to continue use of this 
highly valuable and continually oversubscribed program, which is 
significantly contributing to drought resiliency in the West, an 
increase in the authorization ceiling will be needed. S. 2019 would 
amend Section 9504(e) of the Secure Water Act, raising the ceiling from 
$200 million to an authorization to be appropriated such sums as are 
necessary to carry out this section for each of fiscal years 2015 
through 2023 . A ceiling raise is consistent with part of the 
Appropriations language section of Reclamation's FY 2014 budget 
request. A ceiling raise to $250 million, as was included in the budget 
request, would ensure that these important water management 
improvements could continue temporarily but would not likely allow for 
funding beyond 2016. For that reason, Reclamation supports the language 
in S. 2019 to authorize funding for the program through 2023.
    Section 2 of S. 2019 would make clear that Section 9504(a) 
authorizes Reclamation to provide financial assistance to plan for or 
address the impacts of drought. Reclamation shares the sponsor's view 
that activities related to drought are appropriately addressed under 
this section and appreciates the clarification of this authority.
    Section 2 of S. 2019 would also revise the eligibility language in 
the Secure Water Act to allow entities located in Hawaii to be eligible 
for WaterSMART grant funding opportunities. WaterSMART Grants funding 
opportunity announcements have been limited to the States and U.S. 
Territories identified under 43 U.S.C. Sec.  391. With a number of 
exceptions, Reclamation's primary mission has generally been 
constrained to the 17 continental Western States, which all share an 
arid climate and a well-established history of prior appropriations 
water rights doctrines. One such exception is the State of Hawaii, 
which shares many of the same features as the U.S. Territories, and 
also already participates in several Reclamation programs such as the 
Title XVI program, limited application of the Reclamation States 
Emergency Drought Relief Program, and water resource studies authorized 
under P.L. 106-566 and P.L. 102-575. However, Reclamation notes that we 
do not support adding additional states to the WaterSMART program at 
this time, as the piece-meal incorporation of additional states would 
be a significant expansion of Reclamation's mission when the agency is 
already struggling to fulfill its commitments within its traditional 
and currently authorized area of operations. For these reasons, the 
Department believes that this expansion of authority should be limited 
to the State of Hawaii.
    Finally, Section 3 of S. 2019 would extend the authority of the 
Secretary to provide grants to State water resource agencies. This 
authority ran out in 2013 and the Department supports the language in 
Section 3 that extends the grant program in Section 9508(c) for another 
decade for such sums as may be necessary to remain available until 
expended. The valuable partnership with State water resource agencies 
is a critical national asset for determining water availability 
nationwide.
    In conclusion, the Department is committed to continuing the 
WaterSMART Program, as the Federal government has a responsibility to 
provide leadership and tools to address the increasing and widespread 
challenges of imbalance between supply and demand. Sustainable water 
supplies are the underpinning of a stable economic base, employment 
continuity, and smart growth. We can provide incentives to encourage 
water conservation and reuse, leadership in new technology to increase 
usable supplies, and assistance for ecosystem restoration efforts that 
increase the certainty of water supplies for the future. All of these 
efforts depend on partnerships with local utilities, states, tribes, 
and others.
    This concludes my statement. Again, the Department supports S. 
2019. I would be pleased to answer questions at the appropriate time.

    Senator Barrasso. Thank you very much. Let me see if the 
vote--it looks like the vote is still going on. But I think he 
was up by like about 95 to nothing, somewhere in that range at 
the time I left. But they were waiting on the Chairman to make 
the final decision.
    Thank you.
    I appreciate all of you being here.
    If I could just start with some questions until the 
Chairman arrives.
    I'll start with Mr. Quint, if we could just talk a little 
bit.
    Congress recently enacted Public Law 113-24, the Bureau of 
Reclamation's Small Conduit Hydropower Development Act. I 
introduced this along with Representative Scott Tipton in the 
House. We did it to amend the Reclamation Project Act of 1939 
to authorize the development of small conduit hydropower at 
Reclamation project facilities.
    Now there are a handful of projects, Reclamation projects, 
which were originally authorized under the Water Conservation 
Utilization Act which were not included in the hydropower 
authorization. I think maybe, a couple projects, 4 in Montana 
and a couple in Idaho, couple in Utah. I think one in Colorado, 
Idaho, Nebraska or two in Idaho, one in Nebraska, one in South 
Dakota. Does the Administration support authorizing this 
hydropower development at these facilities and maybe you want 
to discuss that a little bit?
    Mr. Quint. Yes, we do. We, in our testimony, we say we do 
support that with a few minor changes. There's 3 small issues 
that we feel could be or needs to be corrected to just make it 
crystal clear what's going on there.
    There's some issues with where the money would be credited 
back to.
    There's some issues of the similar language in the 1939 act 
that we wanted to make sure it was consistent with and didn't 
provide two different ways for lease of power privilege.
    There's also some issues with to make sure that it would 
cover both conduits and dams. As currently written we feel it's 
not quite concise enough to cover dams where a majority of the 
hydropower would be.
    Senator Barrasso. In your written testimony you stated that 
you support the augmentation of other existing reporting 
efforts by the Bureau. In CRS written testimony that 
Reclamation operates a facility maintenance and rehabilitation 
program that identifies schedules and prioritizes the needs of 
its reserved works but that the reviews are typically are not 
made public. So when they do this not made public and the 
Bureau, according to CRS, also conducts periodic maintenance 
reviews at transferred works through its associated facility's 
review of operations and maintenance examinations program. But 
again, the results are typically not made public.
    It would seem that most of the data called for in this bill 
is already available it--to Reclamation in some form or 
another. Is that true?
    Mr. Quint. That's correct.
    Senator Barrasso. Why would providing this information to 
Congress in say a readable spreadsheet not be augmenting your 
existing efforts?
    Mr. Quint. We're working toward trying to make all the data 
coming from the various sources a little more understandable, 
readable because we get data from many of our transferred water 
works operating entities and a lot of our power customers and 
things like that. So the data we get in, although we can 
understand it, know what it says, isn't consistent for someone 
that's trying to look at project by project type things.
    We're working to get that fixed. We, as a matter of fact, 
have some, a redline version of S. 1800 we'd like to submit to 
your staff to maybe meet our needs and your needs at the same 
time.
    Senator Barrasso. In the written testimony you state that 
the bill that the two of us brought here today to this 
committee, I think you say, ``constituted duplication of other 
existing efforts which will not improve the body of information 
available on Reclamation's infrastructure nor result in a more 
effective application of available resources to address 
facility maintenance.''
    I think, respectfully, speaking for myself, I disagree with 
that statement. The Chairman can speak for himself, but let me 
tell you why I put this bill together. I really were looking 
for a readable breakdown of the total maintenance backlogs from 
my home State.
    Not received the information. Been given hundred pages of 
documents that are full of graphs and charts with a lot of what 
seems like bureaucratic talk that a seasoned engineer might 
have even difficulty comprehending. You're, obviously, you're 
agreeing.
    I've also been trying to get a simple spreadsheet as to how 
your agency sees, says you have a maintenance backlog of 
anywhere from 2.5 billion to 3 billion. There's a pretty big 
gap there. Instead I'm told that each region does their own 
thing with calculating their backlog. Trying to make sense of 
it is like comparing apples to oranges.
    So since I've raised this issue in July of last year and 
hadn't gotten what I requested at that point either. So 
according to your testimony information in a useful format to 
Congress already exists. If these documents exist then I'm just 
requesting you provide them to my office by tomorrow morning so 
that we'd have those.
    If you can't do that then I think that the written 
statement that, you know, that you made rings hollow as to 
whether it's really available.
    Mr. Quint. OK.
    Senator Barrasso. So should I expect it tomorrow or shall 
we?
    Mr. Quint. I can't assure you that we have that in our 
hands to get up with you tomorrow. But I will assure you I will 
look into it and get it to you as soon as possible.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    Senator Schatz [presiding]. Thank you, Senator Barrasso.
    Mr. Quint, you said you are not quite ready with a readable 
spreadsheet of, sort of, comprehensible spreadsheet for the 
purpose of us exercising our oversight responsibility. What's 
your timeframe?
    Mr. Quint. We estimate that it's probably going to be about 
18 months to 2 years to get that all put together so it is 
understandable and readable. We do supply data currently as 
part of our annual budget submission. We do have data in our 
annual asset management plan that is posted on the website. We 
also keep track of all the maintenance and requirements in all 
our facilities and a look ahead with each of our projects as 
part of their 5 year plan.
    So all that data is available, but it's just not in one 
consolidated area. That's what we're working to do right now.
    Senator Schatz. So there are two parts to this.
    One is to actually do the consolidation and the other is to 
establish a process through which you can start to aggregate 
the data and make it more understandable. I can accept that 
once you create the tool that it may take a lot of time to sift 
through the data and to, sort of, match up apples to apples 
from an accounting and programmatic management standpoint.
    What I don't understand is that it could possibly take 18 
months to develop the tool and for the committee to understand 
how it is that you're going to, sort of, wrangle this to the 
ground. Can you make a distinction between the development of 
the tool to enable us to exercise our oversight responsibility 
and the actual sifting of the information?
    Mr. Quint. I'll try to explain it in my terms and hopefully 
that's something that will help.
    Senator Schatz. Go ahead.
    Mr. Quint. Yes, all that data on the thousands of projects, 
it's exactly what Senator Barrasso held up there. Much of that 
data is buried and part of that document for each of those 5 
year plans for each of those facilities out there. So it's a 
matter of us going through, sifting through, getting that data, 
putting it in a consistent format.
    Some of those, for some of our transferred works projects, 
aren't very sophisticated to be honest with you. So we need to 
make sure that those estimates are current. They're correct. 
They are up to date. So that is part of the process.
    On some of our more, I'll say sophisticated districts and 
things, the data is there it's just a matter of putting it in 
the right format and getting it into the consolidated report.
    Senator Schatz. Can you give us, since this is likely the 
last time that we're going to be in this context to have this 
discussion. Can you give us a, you said you're going to be 
providing the committee with a redline recommendation for our 
consideration? Can you give us your preliminary thinking on 
what you're going to be recommending to the committee as a 
possible set of amendments?
    Mr. Quint. What we would like to do is we have some 
existing processes as part of our budget formulation process, 
part of our system of gathering this data currently. We would 
like to try to marry up your legislation with our current 
processes so there's not duplicative efforts.
    Senator Schatz. What's your level of confidence that it's 
going to satisfy Senator Barrasso and myself in terms of our 
basic, common sense desire to be able to answer a question to a 
constituent?
    How much is done? How much is pending? What's our backlog? 
What's being spent? Just to have a basic understanding and 
therefore, control over the budget here?
    Mr. Quint. My smart aleck answer would be 100 percent, but 
probably realistically about 75 percent.
    I understand what your concerns have been in the past. I 
think it gets there. But I can't anticipate whether there's 
some issues that we are not quite understanding. We'll get 
there.
    But I will commit we'll work with you to make sure it meets 
your needs and our needs.
    Senator Schatz. So one final question with respect to this 
issue.
    What I want to make sure that we do together with the 
Bureau is to develop a, not just a sort of policy tool, but 
also a management tool that works for you which is to say, I 
don't want you to just satisfy the subcommittee. I want you to 
actually that the whole point of this is so that we have better 
management at the Bureau and better control over projects and 
better understanding of what needs to be done and what needs to 
be funded.
    So I just want to encourage you to actually be developing 
using the latest technology, using the latest best practices, 
to be developing a tool that works for you, certainly that 
works for the committee. But I could foresee a relatively 
inefficient process on your side that satisfied the committee 
because that's job one. But really the overall objective here 
is to make sure that money is spent wisely and efficaciously.
    So we want to just encourage you to do this, you know, 
measure twice and cut once.
    Mr. Quint. That's absolutely what we're trying to do here 
is trying to use our current processes and marry it up with 
your bill to make sure that we're being as efficient as 
possible.
    Senator Schatz. OK. Thank you very much.
    We'll thank the first group of testifiers and we'll move on 
to the second batch of witnesses and introduce them.
    The first is Charles Stern, a specialist in Natural 
Resource Policy from the Congressional Research Service.
    Andy Duyck, the Chair of the Washington County Commission.
    Belinda Batten, the Director of the Northwest National 
Marine Renewable Energy Center at Oregon State University.
    We thank you for making the trip from the West Coast. Your 
written testimony will be included in the record so please take 
about 5 minutes to summarize.
    Mr. Stern, we'll start with you.

STATEMENT OF CHARLES V. STERN, SPECIALIST IN NATURAL RESOURCES 
             POLICY, CONGRESSIONAL RESEARCH SERVICE

    Mr. Stern. Thank you, Chairman Schatz and Senator Barrasso. 
My name is Charles Stern and I'm specialist in Natural 
Resources Policy at the Congressional Research Service.
    Thank you for inviting CRS to testify on S. 1800, the 
Bureau of Reclamation Transparency Act.
    In brief, S. 1800 would expand the Bureau of Reclamation's 
asset management reporting to require several new components. 
It would require that Reclamation annually report to Congress 
estimated costs for repair needs at its facilities and provide 
a categorical ranking for these needs.
    In serving the U.S. Congress on a non-partisan and 
objective basis, CRS takes no position on this legislation but 
it's been asked by this subcommittee to provide background and 
analysis of the legislation's potential effects. CRS remains 
available to assist the subcommittee in its consideration of 
this legislation and related issues.
    Two considerations frame my remarks on S. 1800.
    First, a broad discussion of the distribution of management 
responsibilities across different types of Reclamation 
facilities.
    Second, Reclamation's current reporting process for repair 
and rehabilitation needs on these facilities.
    I will briefly discuss each of these things before moving 
on to discuss the bill itself.
    First, distribution of management responsibilities.
    Reclamation is unique among Federal water resource agencies 
in that it does not manage much of the infrastructure that it 
owns. In fact about two-thirds of the infrastructure owned by 
Reclamation has been transferred to local project sponsors for 
operations and maintenance. Reclamation conducts periodic 
maintenance reviews at these facilities which are referred to 
as transferred works. The results of these examinations are 
typically not made public.
    The remainder of Reclamation's assets are reserved works or 
infrastructure that is owned and operated by the Bureau. Most 
of these projects are large, multipurpose assets. Reclamation's 
process for overseeing their operations and maintenance is 
generally more involved than that for transferred works. 
Reclamation has a program that identifies, schedules and 
prioritizes the needs of its reserved works, but again, the 
results of these reviews are not centrally compiled in a public 
report.
    The patchwork management structure of Reclamation 
facilities complicates reporting on needed upgrades for these 
assets. In recent years Reclamation has initiated new reporting 
on its asset management. This included, among other things, a 
major review of its infrastructure management that concluded in 
2008 as well as annual asset management reports.
    The later reports have, in the past, provided a high level 
summary of Reclamation's infrastructure management efforts 
including discussion of how it tracks and plans for management 
activities, estimates of maintenance requirements at regional/
national levels and the policy tools available to address these 
issues. However, they have not included a list of facility 
specific repair needs and associated estimates. As I noted in 
my July 2013 testimony before this committee, some agencies 
publish needs assessments that include project level repair and 
upgrade estimates, although these agencies differ from 
Reclamation in several important ways.
    Reclamation also reports on the conditions of its 
facilities through various mechanisms. However, again, this 
information is not standardized or available across 
Reclamation's infrastructure types in any one document.
    S. 1800 would make changes to Reclamation's existing 
reporting process. It would authorize Reclamation to complete 
an asset management report, presumably similar to the existing 
report, and updated every 2 years thereafter.
    Perhaps most prominently Section 4(b) of the bill would 
require that the report include additional items in the form of 
an itemized list of repair needs at each project and a rating 
for each item. The requirements would apply to both reserve 
works and transferred works. That is, all Reclamation owned 
infrastructure including that operated and maintained by local 
sponsors would be subject to these changes.
    S. 1800 does not directly address the management of 
projects by Reclamation or its local cooperators. Rather its 
focus is on what information is publicly available about these 
facilities and in what format. The bill provides the 
Administration with some flexibility to determine how it would 
implement the new requirements.
    However, the extent to which they would fit into existing 
processes or necessitate new ones may be a matter of debate.
    Similarly, it is unclear whether requiring project repair 
estimates and ratings would create new cost for Reclamation.
    Some may raise concerns about whether Reclamation's repair 
estimates or ratings could result in increased operations and 
maintenance costs being passed on to users. The extent to which 
such a scenario would actually be the case may be a function of 
how Reclamation would interpret and implement the bill.
    Finally, some may also question how much of this 
information that would be required under this legislation is 
already available in existing sources. While some of this 
information appears to be available, it is possible that a more 
in depth review of the needs at other facilities, especially 
transferred works could be interpreted to be required under the 
legislation.
    This concludes my statement. I would be happy to answer any 
questions you may have at the appropriate time.
    [The prepared statement of Mr. Stern follows:]

Prepared Statement of Charles V. Stern, Specialist in Natural Resources 
             Policy for the Congressional Research Service
    Chairman Schatz, Ranking Member Lee, and members of the 
subcommittee, my name is Charles Stern. I am a Specialist in Natural 
Resources Policy at the Congressional Research Service (CRS). Thank you 
for inviting CRS to testify on S. 1800, The Bureau of Reclamation 
Transparency Act.
    In brief, this legislation would require that the Bureau of 
Reclamation's (Reclamation) asset management reporting be expanded to 
include several new components. Specifically, it would require that 
Reclamation annually report to Congress estimated costs for repair 
needs and a categorical rating for major repair and rehabilitation 
needs of Reclamation's facilities. Reclamation currently makes some 
information available on its infrastructure management activities; the 
proposed new requirements are directed to be incorporated into those 
processes.
    In serving the U.S. Congress on a non-partisan and objective basis, 
CRS takes no position on this legislation but has been asked by the 
Subcommittee to provide background and analysis of the legislation's 
potential effects. The statements presented in this testimony are based 
on an analysis of the legislation within the time available. CRS 
remains available to assist the Subcommittee in its consideration of 
this legislation, related issues, and potential concerns among affected 
stakeholders.
   overview of reclamation's infrastructure management and reporting
    The Bureau of Reclamation is one of the two principal agencies 
charged with constructing and maintaining the federal government's 
largest investments in water infrastructure, the other being the U.S. 
Army Corps of Engineers. Other agencies and federal entities have 
played roles in water resource development. S. 1800's requirements 
would apply only to the Bureau of Reclamation; thus it is the focus of 
my testimony.
    The Bureau of Reclamation's assets are concentrated in the 17 
western states and include dams, canals, pipelines, hydropower 
facilities, and related infrastructure. Some of these facilities were 
constructed as far back as Reclamation's original authorization in 
1902, and most of them are more than 60 years old. In previous hearings 
(including those before this committee), concerns have been raised 
about the perceived deterioration of Reclamation's infrastructure and 
the information (or lack thereof) on these conditions. In short, S. 
1800 would require that Reclamation make available to Congress and the 
public additional information about the condition and estimated cost of 
repairing Reclamation-owned infrastructure.
    Two important considerations frame my remarks on S. 1800: First, a 
broad discussion of the distribution of management responsibilities 
across different types of Reclamation facilities. Second, Reclamation's 
current process for reporting on repair and rehabilitation needs of 
these facilities. I will briefly discuss each of these things before 
moving on to discuss the bill itself.
    First, I will discuss distribution of management responsibilities. 
As stated above, the majority of Reclamation's water resources 
facilities are more than 60 years old, and a system of shared 
responsibilities to plan, construct, finance, operate, maintain, and 
repair this infrastructure has emerged over time. Reclamation is unique 
among federal water resource agencies in that it does not manage much 
of the infrastructure that it owns. In fact, about two-thirds of the 
infrastructure owned by Reclamation has been transferred to local 
project sponsors for operations and maintenance. While Reclamation 
technically owns these assets (which are referred to as ``transferred 
works''), it is not responsible for day to day maintenance at the 
projects. The bureau conducts periodic maintenance reviews at 
transferred works through its Associated Facilities Review of 
Operations and Maintenance Examinations program. However, the results 
of these examinations are typically not made public.
    Separately, ``reserved works'' are the other major type of 
infrastructure that is owned and operated by Reclamation and this 
classification makes up the remainder of the bureau's assets. Most of 
these projects entail large, multipurpose assets that are owned and 
operated by Reclamation, and Reclamation's process of overseeing their 
operations and maintenance is generally more involved than that used 
for transferred works. Reclamation operates a Facility Maintenance and 
Rehabilitation Program that identifies, schedules and prioritizes the 
needs of its reserved works, but again, the results of these reviews 
are typically not made public.
    The patchwork management structure of Reclamation facilities makes 
reporting on needed upgrades for these assets complicated. In recent 
years Reclamation has undertaken efforts to improve this reporting. 
These efforts have included, among other things, a major review of its 
infrastructure management that concluded in 2008, as well as annual 
asset management reports. The 2008 review was conducted in response to 
a 2006 National Research Council Report and resulted in a number of 
changes to Reclamation's infrastructure management. The annual asset 
management reports have provided a high-level summary of Reclamation's 
infrastructure management efforts, including discussion of how the 
bureau tracks and plans for management activities, aggregated estimates 
of maintenance requirements at regional and national levels, and some 
of the policy tools available to address these issues.
    Reports and public documents issued by Reclamation generally have 
not included a list of facility-specific repair needs and associated 
estimates. However, Reclamation has estimated as recently as 2012 that 
costs for needed repairs and upgrades throughout the West were 
approximately $2.5 (although project level estimates that make up this 
total are not readily available). As I noted in my July 2013 testimony 
before this committee, some agencies, such as the Environmental 
Protection Agency and the Department of Transportation, publish ``needs 
assessments'' that include project level estimates for needed repairs 
and upgrades, although it should be noted that these agencies and the 
infrastructure they service are different than Reclamation. In any 
case, the availability of estimates for individual Reclamation 
facilities varies, and are generally not compiled or regularly updated 
in a centralized, public report.
    Similarly, to varying degrees, Reclamation also reports its efforts 
to categorize the conditions of these facilities. Reclamation 
internally tracks and rates the condition of its dams and also utilizes 
a ``Facility Reliability Rating'' to categorize the condition of 
reserved works. Reclamation has in recent years also undertaken a 
program to categorize the condition of urban canals that may be 
vulnerable to full or partial failure. However, this information is not 
standardized or available across Reclamation's infrastructure types, 
nor is it regularly reported on.
                        crs analysis of s. 1800
    S. 1800 would make several changes to Reclamation's existing 
reporting process. It would authorize Reclamation to complete an asset 
management report, presumably similar to the existing report (which has 
to date been produced under general authorities). This report would be 
published and made publicly available within 2 years of enactment, and 
updated every two years thereafter. Perhaps most prominently, Section 
4(b) of the bill would require that the report include an itemized list 
of repair needs at each project. This list would include both a cost 
estimate for repair needs at Reclamation facilities and a rating for 
each item. The inclusion of the new ratings and repair estimates would 
apply to both reserved and transferred works, respectively. That is, 
all Reclamation-owned infrastructure, including that operated and 
maintained by local sponsors, would be subject to the new requirements. 
The bill would provide an exception to the public reporting 
requirements for sensitive or classified information, but would require 
that this information still must be made available to Congress.
    S. 1800 does not appear to address directly the management of 
projects by Reclamation or its local cooperators. Rather, its focus is 
on what information is made available to Congress and the general 
public about Reclamation facilities, and in what format. S. 1800 
provides the Administration with some flexibility to determine how it 
would implement the bill; however, the extent to which the new 
requirements in the legislation would fit into existing processes or 
necessitate new ones may be a matter of debate. Similarly, it is 
unclear whether the bill's requirements would create new costs for 
Reclamation, such as costs resulting from the assessment and publishing 
of project repair estimates and/or ratings in the new report. Some may 
also raise concerns about whether Reclamation's repair estimates or 
ratings could result in increased operations and maintenance costs 
being assessed on users. The extent to which such a scenario would 
actually be the case may be a function of how Reclamation would 
interpret and implement the bill.
    Finally, some may also question how much of the information that 
would be required by the legislation is currently available in existing 
sources (such as through Reclamation's Associated Facilities Review of 
Operations and Maintenance Examinations program and its Facility 
Maintenance and Rehabilitation Program). While some of this information 
appears to be available within Reclamation, it is possible that a more 
in-depth review of the needs at other facilities, especially 
transferred works, could be interpreted to be required under the 
legislation. However, CRS is unable to say the extent to which this is 
the case.
    This concludes my statement. I would be happy to answer any 
questions you may have at the appropriate time.

    Senator Schatz. Thank you very much.
    Mr. Duyck.

 STATEMENT OF ANDY DUYCK, CHAIRMAN, WASHINGTON COUNTY, OREGON 
 BOARD OF COMMISSIONERS, CHAIRMAN, CLEAN WATER SERVICES, BOARD 
                          OF DIRECTORS

    Mr. Duyck. Thank you, Chairman Schatz and Senator Barrasso 
and distinguished members of the committee for the opportunity 
to testify before you on Senate, on S. 1946.
    My name is Andy Duyck. I'm the Chairman of the Washington 
County Board of Commissioners as well as the Chair of the Board 
of Directors for Clean Water Services, a waste water resources 
management utility, more than 542,000 residents in Washington 
County.
    I'd like to start by thanking Senator Wyden for his 
leadership on this matter and many other matters of importance 
to Oregonians.
    S. 1946 will ensure that the Bureau of Reclamation's Safety 
of Dams program has the funding necessary to address critical 
public safety needs within Reclamation's inventory of 476 dams 
and dikes across 17 States including Scoggins Dam in Washington 
County, Oregon.
    As a repayment contractor on Reclamation's Scoggins Dam, 
Clean Water Services has been working closely with 
Reclamation's Safety of Dams program to address significant 
seismic safety concerns at this Federal facility. Scoggins Dam, 
which forms Hagg Lake, supports nearly 250,000 jobs. It 
provides drinking water for more than 400,000 residents and it 
provides irrigation for 17,000 acres of crop land.
    In addition it sustains water quality in the Tualatin River 
to protect fish and wildlife habitat.
    In 2009 Reclamation completed a safety evaluation of 
existing dams analysis on Scoggins Dam and issued a decision 
document in 2010 with a finding that and I quote, the seismic 
hazard at Scoggins Dam quite possibly presents the most severe 
or at least among the most severe earthquake loadings within 
Reclamation's inventory of dams.''
    In order for Reclamation to budget for the necessary safety 
improvements Reclamation must be granted the funding authority 
to move forward. Major employers, water managers and the 
population at risk below these facilities have an expectation 
that the Federal authorities will diligently pursue repairs to 
protect public safety and ensure a secure and reliable source 
of water.
    As Senator Wyden so succinctly said in his comments to 
major Oregon industry leaders last August, the uncertainty of 
this project is taking a toll on economic development. We thank 
the Senator and the committee for helping remove this cloud of 
uncertainty, just as Oregon and the Nation's economy begins to 
recover. S. 1946 would ensure that dam safety improvements are 
not delayed awaiting an incremental increase in the cost 
ceiling for the Safety of Dams program. While extremely helpful 
increase in the cost ceiling alone will not fully address the 
public need at Scoggins Dam and possibly other Reclamation 
facilities.
    Concurrent with safety concerns the water supply needs of 
our region must be addressed. In 2004 Congress authorized the 
Tualatin Basin Water Supply study and authorized a 2.9 million 
dollar study alternatives to meet the long term water needs of 
the region. After nearly a decade of analysis, expansion of 
Hagg Lake has been identified as a central component for 
meeting the long term water supply need.
    The integration of Reclamation's Safety of Dams 
improvements with our region's need to expand this facility 
would reduce costs and leverage our shared investments in order 
to protect public safety and secure the water supply and meet 
the long term needs of our community. From the perspective of a 
non-Federal sponsor and the people of Oregon, it makes little 
sense to invest hundreds of millions of dollars to secure the 
dam without simultaneously allowing for an increased water 
supply. The sustained and recurring droughts in Oregon and 
other Western States underscore the need to address, not only 
the threat of earthquakes, but also the threat of water 
shortages.
    In order to move forward with the joint project we need 
authority allowing repayment contractors, the non-Federal 
sponsors of these Reclamation facilities, to simultaneously 
take action to increase storage benefit when economically and 
environmentally feasible. Under existing law Reclamation cannot 
plan for nor accept funds from a non-Federal sponsor for such 
improvements once a facility is in the Safety of Dams process.
    We look forward to working with Congress toward the 
enactment of this legislation and that will not only 
immediately benefit a producing area of jobs in the State of 
Oregon, but also Reclamation dams that require safety 
improvements. The safety, security and reliability of the 
Nation's water supply is central to our economic health and 
security.
    So thank you for your attention to this legislation. I'd be 
happy to answer any questions.
    [The prepared statement of Mr. Duyck follows:]

 Prepared Statement of Andy Duyck, Chairman, Washington County, Oregon 
   Board of Commissioners, Chairman, Clean Water Services, Board of 
                               Directors
    Thank you Chairwoman Landrieu, Ranking Member Murkowski, Senator 
Wyden and distinguished Members of the Committee for the opportunity to 
provide you with testimony in support of S. 1946, a bill to modify the 
authorization of appropriations for the Bureau of Reclamation's Safety 
of Dams Program. My name is Andy Duyck, and I am the Chairman of the 
Washington County Commission, as well as the Chairman of the Board of 
Directors for Clean Water Services, the water resources management 
utility for more than 542,000 residents of Washington County. This 
testimony is submitted on behalf of Washington County and Clean Water 
Services. I am also submitting a of set letters from a broad-based 
coalition of Oregon economic, environmental, business, agricultural and 
municipal interests in support of this bill.
    I would like to start by thanking Senator Wyden for his leadership 
on this matter and on many other matters of importance to Oregonians. 
S. 1946 will ensure the Bureau of Reclamation's Safety of Dams Program 
has the funding necessary to address critical public safety needs 
within Reclamation's inventory of 476 dams and dikes across 17 states, 
including Scoggins Dam in Washington County, Oregon. This bill will 
help Reclamation reduce risk; protect lives, homes and property; and 
will provide economic certainty for the farmers, municipalities and 
businesses that rely on safe, secure and reliable water and power 
delivered from Reclamation facilities across the western United States.
    Clean Water Services, Washington County and leaders throughout our 
region thank the Committee for considering legislation to modify the 
authorization of appropriations for this critical public safety 
program. As a repayment contractor on Reclamation's Scoggins Dam, Clean 
Water Services has been working closely with Reclamations' Safety of 
Dams program to address significant seismic safety concerns at this 
federal facility. Scoggins Dam, which forms Hagg Lake, supports nearly 
250,000 jobs, provides drinking water for more than 400,000 residents, 
irrigates 17,000 acres of cropland, and sustains water quality in the 
Tualatin River to protect fish and wildlife habitat.
    In 2009, Reclamation completed a Safety Evaluation of Existing Dams 
analysis on Scoggins Dam and issued a Decision Document in 2010 finding 
that:

          ``The seismic hazard at Scoggins Dam quite possibly presents 
        the most severe, or at least among the most severe, earthquake 
        loadings within Reclamation's inventory of dams.''

    As a result of this finding, Reclamation moved forward with an 
expedited Corrective Action Study to identify necessary structural 
modifications to the dam that would address the seismic issues. 
Accordingly, the President's fiscal year 2014 budget request to 
Congress included Scoggins Dam on a list of facilities scheduled for 
preconstruction activities. In order for Reclamation to budget for 
these priority safety improvements, Reclamation must be granted the 
funding authority to move forward. Major employers, water managers and 
the population at risk below these facilities have an expectation that 
the federal authorities will diligently pursue repairs to protect 
public safety and ensure secure and reliable sources of water.
    As Senator Wyden so succinctly said in his comments to major Oregon 
industry leaders last August, ``the uncertainty [of this project] is 
taking a toll on economic development.'' We thank the Senator and the 
committee for helping remove this cloud of uncertainty just as Oregon 
and the nation's economy begins to recover.
    S. 1946 would provide a more efficient path for dam safety 
improvements across the country by providing Reclamation with renewed 
authority to work with local entities to plan, schedule, budget and 
construct priority dam safety improvements. Like other authorization 
programs, Congress will maintain its fiduciary authority for the Safety 
of Dams program, but local communities and Reclamation would no longer 
be burdened by the need to increase the program's arbitrary cost 
ceiling every several years.
    While extremely helpful, modification of the authorization for 
appropriations for the Safety of Dams program will not fully address 
the public need at Scoggins Dam and possibly other Reclamation 
facilities. Concurrent with safety concerns, the water supply needs of 
our region must be addressed. In 2004, Congress authorized the Tualatin 
Basin Water Supply Project Study and authorized $2.9 million to study 
alternatives to meet the long-term water needs of the region. The 
Tualatin Basin Water Supply Project is a basin-wide, integrated water 
resource management project that will diversify our water supply; help 
ensure we are able to respond to anticipated climate change and drought 
cycles; and meet the 50-year water supply needs for:

  <bullet> Water quality and critical habitat improvements in the 
        Tualatin River and its tributaries
  <bullet> Cities, industry and economic development; and
  <bullet> Agriculture

    After nearly a decade of analysis, expansion of Hagg Lake has been 
identified as a central component for meeting the long-term water needs 
of our region.
    The integration of Reclamation's Safety of Dams improvements with 
our region's need to expand this facility would reduce costs and 
leverage our shared investments in order to protect public safety; 
secure our primary water supply and meet the long-term needs of our 
community.
    From the perspective of the non-federal sponsor and the people of 
Oregon, it makes little sense to invest hundreds of millions of dollars 
to secure the dam without simultaneously allowing for increased water 
supply. The sustained and recurring droughts in Oregon and other 
western states underscore the need to address not only the threat of 
earthquakes but also the threat of water shortages.
    In order to move forward with a joint project, we need authority 
allowing repayment contractors--the non-federal sponsors of these 
Reclamation facilities--to simultaneously take action to increase the 
storage benefit when economically and environmentally feasible. Under 
existing law, Reclamation cannot plan for nor accept funds from a non-
federal sponsor for such improvements once a facility is in the Safety 
of Dams process. While such improvements might not be feasible or 
desired in every instance, Reclamation should have the flexibility to 
work with non-federal sponsors who seek both safety and water supply 
improvements.
    The authority we seek would not increase costs to the Safety of 
Dams program nor obligate federal taxpayers in any way to pay for water 
supply improvements. We recognize and accept our obligation to pay 
these costs for additional storage capacity. But authorization is 
needed now to fully address the public need for safety and future water 
supply.
    We greatly appreciate the thorough study and commitment of 
Reclamation resources to assess the safety of Scoggins Dam. We are 
working collaboratively with Reclamation to develop a feasible strategy 
for ensuring the safety of the dam at the least cost to taxpayers and 
the residents of Washington County. Our plans to expand the storage 
capacity of the dam have been on hold for five years while the safety 
of the dam was evaluated. S. 1946 would ensure that safety improvements 
are not further delayed awaiting an incremental increase in the cost 
ceiling for the Safety of Dams program. We look forward to working with 
Congress toward the enactment of this legislation that will not only 
immediately benefit a key job producing area of the State of Oregon but 
also other Reclamation dams that require safety improvements.
    The safety, security and reliability of the nation's water supply 
is central to our economic health and security. The resiliency of water 
infrastructure is more important than ever as we face the challenge of 
recurring droughts in Oregon and throughout the West. Our collaboration 
with Reclamation at Scoggins Dam will help our region secure our 
primary water source and plan for the future. On behalf of economic, 
agricultural, environmental and municipal interests in our region, I'd 
like to enter letters of support for S. 1946 into the record from the 
following stakeholders:

  <bullet> Oregon Governor John Kitzhaber
  <bullet> Washington County
  <bullet> Clean Water Services
  <bullet> City of Hillsboro
  <bullet> City of Beaverton
  <bullet> City of Forest Grove
  <bullet> City of Tigard
  <bullet> City of Tualatin
  <bullet> Tualatin Valley Water District
  <bullet> Joint Water Commission
  <bullet> Tualatin Valley Irrigation District
  <bullet> Oregon Water Resources Congress
  <bullet> Intel Corporation
  <bullet> Greater Hillsboro Chamber of Commerce
  <bullet> Westside Economic Alliance
  <bullet> Oregon Business Association
  <bullet> Portland General Electric
  <bullet> Portland Metro Homebuilders Association
  <bullet> Tualatin Riverkeepers
  <bullet> Tualatin River Watershed Council

    Thank you for your attention to this legislation. I would be happy 
to answer any questions.

    Senator Schatz. Thank you very much, Mr. Duyck.
    Dr. Batten.

 STATEMENT OF BELINDA A. BATTEN, DIRECTOR, NORTHWEST NATIONAL 
    MARINE RENEWABLE ENERGY CENTER, OREGON STATE UNIVERSITY

    Ms. Batten. Mr. Chairman, it is my pleasure and honor to 
appear before you today to discuss the importance of S. 1419. I 
wish to thank Senator Wyden and Senator Murkowski and their 
staffs for their work on S. 1419 and long time efforts to 
create a marine hydrokinetic industry in the United States.
    I would also like to express my appreciation to the members 
of the DOE Water Power team, who are integral to the success of 
our projects.
    I'm a professor of mechanical engineering at Oregon State 
University and the Director of the Northwest National Marine 
Renewable Energy Center, which I'll call NNMREC because it's 
quite a mouthful.
    The United States is blessed with an abundant energy 
resource from the ocean waves and currents. In addition to the 
estimates provided earlier by Mr. Carr, DOE estimates that 
Oregon, Washington and California can meet up to 20 percent of 
their electricity requirements from wave energy. That Alaska 
and Hawaii can meet nearly all of their power loads from marine 
energy technologies. Clearly this is a potential renewable 
energy resource that is worthy of additional investments by the 
U.S. Federal Government.
    NNMREC is a DOE center with the mission of advancing 
understanding of marine energy technologies. Senator Schatz, 
there's a center in your State as well.
    NNMREC is a collaboration between Oregon State University 
and the University of Washington and was established in 2008. 
Our programmatic strength derives from our integrated research, 
development and testing activities collaborating with private 
sector industry partners and the national laboratories.
    NNMREC served as a one stop shop for technology developers, 
regulatory and research agencies and community stakeholders who 
are interested in marine energy. We're developing the work 
force for this emerging renewable energy sector and have placed 
more than 20 graduates in industrial positions since 2009.
    NNMREC has developed world class test facilities for wave 
energy devices. In 2012 we established a non grid connected 
facility in Newport, Oregon and tested the WET-NZ wave energy 
converter. With support from DOE and non Federal sources of 
cost match, NNMREC is now developing a site that will serve as 
the United States utilities field grid connected test facility 
for wave energy.
    Since inception NNMREC has tested 7 different devices in 
its scaled laboratory facilities at Oregon State and 3 devices 
in open water environments. Developers rely on our testing 
facilities to prove and advance their technologies.
    To give you a picture of our collaboration with industry 
I'll focus on one example.
    In 2004 Green Light Energy, a wind developer, visited 
Oregon State with the interest in starting a wave energy 
company by licensing Oregon State's intellectual property. They 
formed Columbia Power Technologies based in Corvallis, Oregon. 
Since then we've worked collaboratively on research to advance 
their device.
    We've assisted them with testing in our wave tanks as 
they've advanced through their engineering development spirals. 
We supported an open water test of their device in Puget Sound. 
Earlier this week Columbia announced that the manufacturing 
order for their power generator had been issued and it will be 
tested at the National Renewable Energy Lab.
    Columbia Power is just one of the private sector technology 
developers that NNMREC has supported. This example demonstrates 
how the collaboration between NNMREC, the DOE Water Power 
Program and the national labs is working to shorten the time 
and cost to commercialization for U.S. based MHK companies.
    Unfortunately technology development is not the only hurdle 
facing this industry. Much of my time during the last year and 
a half has been devoted to developing the first U.S. grid 
connecting testing facility for a variety of utility scale wave 
energy converters and arrays. This facility is being developed 
to provide the industry with a premier test site in the United 
States analogous to the European Marine Energy Center in 
Scotland that has been operational for 10 years.
    It has been reported that the existence of that testing 
facility contributes $16 million per year to the local economy 
and that it supports hundreds of jobs. By establishing a 
comparable testing center in the United States we can grow the 
MHK industry that will provide new economic opportunities, high 
wage jobs and a clean energy source to coastal communities.
    I see firsthand the challenges that the marine renewables 
industry faces with respect to funding and regulatory 
processes. We have been working on permitting activities for 
over a year and have spent approximately $500 thousand. We 
anticipate spending another $1 million to $1.5 million and that 
it will require at least two more years until we have our 
permits and licenses in hand. All of this cost and effort has 
been expended to establish a non commercial testing facility 
for our prototypes.
    The reauthorization of the DOE Water Power Program through 
S. 1419 is essential to providing the continued funding the 
industry needs. The regulatory changes provided in S. 1419 will 
provide an avenue for promising new companies to advance 
through the necessary testing stages more quickly. This bill 
will enable NNMREC to continue to support developers as 
illustrated in my example about Columbia Power.
    Ocean energy can play a significant role in our Nation's 
renewable energy portfolio. With the right support the U.S. MHK 
industry can compete internationally. I ask this committee to 
consider this measure and positively refer it to the full 
Senate for eventual passage.
    I will be glad to respond to any questions that you may 
have about NNMREC or the MHK industry. Thank you for your time.
    [The prepared statement of Ms. Batten follows:]

 Prepared Statement of Belinda A. Batten, Director, Northwest National 
        Marine Renewable Energy Center, Oregon State University
    Senator Landrieu and members of the Subcommittee, it is my pleasure 
and honor to appear before you today to discuss the importance of S. 
1419, the Marine and Hydrokinetic Renewable Energy Act of 2013. First, 
I offer my congratulations to you, Senator Landrieu, for your ascension 
to committee chair. I also want to thank my Senator from Oregon, Ron 
Wyden, as well as Senator Murkowski, along with their staffs, for the 
excellent work on S. 1419 and long time support of efforts to create a 
marine hydrokinetic (MHK) industry in the United States. Finally, I 
would also like to express my appreciation for the members of the 
Department of Energy's Water Power team who are integral to the success 
of our projects.
    I am a professor of Mechanical Engineering at Oregon State 
University and Director of the Northwest National Marine Renewable 
Energy Center (NNMREC). Prior to this appointment, I served as the Head 
of the School of Mechanical, Industrial, and Manufacturing Engineering 
at Oregon State University. Previous to that, I was the Program Manager 
for Dynamics and Control at the Air Force Office of Scientific 
Research. I have served on the US Air Force Scientific Advisory Board, 
and I currently serve on the board of the Oregon Wave Energy Trust.
    The United States is blessed with abundant MHK renewable resources 
from ocean waves and currents. For the continental United States, the 
potential MHK resource, dominated primarily by ocean waves, is 
estimated between 13 and 19 percent of current electricity demand. DOE 
estimates that Oregon, Washington and California can meet up to twenty 
percent of their electricity requirements from wave energy convertors, 
and Alaska and Hawaii can meet nearly all of their power loads from MHK 
technologies. Clearly, this is a potential renewable energy resource 
worthy of additional investments by the U.S. Federal Government.
    NNMREC is a competitively designated U.S. Department of Energy 
(DOE) Center with the mission of advancing understanding of MHK 
technologies. NNMREC, a collaboration between Oregon State University 
and the University of Washington, was established in 2008 through a 
competitive DOE Water Power Program Funding Opportunity Announcement. 
Our programmatic strength derives from our integrated research, 
development and testing activities, collaborating with private sector 
industry partners and the national laboratories. NNMREC has 
historically focused on wave and tidal current energy technologies, and 
has expanded into off-shore wind. NNMREC serves as a ``one stop shop'' 
for technology developers; federal, state and local regulatory and 
resource agencies; and community stakeholders interested in marine 
energy. We are developing the workforce for this emerging renewable 
energy sector, and have placed more than twenty graduates in industrial 
positions since 2009.
    NNMREC has developed world-class test facilities, under the 
``brand'' Pacific Marine Energy Center (PMEC). In 2012, NNMREC 
established the PMEC North Energy Test Site (PMEC-NETS), a non-grid 
connected facility in Newport, Oregon, and tested the WET-NZ wave 
energy converter. With support from DOE and other non-federal sources 
of cost match, NNMREC is now developing the PMEC South Energy Test Site 
(PMEC-SETS) to serve as the United States' utility scale grid connected 
test facility. At this facility, we will test commercial scale wave 
energy converters and arrays.
    Our faculty and students have also supported scaled wave energy 
converter testing in our wave tank facilities at OSU's Hinsdale Wave 
Research Lab, in Puget Sound and in Lake Washington, as well as utility 
scale tidal current energy projects. Since inception, NNMREC has tested 
seven different devices in its scaled laboratory facilities at OSU, and 
three wave energy devices in open water environments. Device developers 
rely on our testing facilities to prove and advance their technologies.
    NNMREC has become globally recognized for research, development and 
testing in marine renewable energy. Faculty and students collaborate 
with developers on specific device related projects. To give you a 
picture of our collaboration with industry, I will focus on one 
example. In 2004, Greenlight Energy, a wind developer, visited OSU with 
interest in starting a wave energy company, spring-boarding off 
licensing OSU's intellectual property. They formed Columbia Power 
Technologies (CPT), based in Corvallis, Oregon. In 2007, Columbia Power 
and Oregon State University worked together to develop SeaBeav I, a 
prototype point absorber wave energy device with a novel direct-drive 
linear generator. This work was continued in 2008 with Navy and 
Columbia Power funding, and culminated in the successful ocean testing 
of the L10 point absorber device. Based on the lessons learned from the 
successful testing, Columbia Power determined a direct-drive rotary 
generator design was more appropriate than the linear design for 
utility scale conversion.
    In 2009 Columbia Power tested a 1:33 scale prototype of their new 
direct-drive rotary system in collaboration with NNMREC researchers in 
OSU's Tsunami Wave Basin. This effort expanded the next year with the 
testing of a 1:15 scale device in the OSU's Large Wave Flume, along 
with 1:33 scale prototype array testing in the Tsunami Wave Basin, one 
of the first testing of its kind in the US.
    In 2011 Columbia Power worked with NNMREC and OSU researchers to 
develop and successfully test a 1:7 scale prototype in Puget Sound. 
This 13 month testing was very successful, and Columbia Power is 
continuing forward with a full-scale design. In addition, Columbia 
Power and NNMREC have recently developed active mooring control systems 
to enable flexible and accelerated wave tank testing.
    At all points in their research, development and testing, CPT staff 
have been actively engaged with NNMREC faculty and students. Over the 
years OSU has provided CPT with several of our graduating students to 
fill out their engineering staff, and with several undergraduate 
student interns. The ongoing collaboration has accelerated research and 
product development toward grid-scale implementation.
    Earlier this week CPT announced that the manufacturing order for 
its power generator has been issued to Siemens Industry; the generator 
will be utilized in CPT's full-scale power take-off (PTO) test project. 
The PTO will be tested on the new 5MW dynamometer at the National 
Renewable Energy Laboratory. This land-based test allows the safe, 
rapid and economical simulation of the full range of ocean conditions.
    Columbia Power Technologies is just one of the private sector 
technology developers that NNMREC has supported over the five plus 
years of its existence, and this example demonstrates how the 
collaboration between NNMREC, the DOE Water Power Program and the 
National Labs is working to shorten the time and cost to 
commercialization for U.S. based MHK companies. Unfortunately, 
technology development is not the only hurdle facing this industry or 
these private sector companies.
    Much of my time during the last year and a half has been devoted to 
developing PMEC-SETS which will serve as the first US grid connected 
testing facility for a variety of utility scale wave energy converters 
and arrays. This facility is being developed to provide the industry 
with a premier test site in the United States, analogous to the 
European Marine Energy Center (EMEC) in Orkney, Scotland that has been 
operational for 10 years. It has been reported that the existence of 
EMEC contributes $16 million per year to the local economy and supports 
hundreds of jobs throughout the research and development supply chain. 
Members of the European Union have spent almost $1 billion over the 
past ten years on MHK development and have made this technology a 
priority. By establishing a comparable testing center in the United 
States, we can grow a MHK industry that will provide new economic 
opportunities, high wage jobs and a clean energy source to coastal 
communities.
    Through my efforts to develop PMEC-SETS, I see first hand the 
challenges that the marine renewables industry faces with respect to 
funding and regulatory processes to advance their technologies. We have 
been working on permitting activities for PMEC-SETS for over a year, 
and have spent approximately $500,000. We anticipate spending another 
$1--1.5M and that it will require at least two more years until we have 
our permits and licenses in hand. All this cost and effort has been 
expended to establish a non-commercial testing facility for prototype 
devices. Clearly, something is not working if this is the best we can 
do as a government to support the private sector in developing new 
renewable energy technologies.
    The reauthorization of the Department of Energy's Water Power 
Program through S. 1419 is essential to providing the continued funding 
that this industry needs at this stage of its development. This is 
particularly true when you keep in mind that funding from the DOE Water 
Power Program is the one key mechanism to support U.S. technology 
developers competing against overseas companies that receive a suite of 
subsidies. The reality is that most MHK companies are not yet in a 
position to receive the tax benefits enjoyed by more mature 
conventional and renewable energy technologies. In addition, the 
regulatory changes proposed in S. 1419 will provide an avenue for 
promising new MHK companies and their technologies to advance through 
the necessary testing stages more quickly. This industry requires 
targeted investments and permitting efficiencies like those that are 
included in S. 1419.
    These investments and permitting efficiencies are essential to 
developing the MHK energy sector that has the potential to deliver 
reliable power to our coastal communities with significant, positive 
economic impact. NNMREC has received over $10M in funds from DOE to 
date, and another $10M in non-federal matching funds, mostly from the 
States of Oregon and Washington. This bill will enable NNMREC to 
continue to support developers as illustrated in my example with 
Columbia Power Technologies.
    Ocean energy can play a significant role in our nation's renewable 
energy portfolio. With the right support, the United States' MHK 
industry can be competitive internationally. I am pleased to offer my 
support for S. 1419. I ask this committee to consider the measure and 
positively refer it to the full Senate for its eventual passage. I will 
be glad to respond to any questions that you may have about NNMREC's 
activities or the MHK industry.
    Thank you.

    Senator Schatz. Thank you very much, Dr. Batten.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Mr. Stern, if I could ask a couple things I was thinking 
about as you testified?
    Now the Bureau of Reclamation has mentioned that it has 
concerns with the prospect of integrating maintenance backlog 
information from different Bureau project types. You 
specifically mentioned the word types of projects, such as 
reserved and transferred works, as would be required under our 
bill. Based on your knowledge of the Bureau of Reclamation 
would it be possible to integrate the relevant data across 
different infrastructure types into a single report?
    Mr. Stern. Senator Barrasso, the bill as currently written, 
as you know, leaves a number of the alimentation issues 
associated with the bill up to the Bureau of Reclamation to 
determine how it would go about integrating these things into 
the existing budget.
    I don't think that we at CRS have sufficient information on 
what information Reclamation has internally and how they would 
go about implementing this bill to say whether or not it would, 
for instance, have the potential to duplicate existing 
processes. But what I could say is that the bill certainly 
doesn't mandate that, you know, this work into existing 
Reclamation budget processes it could possibly be a different 
process all together.
    Senator Barrasso. Would something like the assignment of 
safety ratings under the bill have the potential to undermine 
Reclamation's annual budget process as some claim and why or 
why not?
    Mr. Stern. I wouldn't comment on whether it would 
potentially undermine the bill's or undermine their existing 
budget processes. But again, the bill provides the flexibility 
for Reclamation to incorporate the safety ratings into the 
annual budget process. But it doesn't require that Reclamation 
incorporate that or replace the annual budget process with 
those ratings.
    Senator Barrasso. Could you elaborate a little bit on the 
figures that the Bureau has provided Congress in the past 
related to its needed infrastructure upgrades? Do you know what 
the current status is of those totals?
    Mr. Stern. As I mentioned in my written testimony, 2.6 
billion is the most recent figure for Reclamation's overall 
maintenance backlog that they've publicly cited. Back in 2008 I 
think it was as high as 3 billion and then some Recovery Act 
projects helped to decrease that total.
    Since 2012 we haven't seen any updates of that number. So 
that's the most recent thing that we have. That was the last 
time that Reclamation actually published an asset management 
report.
    Senator Barrasso. Yes. So what do think would be the 
potential affect of S. 1800's requirements for project level 
maintenance estimates on Reclamation's previous, you know, 
estimates?
    Mr. Stern. Certainly the broader estimates would probably 
change, could change at any number of directions. For some 
projects they would probably go up and for some projects they 
would go down. But since we haven't seen the specific project 
level estimates, it's hard to comment further than that.
    Senator Barrasso. In your testimony I wanted to ask you a 
question. You mentioned that whether additional costs would be 
passed on to project users would be up to the Bureau of 
Reclamation. Could you tell us what you mean by that?
    Mr. Stern. Again, the bill provides a fair amount of 
flexibility in its implementation. All it requires is that 
Reclamation come up with these estimates. It doesn't require 
that the cost actually be passed on to users. But it doesn't 
bar Reclamation from passing these costs on to users as well.
    Previous legislation, I think in 2008, the Omnibus Lands 
bill, actually said that Reclamation should use the data from 
the urban canal inspections to inform, you know, potential new 
actions by users. That's not the case with this bill.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    Senator Schatz. Thank you very much, Senator Barrasso.
    Dr. Batten, thank you very much for your testimony. Thank 
you for your work on this important issue.
    Can you just give us a sense for how close we are to 
commercialization? I think part of that, obviously, is 
connecting to the grid, but it's also a cost question. So 
what's your sense of how far we are from R and D to 
commercialization at small scale and then wide scale adoption?
    Ms. Batten. Senator, I think the answer to your question 
depends a lot on what kind of investment we get from the 
Federal Government.
    If you look at what happened with wind 30 years ago we were 
well on the way to commercialize the industry and then funding 
went away and Europe developed the devices. Now we have it 
back.
    I think what we're going to see in this country if we have 
the fortitude and patience to continue to invest is that if we 
can realize this utility scale test facility then we will see 
small arrays of devices going into places where there's high 
cost of energy, places like your State, places like the State 
of Alaska, where communities right now are dependent upon very 
expensive diesel. If that were to happen we might see some 
small arrays of devices in those waters within the next 5 
years.
    Senator Schatz. What is the--can you describe the 
technology? Obviously there are different categories of ocean 
power here. As you know off the west side of the big island of 
Hawaii we have an ocean thermal energy conversion facility. At 
the Kaneohe Marine Corps Air Station there's a marine hydro 
power which is to say they're turning turbines for electrons. 
There are different categories of ocean power.
    Can you quickly go through them and then talk about which 
ones you think are the most commercially viable, which ones are 
the game changers and which ones are further off?
    Ms. Batten. One of the challenges with wave energy is that 
we don't have a good sense of what the device should look like. 
It will be driven by the levelized cost of energy.
    Whereas with tidal turbines we could leverage a lot of the 
information we knew about wind energy. There's almost every 
different kind of device you could think of for wave energy 
depending on what somebody had this great idea about how the 
ocean goes up and down and back and forth. That's one of the 
reasons for a test facility.
    So there are some devices called point absorbers that are 
essentially like a buoy that goes up and down with the heave of 
the ocean.
    Then there are devices that will go back and forth with the 
surge of the ocean.
    There's devices that will have floats that rise and fall as 
the waves go underneath them.
    There are a device that's looking at Hawaii relies on air 
being compressed through a turbine as the ocean waves go 
through.
    Senator Schatz. So we just don't know yet. That's the 
purpose of further testing.
    Ms. Batten. We don't know. That's exactly the purpose of 
the further testing is to see which devices are most reliable 
and survivable in various wave environments and what kind of 
energy the various devices produce.
    Senator Schatz. Very briefly, could you tell me about power 
quality when it comes to ocean energy? Are we moving toward 
this being firm power? Is this going to be intermittent energy? 
Where does this fit in the spectrum?
    Ms. Batten. We have electrical engineers at Oregon State 
who are working on those questions. I think they're busy 
working on how to produce well conditioned power. If you go to 
the European Marine Energy Center you'll see them working on 
these kinds of technologies that their electricity is being put 
on to the grid and they have been able to show with different 
kinds of devices how to put them on to the grid in an effective 
way.
    Senator Schatz. I would assume that, to the extent that 
it's tidal energy, it's predictable and therefore maybe not 
quite firm, but dispatchable. Is that about right?
    Ms. Batten. Yes, that's fair.
    Even wave energy, which we may not think about off the top 
of our head, is predictable 84 hours in advance. So that's a 
fairly predictable resource that's always there. It doesn't 
rise and fall like the wind or go away at night like the sun.
    Senator Schatz. I've been told that there's a diminishment 
of actual wave action if there is a wave power project 
offshore. Is that true?
    Ms. Batten. It depends on how many devices you would have 
together. That's another project that's been--that we're busy 
working on at Oregon State University is to predict how much 
the waves would be diminished for particular devices in an 
array.
    Senator Schatz. For the record that would be a deal breaker 
in Hawaii.
    Ms. Batten. I could understand. It would be in Oregon too, 
though you may not think about it, we have a large surfing 
community that would be outraged.
    Senator Schatz. I understand.
    Thank you very much.
    Just a quick question for Mr. Duyck. Thanks for your 
testimony.
    I agree that S. 1946 is an important piece of legislation. 
I thank you for your support of it.
    Do you see any need to amend the Safety of Dams program 
beyond lifting the appropriation ceiling and if so, what 
recommendations might you have?
    Mr. Duyck. It's really a two pronged approach.
    The first is to secure our primary source of water against 
earthquake damage. That's what S. 1946 starts to address.
    But then we will need the authority or Reclamation will 
need the authority to work on a joint project with non Federal 
partners. That's where the new dollars come in that will 
actually speed up the project and make it less expensive for 
the increased capacity.
    So, thank you.
    Senator Schatz. Thank you very much.
    In closing I'd like to highlight the fact that the 
committee has received letters of support for S. 2019 from the 
following organizations, the Western States Water Council, the 
Theodore Roosevelt Conservation Partnership, the American 
Planning Association and the National Water Resources 
Association.
    We thank these organizations for their support and have 
submitted their letters for the record.
    The testimony and written submissions from today's 
witnesses will be made a part of the official hearing record.
    We will also keep the record open for a period of 2 weeks 
to receive additional statements.
    We thank the testifiers and the staff.
    This hearing is adjourned.
    [Whereupon, at 3:40 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

        Responses of Mike Carr to Questions From Senator Schatz
    Question 1. Mr. Carr, discussion surrounding the recent expiration 
of the production tax credit has mostly focused on the effect of the 
expiration on the wind industry. We often forget that marine and 
hydrokinetic renewable energy projects were also eligible for the PTC. 
Recognizing that MHK is largely in a pre-commercial phase, I wonder if 
you have thoughts on how the presence or absence of this tax credit 
will affect the economics of getting these projects built. In other 
words, how important is the PTC to marine and hydrokinetic renewable 
projects?
    Answer. The President's FY 2015 Budget Request supports making 
permanent and expanding the Production Tax Credit in order to provide a 
strong, consistent incentive to encourage investment in a variety of 
renewable energy technologies. As the nascent MHK industry grows in the 
short-term, production incentives such as the PTC could drive continued 
growth in the industry. MHK receives 1.1 cents per kilowatt hour 
through the PTC; certain other renewables such as wind and geothermal 
receive 2.3 cents per kilowatt hour. DOE currently estimates the cost 
of MHK technology at 60 cents per kilowatt hour. Our primary focus is 
continuing robust R&D, which is the most important aspect of driving 
MHK technology down the cost curve to make it more competitive in 
localized electricity markets.
    Question 2. Mr. Carr, why is DOE's R&D budget for MHK so small? 
Given its potential mid to long term, why does it get a small fraction 
of the amount of DOE funding other renewables receive?
    Answer. EERE is taking MHK research, development and demonstration 
seriously, and does believe it has an important role in the 
Administration's ``all of the above'' energy strategy moving forward. 
Given the relatively low technical maturity of devices and the nascent 
state of the industry, significant technological research and 
development is necessary to drive MHK down the cost curve towards 
competitiveness with localized electricity markets. As DOE currently 
estimates the cost ofMHK to be $.60/kWh, the technology is more than 4 
times more expensive than where it needs to be to be competitive. This 
makes MHK R&D a longer-term technology.
    In FY 2015, the Department's Budget Request reflects a more 
equitable split across MHK and hydropower. The $30.5 million requested 
in FY 2015 for MHK allows the Water Power Program to continue its 
ongoing efforts to advance water power technologies and accelerate 
their market adoption. For example, the FY 2015 Request supports 
continued MHK applied research and development and testing of 
innovative component technologies designed specifically for the 
challenges of the marine environment, and testing and research to 
address key environmental uncertainties that arise within the rapidly 
developing industry, among other activities. In summary, the 
Department's Budget Request provides the priority and funding stability 
necessary to continue making progress in marine and hydrokinetic 
technologies.
         Responses of Mike Carr to Questions From Senator Wyden
    Question 3. I am disappointed, but not surprised that the 
Department's testimony has no official position on the legislation. The 
same was true with regard to Dr. Danielson's testimony on our critical 
minerals legislation. So let me ask you the question this way--do you 
agree that the folks at OSU and the University of Washington and their 
colleagues around the country are making progress on what could be a 
very promising set of renewable energy technologies and that they ought 
to be encouraged to continue?
    Answer. DOE's National Marine Renewable Energy Centers are expected 
to play a role in technology advancement in the future, and prior DOE 
investments in their capabilities have positioned the centers to 
compete for DOE funding opportunity announcements. For example, the 
Northwest National Marine Renewable Energy Center (NNMREC) just last 
year was selected to negotiate for an award of $750,000 through a new 
competitive DOE Funding Opportunity Announcement (FOA). Additionally, 
the NNMREC and other centers are expected to remain competitive for 
future DOE FOAs, such as the 3-year, $4 million Marine and Hydrokinetic 
(MHK) Research and Development University Consortium FOA (announced on 
April 10, 2014), which aims to leverage field R&D expertise to advance 
U.S. MHK technology, while developing intellectual capital for a 
globally-competitive workforce.
    To date, OSU, the University of Washington, and their colleagues 
have contributed to MHK technology advancement by optimizing MHK system 
and component designs, demonstrating and evaluating technology 
innovations, developing testing instrumentation, and reducing siting 
risks by reducing resource characterization uncertainty and informing 
improved regulatory processes.
    Continued university research, development, demonstration, and 
testing--such as those activities that have been performed at or in 
conjunction with the NMRECs--are clearly important to DOE's mission of 
developing cost-competitive MHK technologies. The Department believes 
the work at OSU and the University of Washington (like scaled wave 
energy converter device testing in both laboratory and intermediate 
sites, and other R&D activities) has advanced this mission and has 
played a valuable role in advancing the nascent U.S. MHK industry.
    Question 4. Over the past decade, through both Democratic and 
Republican Administrations, congressional authorizing and 
appropriations committees have worked to maintain a Federal commitment 
to both conventional and wave energy technologies. As I discussed with 
Assistant Secretary Danielson a couple of weeks ago when he appeared 
before the Committee, Congress appropriated funds for wave energy in 
the FY2014 Omnibus Appropriations Act, but the Department has not been 
following through to ensure that those funds make their way to the U.S. 
research community. Can you assure us that those funds are, in fact, 
going to be making it to our research centers?
    Answer. The Department thanks the Senator and the Committee for 
their strong leadership and support of MHK research, development, 
testing, and demonstration.
    DOE can assure Congress that several competitive funding 
opportunities will be announced so that the funding will be moved out 
to the research community, which includes universities.
        Response of Mike Carr to Question From Senator Murkowski
    Question 5. Since 2005 Congress has been on record supporting 
research and development ofMHK technology. We have appropriated a bit 
more than $200 million in the past decade on MHK development, but the 
United Kingdom has spent three and one-halftimes more, and the European 
nations collectively have spent five times more than America on marine 
technology. The recent omnibus appropriations bill for FY14 allotted 
$41.3 million for MHK funding but contained report language directing 
that no funding is to be made available for the deep-tank wave testing 
facility. Does the Department support such a restriction? Aren't we in 
danger of wasting the money we've already spent for the Oregon marine 
center if we discontinue this aid? How much will it cost DOE if we move 
to replicate the research and device verification facilities that have 
already been built at the Oregon facility at some new academic center 
or even at the national labs?
    Answer. To date, the Department of Energy has not funded any deep-
tank wave testing facility. Following Congressional intent in the 
explanatory statement accompanying the FY 2014 Omnibus Appropriations 
Act, the Department will not provide funding support for a deep tank 
test facility in FY2014. Funding for a deep-tank wave testing facility 
is also not requested in the FY15 budget. The Department will not 
replicate any existing research and device verification facilities, 
including any facilities that might exist at DOE NMRECs.
           Response of Mike Carr to Question From Senator Lee
    Question 6. The National Research Council (NRC) of the National 
Academy of Sciences released a report last May prepared at DOE's 
request that contains conclusions on the limited application ofMHK 
resources. [See excerpts pasted below along with a link to the entire 
study.] Please comment on this report's conclusions and how they square 
with the continued federal funding and support for MHK technology, 
which is further expanded in S. 1419.
    Answer. With 50% of the U.S. population living within 50 miles of 
coastlines, there is significant potential to provide clean, renewable 
electricity to coastal communities and cities using MHK technologies. 
Based on the various resource assessments reviewed in the NRC report 
that were sponsored by the U.S. Department of Energy, the technical 
resource potential for United States wave, tidal, current, and riverine 
hydrokinetic resources is estimated to be between 1,300 and 1,800 TWh/
year, which would be more than one-fourth of U.S. electricity 
consumption if fully captured. While the NRC report noted that there 
were several areas where improvements could be made across the 
assessments, it did not dispute the overall magnitude of the technical 
resource potential across the country.
    Technical resource potential is the portion of a theoretical 
resource that can be captured using a specific technology (usually the 
current state-of-the-art). Practical resource potential is the portion 
of the technical resource that is available when other constraints-such 
as economic, environmental, and regulatory considerations-are factored 
in. The NRC report did note that additional analysis is needed if an 
accurate evaluation of the practical resource potential at specific 
sites is desired.
    The NRC report also noted that DOE should improve public access to 
results and data generation through the resource assessments for the 
purposes of allowing other groups to continue analyses of practical 
resource potential. To that end, the Department has published all the 
MHK resource assessment reports and maps online at http://energy.gov/
eere/water/marine-and-hydrokinetic-resource-assessment-and-
characterization and is centralizing information from all of the 
assessments in the Geospatial Renewable Energy Atlas at the National 
Renewable Energy Laboratory.
                                 ______
                                 
       Responses of Robert Quint to Questions From Senator Schatz
    Question 1. Mr. Quint, S.2019 removes the authorized appropriations 
cap for the Bureau of Reclamation WaterSMART grants program. Can you 
discuss the impacts to Western states if Congress does not act to raise 
or remove the spending cap this fiscal year?
    Answer. WaterSMART allows the Department to provide incentives and 
tools to achieve sustainable supplies, while supporting water managers 
who make their own decisions about what programs and activities will be 
the best and most practical fit in their particular watersheds. 
Reclamation estimates that the authorized appropriations ceiling will 
be reached in FY 2015. If Congress does not raise or remove the 
spending cap this fiscal year, Western states stand to lose use of this 
highly valuable and widely utilized program, which is significantly 
contributing to drought resiliency in the West.
    Question 2. Drought and water scarcity are a serious issue in many 
parts of the country right now. Yet a comprehensive and current 
national assessment of water resources does not exist. Can you talk 
about the benefits of having a better understanding of regional and 
national water availability and use? And please give some perspective 
on the barriers to completing such a national assessment.
    Answer. The U.S. Geological survey (USGS) responds that a better 
understanding of regional and national water availability and use is 
critical to the Nation. The type of information derived from a national 
water assessment provides the Federal government with information to 
make informed decisions regarding Federal investments in water 
resources infrastructure. Programs within the Bureau of Reclamation, 
the Department of Agriculture, the Department of Energy, the Army Corps 
of Engineers, the Environmental Protection Agency, and the National 
Oceanic and Atmospheric Administration, to name just a few, rely on an 
understanding of the Nation's water availability and use in conducting 
their missions. These programs invest hundreds of millions of dollars 
each year toward protecting and sustaining the Nation's water supply. 
These programs continue to depend upon up-to-date data and information 
about our water resources and an accurate assessment of future demands 
for water, and the National Water Availability and Use Assessment is 
designed to provide that type of hydrologic information in an on-going 
fashion on a national level.
    In addition, our Federal government relies upon information 
concerning water availability and use to enact laws, develop and 
implement regulations, and set and carry out policies pertaining to 
water resources. We need to ensure that our laws, regulations, and 
policies are directed at the most pressing water-related issues and 
designed to produce the most beneficial effects with respect to our 
water resources. A National Water Availability and Use Assessment will 
provide the technical information needed to make water-related 
decisions and achieve the best possible outcomes.
    Finally, our society makes decisions on investments every day that 
need to be guided by this type of information. The energy industry 
makes an investment in constructing new generating facilities and must 
know if there is enough water to satisfy the cooling demands; the 
manufacturing industries invest in new factories which need water, and 
they must know if the locations they are selecting can provide the 
supply; and a city needs to plan for its next 50 years of growth and 
must understand the trends in water use and supply. These are critical 
and costly decisions which require a sound base of understanding in 
water availability and use.
    The Bureau of Reclamation and the USGS are both involved in Federal 
interagency efforts to integrate and make accessible existing water 
availability and use data. USGS participates in the Integrated Water 
Resource Science and Services (IWRSS) effort together with the Army 
Corps of Engineers and NOAA's National Weather Service. Both agencies 
are active in the work of the White House Office of Science and 
Technology Policy to create a comprehensive data base of Federal water 
data as part of the President's Climate Data Initiative.
    The USGS perceives five major barriers to completing a national 
assessment of freshwater availability and use: challenges in gathering 
information from other Federal agencies involved in water availability, 
a fragmented approach to State water resources information management, 
inadequate resources, lack of interoperability, and various 
institutional barriers.
    Question 3. In your written testimony, you mention the energy-water 
nexus, something I am very interested in. Can you please shed some 
light on how WaterSMART relates to the energy water nexus?
    Answer. Clearly there is a strong connection between energy and 
water. As the second largest producer of hydropower, Reclamation has an 
interest in the conservation of both. Through the WaterSMART Program, 
Reclamation provides cost-shared grants to States, tribes, and other 
entities for projects that achieve water efficiency improvements, and 
proposals that not only address water conservation but also explore the 
use of renewable energy. Other energy efficiency improvements receive 
additional consideration during the selection process. Projects funded 
to date have included incorporation of new hydroelectric turbines on 
canals and conduits, installing automated systems on facilities to 
increase energy efficiency, and constructing storm water recharge 
systems to take advantage of local water, thus minimizing the need to 
pump water from distant sources. Sponsors of WaterSMART grant projects 
are asked to explain how their proposed water efficiency improvements 
can be expected to lead to energy savings as well, and the methods used 
to estimate energy savings are shared with other water managers as they 
plan future improvements.
    Question 4. Mr. Quint, I'd like to ask you a question about the 
title transfer bill that I introduced earlier this week. We know the 
Bureau is interested in conveying title of some of its facilities to 
project beneficiaries, but I wonder if you can discuss the level of 
interest on the part of potential recipients, and also explain why 
title transfer is often a good option for the recipients as well.
    Answer. Reclamation has fielded many inquiries from water districts 
about the possibility of title transfer and since 1995, has transferred 
title to 27 projects or parts of projects. To proactively engage with a 
larger number of water districts to identify and evaluate the potential 
public benefits of title transfer, including more efficient management 
of water and water-related facilities, Sec. 3 of S. 2034 establishes a 
title transfer program. Title transfer can increase operational 
flexibility and can potentially remove obligations--such as certain 
reporting and permitting requirements that exist by virtue of the fact 
that the facilities are owned by the United States. We also see title 
transfer as a tool for assisting water users to address long term 
maintenance needs associated with an aging infrastructure. In many 
cases, the entities that operate the projects would like to undertake 
major maintenance efforts that, by law, are their responsibility. 
However, they cannot borrow the needed capital because they do not 
actually own the facilities and therefore do not have sufficient 
collateral. Taking title gives them the flexibility to pursue financing 
opportunities that would otherwise not be available.
    Question 5. The title transfer bill gives the Bureau of Reclamation 
authority to convey titles of certain eligible facilities to willing 
project operators, also referred to as project beneficiaries. As I 
discussed earlier, currently an act of Congress is required to transfer 
these titles. This bill is aimed at uncomplicated projects where all 
parties are able to reach agreement on the terms of the transfer. If 
this bill were to become law, what would you see as Congress's role for 
more complex projects, such as those involving preference power rates 
or other complicating factors?
    Answer. S. 2034 creates a second track for pursuing title transfer 
from that which we already pursue. The inclusion of project power in 
some cases may add a level of complexity to the title transfer process, 
which may not be appropriate for the type of non-controversial title 
transfers envisioned in S. 2034. Therefore, projects with complicating 
factors would continue through the same process as they do today, where 
we develop a unique title transfer agreement and work with Congress to 
authorize that transfer. That is the same process as we use today and 
it would be available under this program.
    Question 6. Mr. Quint, I am pleased to see that the Department 
supports S. 1946. My question is what, if any, external reviews or 
audits of the Dam Safety program have taken place and what are those 
findings?
    Answer. Reclamation's Dam Safety Program has been reviewed annually 
since 1997 by an external independent review panel. Their general 
conclusions have been that the program is comprehensive, well organized 
and in conformance with Federal Guidance and that it contributes to the 
establishment of best practices for the industry.
        Response of Robert Quint to Question From Senator Wyden
    Question 7. Mr. Quint, the Crooked River bill aims to strike the 
balance between competing demands for a scarce resource: water from the 
Crooked River. There are concerns that some groups will have more 
influence than others on how water is actually allocated. How does the 
Bureau interpret the bill's language that directs the Bureau to work 
with the Confederated Tribes of the Warm Springs and the State of 
Oregon for guidance on the annual release schedule? Would the Tribe be 
able to dictate to the Bureau how water is released as a co-manager of 
the resource?
    Answer. Reclamation believes the provisions of Section 7 create 
potential conflict if the federal, state and tribal management 
priorities for Crooked River flows from Bowman Dam are not aligned 
every year. Likewise, the repeated reference to downstream fish and 
wildlife benefits appears to create restricted discretion to address 
in-reservoir or upstream fish and wildlife needs. As drafted, we do not 
believe the bill would enable the tribe to ``dictate'' how water is 
released. As noted in our testimony, the bill alters but does not 
eliminate Reclamation's discretion in operating the dam; however the 
change in discretion is not entirely clear.
     Responses of Robert Quint to Questions From Senator Murkowski
                               on s. 1771
    Question 8. To your knowledge, could there be any other 
alternatives to augmenting water supplies to the City of Prineville 
other than Prineville reservoir?
    Answer. Prineville Reservoir is the only Reclamation reservoir 
option for the City of Prineville. We have not been involved with or 
are aware of any efforts by the City to consider alternative water 
supplies.
    Question 9. What type of an analysis would you say needs to be 
carried out to assess the impacts (if any) on current water consumers 
of withdrawing 5,100 acre-feet of water from the Bowman Dam for the 
City of Prineville?
    Answer. Issuing a contract to the City of Prineville would normally 
require an analysis of all anticipated impacts of the proposed action 
conducted as part of the National Environmental Protection Act (NEPA) 
compliance process. It is possible that S.1771's proposed contract with 
the City of Prineville for 5100 acre-feet of storage would be covered 
by a categorical exclusion; however, it may require an environmental 
assessment.
                               on s. 1800
    Question 10. Can you please describe what exactly is being done 
currently to asses and estimate future needed repairs to BOR's assets? 
What are the associated costs? How would the proposed new assessment 
address missing information?
    Answer. Reclamation's annual budget request provides Congress with 
the best representation of the appropriated funds needed for identified 
maintenance activities at Reclamation's facilities. However, concurrent 
with the budget request, there is a significant amount of maintenance 
that is funded ``off budget'' with Reclamation's water and power 
customers, pursuant to advance funding agreements. While this process 
has worked well to provide for continued reliability of Reclamation's 
infrastructure, we recognize that Congress would like more information 
on how Reclamation assesses and estimates future repair needs. To that 
end, we have provided to Senator Barrasso's office a redline set of 
edits to S. 1800, consistent with Reclamation's testimony, which we 
believe would improve implementation of the bill while streamlining the 
data gathering required by the legislation within Reclamation's 
existing budget and asset management processes. This effort is 
anticipated to improve the data collected from our water and power 
customers, which is integral to a comprehensive representation of our 
asset management responsibilities. Reclamation has initiated an 
activity that will achieve the objectives stated above and is 
consistent with the redline version of S. 1800 provided.
    Question 11. The bill calls for a very detailed analysis of all 
project plans and associated costs of major repairs and rehabilitation 
of BOR facilities. CRS testified that Reclamation operates a Facility 
Maintenance and Rehabilitation Program that identifies, schedules, and 
prioritizes the needs of its reserved works but that the reviews are 
typically not made public. The Bureau, according to CRS, also conducts 
periodic maintenance reviews at transferred works through its 
Associated Facilities Review of Operations and Maintenance Examinations 
program but again, these results are typically not made public. It 
would seem then, that most of the data called for in this bill is 
already available to Reclamation in some form. Do you agree? If not, 
please explain.
    Answer. It is true that a wide variety of information exists 
specific to maintenance needs at Reclamation facilities through review 
activities and other processes; however, the reviews alone do not 
provide detailed project plans with schedules and associated costs. In 
addition, there are various program-specific approaches used for 
determining priorities and funding needs (e.g., dam safety modification 
work, power facility O&M financing, reserved works O&M, transferred 
works O&M, etc.) which are effective, and explainable to affected 
Reclamation water and power customers, but which do not lend themselves 
to being combined into a single document that represents future major 
rehabilitation and replacement (MR&R) needs. The data from these 
sources is extremely variable in its level of refinement, and is 
utilized at widely varying levels of detail. As such, a single document 
that can clearly explain the prioritization of maintenance work on all 
Reclamation assets does not exist and cannot be created accurately with 
the data currently available. In view of this, January 2014, 
Reclamation began a process to streamline its collection, compilation 
and analysis of this data. We expect this process to take the next 18 
to 24 months to complete, and it will require the active engagement of 
our stakeholders who operate two-thirds of Reclamation's water and 
power infrastructure and are essentially responsible for the funding 
and accomplishment of maintenance needs at these facilities.
                               on s. 1946
    Question 12. Some call for better planning when it comes to 
assessing the needs for future repairs of BOR assets (for example, as 
proposed by S. 1800, which is on today's agenda).

          a. First, what is currently being done to assess these needs?
          b. Second, will providing the Bureau with unfettered 
        discretion to allocate as much funds as needed to address 
        future infrastructure repairs lead to funds being expended on 
        non-essential activities or other potential unnecessary 
        expenditures? How would BoR ensure that federal dollars are 
        being spent wisely?

    Answer. (a) Assessment of needs for future dam safety work is 
conducted pursuant to the Safety Evaluations of Existing Dams line item 
in Reclamation's annual budget request. Performance monitoring, on-site 
examinations, field data investigations, and technical studies are 
performed on an ongoing or recurring basis for all 370 Reclamation dams 
covered by the program.
    Answer. (b) Reclamation has established a risk-informed decision 
making process to meet the objectives and stay within the intent of the 
Safety of Dams Act. Risk-informed procedures are used to assess the 
safety of Reclamation structures, to aid in making decisions to protect 
the public from the potential consequences of dam failure, to assist in 
prioritizing the allocation of expenditures, and to support 
justification for risk reduction actions where needed. The Safety of 
Dams Act requires Congressional approval for individual modification 
projects and that will not change if S. 1946 is enacted.
                               on s. 1965
    Question 13. Do you foresee any contractual issues/problems with 
extending the East Bench Irrigation District's water service contract 
with the Bureau by 10 years versus the previous several extensions, all 
of which were for a period of only four years? Do you think there could 
be any potential adverse effects on other users of that specific Clark 
Canyon Dam and Reservoir water supply?
    Answer. No, Reclamation does not foresee any contractual problems 
or potential adverse effects with extending the East Bench Irrigation 
District's water service contract by 10 years. S. 1965 would extend the 
contract for six years beyond Public Law 112-139 for a total of ten 
years (to December 31, 2019) or until the new contract is confirmed and 
still defer to the court to take up the issue again at a time of its 
choosing. The Department believes that a 10-year extension under S. 
1965 will allow adequate time for confirmation of the new contract by 
the Montana Fifth Judicial District Court.
                          on s. 2010/h.r. 1963
    Question 14. As you know, Congress recently enacted Public Law 113-
24, the Bureau of Reclamation Small Conduit Hydropower Development Act, 
to amend the Reclamation Project Act of 1939 to authorize the 
development of small conduit hydropower at Reclamation project 
facilities. However, a handful of Reclamation projects, which were 
originally authorized under the Water Conservation and Utilization Act 
(WCUA), were not included in the hydropower authorization. These 
include four projects in Montana, two in Idaho, two in Utah, and one 
each in Colorado, Idaho, Nebraska and South Dakota. Does the 
Administration support authorizing hydropower development at these 
facilities?
    Answer. Yes, Public Law 113-24 amends the Reclamation Project Act 
of 1939 to authorize all Reclamation conduit facilities for non-federal 
hydroelectric development through a Lease of Power Privilege (LOPP). 
Note that Reclamation conduit facilities were eligible for non-federal 
development prior to the enactment of Public Law 113-24 through either 
the LOPP or FERC licensing process.
    WCUA projects are not subject to Public Law 113-24, because WCUA 
projects were not authorized pursuant to Reclamation law, including the 
Reclamation Project Act of 1939, as amended. WCUA projects are only 
subject to Reclamation law where explicitly identified in the WCUA, and 
the development of non-federal hydropower found in the Reclamation 
Project Act of 1939, as amended, is not explicitly identified in the 
WCUA.
    Current language in the WCUA prohibits non-federal development by 
requiring the United States to retain all revenues derived from the 
development of hydropower facilities at WCUA projects. S.2010/HR 1963 
would allow non-federal entities to construct non-federal hydropower 
facilities at WCUA projects and retain revenues derived from such non-
federal hydropower facilities.
    The Administration supports authorizing Reclamation to enter into 
LOPP contracts for the development of new non-federal hydropower on 
WCUA projects, provided that such non-federal hydropower developments 
do not impair the purposes for which the WCUA projects were initially 
constructed, as specified in the Reclamation Project Act of 1939, as 
amended.
    Question 15. It was brought to my attention that charges paid by 
LOPP lessees as applicable to this bill need to be credited to the U.S. 
Treasury and not to the BOR fund, as stated in the current version of 
this bill. Can you please clarify this point?
    Answer. Initial construction costs for Reclamation projects were 
typically financed by the Reclamation Fund. In accordance with federal 
Reclamation law, LOPP charges paid by non-federal hydropower developers 
are covered into the Reclamation Fund as a credit to the account of the 
Reclamation project from which the power is derived. In contrast, 
initial construction costs for WCUA were typically financed by the 
General Fund of Treasury rather than the Reclamation Fund. If LOPP 
charges derived from non-federal hydropower development at WCUA 
projects are placed into the Reclamation Fund, then Reclamation does 
not have a mechanism to transfer those credits to the appropriate WCUA 
project account in the General Fund of the Treasury. Therefore, if the 
intention of S. 2010 is to credit LOPP charges from WCUA projects to 
the affected WCUA project account in the General Fund of the Treasury, 
additional clarification is necessary in Section 2(g) of S. 2010 
detailing where the charges will be covered and how they will be 
applied to the affected WCUA project account in the General Fund of the 
Treasury.
                               on s. 2019
    Question 16. calls for unrestricted spending on WaterSMART grants 
and related USGS grants. Both programs under current law are authorized 
at a combined level of $215 million. In this climate of necessary 
spending cuts, do you believe we need to authorize unlimited spending 
for these grants through fiscal year 2023?
    Answer. S. 2019 removes the cost ceiling for WaterSMART grants and 
related USGS grants. Under S. 2019, Congress would continue to control 
the annual funding for these programs, as they remain subject to 
Congressional appropriations. The Department is committed to continuing 
the WaterSMART Program, as the Federal Government has a responsibility 
to provide leadership and tools to address the challenges of imbalance 
between supply and demand.
                               on s. 2034
    Question 17. The goal of S. 2034 is to streamline the title 
transfer of Reclamation projects and facilities and reduce costs. I 
understand that S. 2034 is really designed to address the ``easy'' 
title transfers and not the more complicated projects that have a power 
component. Please describe how the authority created by S. 2034 would 
impact projects and facilities with project power. If a district has 
project power, would they be barred under S. 2034 from pursing a title 
transfer? I assume that such projects would still need Congressional 
authorization before such a title transfer could occur.
    Answer. If a district has project power, they would not be barred 
under. S. 2034 from pursing a title transfer. The program created under 
S. 2034 creates a second track for pursuing title transfer from that 
which Reclamation already pursues. If S. 2034 were to become law, the 
track that Reclamation follows will be determined based upon the unique 
characteristics of the facilities and the legal and financial 
arrangements that exist. The inclusion of project power in some cases 
may add a level of complexity to the title transfer process, which may 
not be appropriate for the type of non-controversial title transfers 
envisioned in S. 2034.. Therefore, those transfers would continue 
through the same process as they do today, where Reclamation works with 
parties to develop a unique title transfer agreement and work with 
Congress to authorize that transfer. That is the same process as used 
today and it would continue to be available under this program.
    Question 18. Can you please describe the current process by which 
reclamation projects or facilities are being transferred to non-Federal 
ownership? Also, please discuss the advantages and disadvantages, if 
any, associated with granting the BOR complete authority to execute 
such ownership transfers? Issues of interest include:

          c. Impacts of losing congressional oversight associated with 
        the title transfer process;
          d. Impacts on Federal revenues; and
          e. Implications of increased non-Federal ownership of what 
        previously were regarded as public assets.

    Answer. The current process by which Reclamation facilities are 
transferred to non-federal ownership begins at the field level and 
requires Congressional authorization to complete. Reclamation has a set 
of standard procedures and processes for title transfers that are 
consistent across the organization. That process and the criteria that 
all Reclamation offices follow are articulated in the Framework for the 
Transfer of Title--Bureau of Reclamation Projects, which was originally 
developed in 1995 and was updated in 2004. The document is available to 
districts and any members of the public interested in learning about or 
pursuing a Reclamation title transfer. Since each project is unique--
with their own specific legislative authorities, stakeholders and 
issues--Reclamation has learned that while the steps are all 
consistent, the structure of the title transfer agreement must be 
tailored to meet the unique circumstances and needs of the project or 
facilities in question. In response to the question of losing 
``Congressional oversight'' of the title transfer process, it is 
important to point out that the legislation under consideration by the 
Committee is targeted at non-controversial projects, with requirements 
for criteria and determinations shared with the public, meant to ensure 
that any title transfer approved under the bill be consistent with all 
applicable laws, be in the financial interest of the United States, and 
have no significant opposition, among other requirements. That said, 
Reclamation does not foresee any immediately adverse implications for 
Congressional oversight, public participation, use of projects, or 
federal revenues associated with legislation as currently written.
        Response of Robert Quint to Question From Senator Risch
                               on s. 2034
    Question 19. If a water district has ``project power'' generation 
resources and hopes to pursue title transfer opportunities in the 
future, what clarifying process would an irrigation district follow in 
light of S. 2034, in pursuing a title transfer?
    Answer. If a water district has project power and wishes to pursue 
a title transfer, that transfer would continue through the same process 
it would today if S. 2034 were enacted into law. The program created 
under S. 2034 creates a second track for pursuing title transfer from 
that which Reclamation already pursues. The track that Reclamation 
follows under S. 2034 would be determined based upon the unique 
characteristics of the facilities and the legal and financial 
arrangements that exist. The inclusion of project power may add a level 
of complexity to the title transfer process, which may not be 
appropriate for the type of non-controversial title transfers 
envisioned in S. 2034. Therefore, those transfers would continue 
through the same process as they do today, where we develop a unique 
title transfer agreement and work with Congress to authorize that 
transfer. That is the same process as Reclamation uses today and it 
would continue to be available under this program.
                                 ______
                                 
         Response of John Katz to Question From Senator Schatz
    Question 1. Mr. Katz, can you describe in more detail how the FERC 
MHK licensing process instituted in 2008 has been working? I know that 
an increasing number of preliminary permits have been issued for 
various projects.
    Answer. Since 2008, the Commission has issued a significant number 
of preliminary permits for marine hydrokinetic (MHK) projects. However, 
the number of permits has declined in recent years such that there are 
currently only six permits in effect. As is typical for all preliminary 
permits, a relatively small number have resulted in development 
applications. To date, the Commission has authorized seven MHK 
projects, four of which were pilot projects. My impression is that 
stakeholders, including federal and state resource agencies, Indian 
tribes, and non-governmental organizations, are generally supportive of 
appropriately-sited MHK projects, and have been willing partners in the 
licensing process.
       Responses of John Katz to Questions From Senator Murkowski
    Question 2. In your testimony, you note that FERC already has a MHK 
pilot process that allows for five-year pilot licenses to enable 
developers to study and test new technology. S. 1419 would instead 
provide FERC with the authority to issue 10-year pilot licenses, along 
with a potential 5-year extension. Is a longer time frame envisioned 
under this bill for these projects preferable?
    Answer. Although the Commission staff white paper suggested that a 
five-year license term might be appropriate for pilot projects, the 
Commission has the authority to issue licenses for longer terms. For 
example, the Commission recently issued a 10-year pilot project license 
to the Public Utility District No. 1 of Snohomish County, Washington, 
for a hydrokinetic project to be located in Puget Sound. The Commission 
also issued a 10-year pilot license to Verdant Power LLC for a 
hydrokinetic project located in the East River in New York, and an 8-
year license to ORPC Maine, LLC for a project in Cobscook Bay, Maine.
    Question 3. S. 1419 provides FERC with the authority to act as the 
lead agency to coordinate all applicable federal authorizations and to 
comply with NEPA. The bill also directs FERC to establish schedule 
goals for federal, state, and local agencies. What are your thoughts on 
these provisions? Will this additional authority be helpful to the 
Commission in approving MHK pilot licenses in a timely manner?
    Answer. The coordination of federal authorizations and NEPA 
compliance, as well as the establishment of schedules, are helpful in 
the expeditious processing of hydropower applications. However, to the 
extent that the Commission has no authority to enforce those schedules, 
it is not possible to ensure that they are met.
          Responses of John Katz to Questions From Senator Lee
    Question 4a. My understanding is that the FCC invited FERC to 
participate in an inter-agency working group to ensure that deployment 
of MHK does not, among other things, adversely impact communications 
infrastructure. One specific concern expressed by FCC is that there is 
insufficient guidance to determine the proper separation distance 
between hydrokinetic energy projects and submarine telecommunications 
cables. [April 22, 2013 FCC letter to FERC].
    What is the status of FERC's participation in the inter-agency 
process to develop guidance and industry standards on separation with 
critical telecommunications cables?
    Answer. A senior member of the Commission's staff is participating 
in the FCC's Communications Security, Reliability, and Interoperability 
Council (CSRIC) as well as CSRIC's Working Group 8, which covers 
submarine cable routing and landing.
    Question 4b. Does adequate expert guidance in the inter-agency 
framework exist to determine appropriate separation? If not, how does 
FERC plan to augment its knowledge in this area?
    Answer. CSRIC's Submarine Cable Routing and Landing Working Group 
is currently exploring various issues, including relevant marine 
activities, potential conflicts and risks, existing worldwide spatial 
standards and recommendations, and legal and permitting requirements, 
but has not yet developed recommendations on the separation between 
submarine telecommunications cables and other marine infrastructure or 
activities. Pending such recommendations, which will need to go from 
the Subgroup to the CSRIC and then to the FCC, Commission staff will 
consult with the FCC and other affected stakeholders on a case-by-case 
basis. For example, in the proceeding leading to the recent issuance of 
a license to Public Utility District No. 1 of Snohomish County, 
Washington, for a hydrokinetic project to be located in Puget Sound, 
the FCC stated that it did not oppose the licensing of the project with 
the proposed minimum separation distance between an existing undersea 
cable and the proposed project as long as the Commission is able to 
ensure that Snohomish PUD adheres to the safety and separation distance 
representations it has made. The license issued by the Commission 
included a number of safety measures designed to ensure that the 
project could be constructed and operated without interfering with the 
cable.
    Question 4c. How does FERC's participation in the inter-agency 
process impact pending MHK applications that may raise cable protection 
concerns?
    Answer. Knowledge obtained through the inter-agency process should 
assist Commission staff in processing MHK applications that raise cable 
protection concerns.
                                 ______
                                 
   Responses of Belinda A. Batten to Questions From Senator Murkowski
                          on s. 1419.--general
    Question 1. Your institution has developed an excellent working 
relationship with private companies in the wave energy industry. I 
understand that a company, Resolute Marine, is trying to advance a wave 
project that could dramatically cut the cost of power in Yakutat, 
Alaska. Can you talk about what you have been able to accomplish in 
advancing a marine energy industry and where you think the industry may 
be headed?
    Answer. Our center, the Northwest National Marine Renewable Energy 
Center (NNMREC), has worked to advance the marine energy industry 
through partnerships in research, development and testing. On the R&D 
side, we have teamed with several developers on projects advancing some 
particular aspect of their device. With regard to testing, we have 
assisted developers in our laboratory wave tank facilities at Oregon 
State, and have supported scaled testing in the open waters of Puget 
Sound and Lake Washington near Seattle, Washington in conjunction with 
our NNMREC partner University of Washington. We have developed a non-
grid connected test facility in Newport, Oregon to serve deep water 
devices, and are developing a deep water grid connected facility with 
four berths that will accommodate individual devices, or small arrays 
(3--5) of devices in each berth. Several developers of shallow water 
devices are looking to test at Camp Rilea in Warrenton Oregon, and 
Resolute Marine is one of these companies. This location is owned by 
the Oregon Military Department (OMD). In an effort to provide a ``one-
stop shop'' for developers interested in testing, NNMREC is 
investigating ways that we can partner with OMD to provide consistent 
support to the developers of shallow and mid-water devices that might 
test at Camp Riles, as well as to developers that test with NNMREC at 
the deep water facility.
    I expect that once developers have tested their devices in an open 
water site so that they are confident about their operational systems, 
maintenance schedules, and environmental effects, they are likely to 
turn to the states of Alaska, Hawaii, and islands such as Guam to 
develop early stage ``community scale'' energy production facilities. 
The cost of energy differential that these devices might provide in 
communities that are currently dependent on expensive diesel will 
likely provide the impetus that this burgeoning industry needs to prove 
and advance their technologies and lead toward commercialization of the 
MHK industry. Once marine energy has been demonstrated its benefit in 
community scale deployments and developers can further reduce the cost 
of energy through engineering advances, I expect we will see commercial 
deployments on the west coast where wave energy can contribute to 
stable baseline energy loads.
                      on s. 1419.--testing centers
    Question 2. Your testimony notes the achievements of the Oregon 
State MHK test facilities. What level of funding must you have to keep 
your center afloat in the near and long term? Why do you believe the 
university deserves tax payer support? And if we fail to allow the OSU 
marine testing facility to stay afloat, what will happen to the 
fledging marine hydrokinetic industry in your opinion?
    Answer. Access to abundant and affordable energy is a key 
foundation of our nation's economic success. All forms of energy, 
renewable or conventional, mature or emerging, continue to receive some 
form of support from the federal government.
    While MHK devices are still in the developmental stage, DOE's 
vision is that fifteen percent of U.S. electricity demand will be met 
by 2030 with water power technologies. For that to happen, it will 
require additional resources to be provided to the DOE Water Power 
program, which supports leading-edge research, development, 
demonstration and deployment efforts for innovative MHK, hydropower and 
pumped storage technologies. The program invests in high-risk, early-
stage technologies that, due to market considerations, the private 
sector is unable to address on its own. Increased federal support will 
hasten deployment of advanced water power technologies and also give 
confidence to investors and help attract private capital. This is 
particularly true when considering that funding from the DOE Water 
Power program is the one key mechanism to support U.S. technology 
developers competing against overseas companies that receive a suite of 
subsidies. The reality is that most MHK companies are not yet in a 
position to receive the tax benefits enjoyed by more mature 
conventional and renewable energy technologies.
    With regard to NNMREC, there are two components of funding 
necessary to keeping our center afloat: research funding and testing 
funding. In the short term, both types of funding will need to be 
provided by the federal government, as the industry is not to the point 
where private investors can expect a return on their investment. The 
industry is still in its infancy. Currently, NNMREC's central research 
funding needs are approximately $1 million per year, and testing 
facilities operational and administrative costs are about $300k per 
year. In the longer term, as testing becomes fully operational, the 
latter costs will become absorbed into user fees--and will likely 
increase due to additional services and staffing that will be required. 
I anticipate that some level of research funding will be required from 
federal sources for several years to come. This expectation is based in 
part on information from the European Marine Energy Center (EMEC) in 
Scotland. EMEC is the premier wave and tidal testing facility in the 
world, and has just founded a research arm. As I understand it, this 
research arm is funded in part through testing fees, although the 
primary sources are public research funds.
    The university deserves tax payer support because we are serving to 
advance the industry for the public good. In addition to providing an 
energy technology that can be significantly cheaper for communities 
dependent on expensive diesel, as I discussed above, the taxpayers can 
expect to reap significant economic development from this industry. 
EMEC reports that more than $16 million (US) is brought to the economy 
of Orkney, Scotland each year through its test facility. The jobs 
created are numbered at more than 220. As the industry grows, new 
supply chain industries will grow in the communities that have marine 
energy installations. The return on investment to the taxpayer should 
well compensate for the initial investment in the industry.
    Unfortunately, the United States is falling behind in the race to 
capture the rich energy potential of our oceans. Many countries, 
especially those in Europe, have already deployed viable, operating, 
power generating technologies using the emission-free power of ocean 
waves, currents, and tidal forces. Early funding support, along with 
development of full-scale device testing centers (still unavailable 
here in the United States), demonstrates that the significant 
technological advances and competitive advantages in this industry are 
taking place in Europe and elsewhere. The U.S. is far behind in 
acknowledging the importance of these technologies.
    Finally, if we fail to construct NNMREC's grid connected test 
facility, we can expect the U.S. based companies attempting to 
commercialize their devices to continue to struggle, much as we saw 
happen in wind energy 30 years ago. The European countries that have 
been investing in the industry will reap the benefits, and we will see 
marine energy developers that are analogs of the companies such as 
Vestas selling their devices to the US when we eventually decide to 
adopt marine energy. The economic benefit I discussed above will not be 
reaped. The economic development that this industry could provide to 
the US through the fledging companies such as Resolute Marine, ORPC, 
Verdant Power, and Columbia Power Technologies, will be lost.
                          on s. 1419.--future
    Question 3. Some believe that MHK is just too far from being proven 
technology to really help generate renewable energy for the country. 
According to DOE, its goal is to reduce the costs of MHK developments 
by 2030. Where do you feel the technology is and when might it be ready 
for commercial deployment? Can that happen realistically before 2030? 
As someone who has been working with the industry for years now, what 
in your view should Congress be doing to speed up that marine 
hydrokinetic energy development timetable?
    Answer. Marine renewable energy has the potential to become a major 
source of electricity for the United States, and its growth could be 
substantially supported through increased and focused funding for the 
DOE Water Power Program. Federal commitment to creating a robust U.S. 
marine renewables industry will advance our national economic goals by 
creating high-quality employment in coastal communities, long-term 
production in shipyards, development of fleets of vessels for 
deployment and servicing, and strengthening the thousands of businesses 
that make up the U.S. industrial supply chain. The establishment and 
nurturing of a U.S.-based marine renewable industry would secure our 
nation's place in developing offshore renewable energy systems, thereby 
ensuring that the United States is an exporter, not an importer, of 
these technologies.
    Just as the wind and solar industries have enjoyed significant DOE 
funding for over three decades (which has resulted in the maturation, 
cost competitiveness and rapid deployment of these technologies in 
recent years), the nascent MHK energy industry is requesting similar 
federal assistance to develop promising technologies that are on the 
verge of commercial viability. Expanded efforts by DOE to capture our 
nation's rich domestic water power resources through advanced MHK and 
hydropower technologies will give confidence to investors and help 
attract private capital in a broad range of job-creating industries, 
including in the heavy industrial and maritime sectors, and has the 
potential to employ a substantial skilled workforce.
    The answer to this question depends upon what one means by 
commercial development. With the right support, we could see 
``commercial development'' in towns in Alaska within five years. There 
are devices that have tested in Europe that are could be deployed 
within that timeframe. If we get US devices in the water to test, they 
may be advanced enough to join their European counterparts, or to 
follow quickly on their heels.
    Reauthorization of DOE's Water Power program through S. 1419 is 
essential to speeding up the MHK deployment timetable. S. 1419 provides 
continued technology funding that this industry needs at this stage of 
its development. In addition, the regulatory changes proposed in S. 
1419 by you and Senator Wyden will provide an avenue for promising new 
MHK companies and their technologies to advance through the necessary 
testing stages more quickly. This industry requires targeted 
investments and permitting efficiencies like those that are included in 
S. 1419. Assuming that Congress can come together to pass S. 1419, and 
timely funding is provided to complete NNMREC's grid connected test 
facility and sufficient funding is provided to developers to test their 
devices in the open water environment, then the 2030 time frame for 
commercial development is a conservative estimate.
                                 ______
                                 
                                      Clean Water Services,
                                     Hillsboro, OR, March 26, 2014.
Hon. Brian Schatz,
Chair, Subcommittee on Water and Power, U.S. Senate, 304 Dirksen 
        Building, Washington, DC.
    Dear Mr. Chairman:

    Thank you for this opportunity to respond to a question posed by 
Senator Lisa Murkowski regarding S. 1946. I appreciate the Senator's 
question about assessing the repair needs of Bureau of Reclamation 
facilities and the concern that eliminating the authorized ceiling for 
the Safety of Dams program could result in non-essential or potentially 
unnecessary expenditures. More specifically, the Senator's question was 
as follows:

    Question 1. Some call for better planning when it comes to 
assessing the needs for future repairs of BOR assets (for example, as 
proposed by S. 1800, which is on today's agenda).

  <bullet> First, what is currently being done to assess these needs?
  <bullet> Second, will providing the Bureau with unfettered discretion 
        to allocate as much funds as needed to address future 
        infrastructure repairs lead to funds being expended on non-
        essential activities or other potential unnecessary 
        expenditures? How would BoR ensure that federal dollars are 
        being spent wisely?

    Answer. Clean Water Services and Washington County, Oregon share 
the concern that federal and local resources be expended wisely on 
Reclamation facility improvements. The Scoggins Dam project has been 
through a lengthy analysis and rigorous review process. S. 1946 does 
not propose to alter that process, but rather would eliminate potential 
delays in dam safety improvements awaiting Congressional action to 
periodically increase the arbitrary cost ceiling limit for the Safety 
of Dams program. The study, review and priority categorization process 
would remain unchanged. In fact the improved planning process called 
for in S. 1800 would require that all Reclamation facilities be rated 
consistent with the Safety of Dams' uniform categorization system.
    Unnecessary expenditures would continue to be avoided because of 
the rigor required in the Safety of Dam process, including 
Congressional and Office of Management and Budget review of all safety 
of dam modification reports and Congress's continued fiduciary 
authority over the appropriations process. Repayment contractors also 
have a vested interest in ensuring that only essential activities are 
funded because the contractors have a cost-sharing obligation under the 
existing program. In 2004, Congress directed Reclamation (P.L. 108-439) 
to improve the notification and engagement of project beneficiaries 
during a safety modification, including providing repayment contractors 
the opportunity to consult with the Bureau on the planning, design and 
construction of the proposed modifications. Furthermore P.L. 108-439 
directed the Secretary to consider cost containment measures 
recommended by the project beneficiaries that have elected to consult 
with Reclamation on a modification. We recommend retaining the existing 
structure and encouraging the Bureau of Reclamation to exercise the 
greatest degree of flexibility in evaluating and mitigating dam safety 
concerns.
    Thank you again for conducting the hearing last month on S. 1946. I 
would be happy to answer any additional questions, and I look forward 
to working with you as the legislation progresses through the 
legislative process.
            Sincerely,
                                                Andy Duyck,
Chairman Clean Water Services Board of Directors/Washington County 
                                                     Commissioners.
                                 ______
                                 
   Responses of Charles V. Stern to Questions From Senator Murkowski
    Question 1. Can you please describe what exactly is being done 
currently to assess and estimate future needed repairs to BOR's assets? 
What are the associated costs? How would the proposed new assessment 
address missing information?
    Answer. The Bureau of Reclamation (or Reclamation) operates 
multiple programs that analyze and assess future repair needs at 
Reclamation facilities. As discussed in my written testimony, 
Reclamation has previously stated that the focus of these programs 
differs depending on the type of infrastructure. For infrastructure 
that has been transferred to local project sponsors (typically referred 
to as ``transferred works''), Reclamation conducts periodic maintenance 
reviews but typically does not conduct in-depth reviews of expected 
future maintenance needs, since maintenance for this infrastructure is 
the responsibility of the local project sponsors. For projects that are 
owned and operated by Reclamation (referred to as ``reserved works''), 
Reclamation identifies and schedules future maintenance needs and has 
in the past expressed more confidence in its estimates of expected 
future needs at these facilities. Previously, Reclamation has provided 
an overall estimate of repair needs at reserved and transferred works, 
but has also stated that these totals are not actionable in a 
management context. These total estimated repair needs were most 
recently estimated by Reclamation to be $2.6 billion over the next five 
years.
    Since the data on which Reclamation bases its estimates are not 
publicly available, it is difficult to comment on the rigor and 
accuracy of these estimates, including the consistency of the 
underlying data collected by Reclamation across infrastructure types. 
The proposed new assessment in S. 1800 would require that Reclamation 
conduct an assessment of its maintenance needs across all facility 
types and make this information available to the public. Depending on 
the status and quality of the data currently used internally by 
Reclamation, S. 1800 may or may not result in significant new data on 
Reclamation facilities being collected. Regardless of the status and 
quality of Reclamation's current internal data, the requirement that 
estimates be made publicly available would be a new development.
    Question 2. The bill calls for a very detailed analysis of all 
project plans and associated costs of major repairs and rehabilitation 
of BOR facilities. CRS testified that Reclamation operates a Facility 
Maintenance and Rehabilitation Program that identifies, schedules, and 
prioritizes the needs of its reserved works but that the reviews are 
typically not made public. The Bureau, according to CRS, also conducts 
periodic maintenance reviews at transferred works through its 
Associated Facilities Review of Operations and Maintenance Examinations 
program but again, these results are typically not made public. It 
would seem then, that most of the data called for in this bill is 
already available to Reclamation in some form. Do you agree? If not, 
please explain.
    Answer. At least some of the information required by S. 1800 
appears already to be collected internally by Reclamation. However, as 
stated in my answer to question 1, it is difficult to comment further 
since this data is not available for CRS review. While it appears that 
Reclamation tracks information through its facilities review programs 
for reserved and transferred works, respectively, this information may 
or may not satisfy the requirements of S. 1800. For instance, the 
legislation requires that Reclamation include an itemized list of 
repair estimates for every project. It is not possible to say whether 
such a list is available for current Reclamation estimates and if it 
is, whether this information is methodologically consistent.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

  Statement of Dan Keppen, Executive Director, Family Farm Alliance, 
                           Klamath Falls, OR
    Thank you for holding this hearing today, where you will consider 
several bills that will give federal agencies additional tools to deal 
with water shortages due to drought, such as the one currently 
impacting California and other Western states. On behalf of the Family 
Farm Alliance (Alliance), I am pleased to present this testimony that 
addresses five of the bills you will consider at today's hearing. Our 
organization advocates for family farmers, ranchers, irrigation 
districts, and allied industries in seventeen Western states. The 
Alliance is focused on one mission--To ensure the availability of 
reliable, affordable irrigation water supplies to Western farmers and 
ranchers. Our members include irrigation districts and water agencies 
that are responsible for the operation and maintenance of some of the 
Bureau of Reclamation's largest and most complex facilities. Several of 
our members have worked with the federal government over the past two 
decades to address issues that are the subject of all five bills 
considered today.
    The Alliance fully supports S. 1946, a bill to amend the 
Reclamation Safety of Dams Act of 1978 to modify the authorization of 
appropriations; S. 2019, SECURE Water Amendments Act of 2014; and S. 
1963, the Bureau of Reclamation Conduit Hydropower Development Equity 
and Jobs Act. We support the intent of S. 1800, the Bureau of 
Reclamation Transparency Act; and S. 2034, The Reclamation Title 
Transfer Act of 2014 but have concerns that we believe need to be 
addressed before we can fully support these bills. These matters are 
further discussed below.
                s. 1946--reclamation safety of dams act
    S. 1946 would amend the Reclamation Safety of Dams Act of 1978 by 
removing spending caps for construction projects to improve the safety 
of Bureau of Reclamation dams. Safety of Dams (SOD) legislation has 
consistently been a top legislative priority for the Family Farm 
Alliance in the past two decades, and the Alliance ten years ago 
successfully advocated for the inclusion of important ``place at the 
table'' language in SOD legislation that saves the government and 
project beneficiaries significant dollars by opening the process and 
allowing irrigators to participate in SOD planning, design, and 
construction decision making processes. Safety of Dams corrections are 
an essential public safety issue. The Family Farm Alliance supports S. 
1946 and we urge the Senate to pass this bill.
              s. 2019, secure water amendments act of 2014
    S. 2019 would reauthorize and refine the 2009 Secure Water Act to 
raise the budget ceiling on Bureau of Reclamation WaterSMART Program 
water efficiency grants and add the State of Hawaii to the list of 
grant eligible recipients.
    Congress in 2009 approved the SECURE Water Act (signed into law by 
President Obama in March 2009 as P.L. 111-11, Title IX, Subtitle F) 
creating federal inter-agency programs to assess the effects of climate 
change on water supplies, develop strategies and technologies to 
address potential water shortages and increase the collection of data 
on current and future water supply availability. The Family Farm 
Alliance strongly supported the SECURE Water Act in part because it 
provides water managers with highly beneficial ``on-the-ground'' 
solutions to infrastructure problems exacerbated by climate change. 
SECURE authorized the Secretary of the Interior to provide cost-shared 
grants for planning, designing, or constructing improvements to water 
infrastructure that conserve water, provide management improvements, 
and promote increased efficiencies. This expands opportunities for the 
types of projects currently funded through the Bureau of Reclamation's 
WaterSMART Grant Program, from which many Family Farm Alliance members 
have benefited. These projects provide for improved water management, 
enhanced supplies, water conservation, and greater efficiencies, 
thereby stretching dwindling water supplies, all in partnership with 
the Bureau of Reclamation.
    The Alliance supports S. 2019 because it raises the budget ceiling 
on a program that is over-subscribed. We urge a ``yes'' vote on this 
legislation.
 s. 1963, bureau of reclamation conduit hydropower development equity 
                              and jobs act
    S. 1963--already passed by the House of Representatives in December 
2013--would allow for certain irrigation districts and other nonfederal 
hydropower developers to use a streamlined permitting process to build 
small hydropower projects on 11 specific Reclamation canals, conduits 
and ditches.
    S. 1963 is similar to another hydropower bill (H.R. 678) that 
overwhelmingly passed the House and Senate and was signed into law by 
President Obama in August 2013. S. 1963 seeks to jumpstart conduit 
(canals, pipes and ditches) hydropower development at eleven Bureau of 
Reclamation projects. The bill specifically removes statutory 
impediments by authorizing non-federal hydropower development at these 
conduits and providing the administrative and regulatory reforms 
necessary to foster such development.
    Many Family Farm Alliance members operate existing irrigation 
canals and ditch systems that may provide opportunities to develop in-
canal, low-head hydroelectric projects that have tremendous potential 
for producing significant amounts of renewable energy with virtually no 
negative environmental impacts. There are many other benefits 
associated with developing projects of this type. Historic irrigation 
structures can be retained while the system is updated with modern 
clean-energy producing technologies. Increased revenues from the sale 
of this renewable energy can result in a new source of funding for 
operating, maintaining, and rehabilitating our aging water delivery 
infrastructure at lower costs to farmers.
    If passed, S. 1963 would complete the policy of promoting the 
development of clean, renewable hydropower at all Reclamation conduits 
at no cost to federal taxpayers, while providing additional renewable 
power supplies to the grid and lowering energy costs for consumers. 
H.R. 678 applied to hundreds of Reclamation facilities that are covered 
under the authorities of the Reclamation Project Act of 1939. S. 1963 
applies to the remaining Reclamation facilities, all of which are 
governed under the different and more complex authorities of the Water 
Conservation and Utilization Act (WCUA) of 1939.
    The Family Farm Alliance supports S. 1963, which we believe will 
reduce costs to foster more conduit hydropower at federal facilities 
and empower local water districts to develop this generation.
          s. 2034, the reclamation title transfer act of 2014
    S. 2034 seeks to authorize the Secretary of the Interior to 
establish a program to facilitate the transfer to non-federal ownership 
of appropriate Reclamation projects or facilities by providing title 
transfer authority to the Secretary. The Family Farm Alliance believes 
title transfers are a positive means of strengthening the reliability 
of critical water resources at the local level. In addition, they help 
reduce federal costs and liability, and allow for a better allocation 
of limited federal resources. Thus, we support the concept advanced in 
S. 2034, although we have specific concerns that we would like to see 
addressed before we can fully support the bill.
    Over the past 15 years, the Alliance has worked closely with the 
Bureau of Reclamation on both individual title transfers and on title 
transfer policy. Since 1996, more than two dozen Reclamation projects 
have been transferred or authorized to be transferred to local 
entities. Those local agencies are usually the irrigation or water 
district that has fulfilled its obligation to pay for construction of 
the project. We have found that other irrigation districts are 
interested in acquiring title to Reclamation facilities. Experience 
throughout the West demonstrates that when title and control of 
projects is assumed by local interests, the projects are run more cost 
effectively and are better maintained due to the availability of 
additional secured financing. In addition, some local districts want to 
acquire title to their own water distribution works, to which the 
federal government holds title because federal funds--long since 
repaid--were used to help build them.
    Despite the benefits, local water agencies are typically 
discouraged from pursuing title transfers because the process is 
expensive and slow. Environmental impact analyses can be time-
consuming, even for uncomplicated projects that will continue to be 
operated in the same manner as they always have been. Moreover, every 
title transfer requires an act of Congress to accomplish, regardless of 
whether the project covers 10 acres or 100,000 acres.
    S. 2034 seeks to facilitate the transfer of fairly uncomplicated 
facilities to promote more efficient management of water and water-
related facilities. We believe the bill can be further strengthened by 
addressing the following concerns:

          1. Section 4, ``Compliance with Environmental and Historic 
        Preservation Laws'' includes provisions that likely are 
        responsible for most of the difficulties our members have 
        endured when trying to transfer title. Compliance with the 
        National Historic Preservation Act (NHPA) can be extremely time 
        consuming and challenging, but there is likely not much that 
        can be done about that in this legislation. However, National 
        Environmental Policy Act (NEPA) compliance could be streamlined 
        through this bill by including a section encouraging 
        Reclamation to use all tools necessary to facilitate existing 
        NEPA processes, including but not limited to the use of 
        categorical exclusions, if appropriate.
          2. Section 7, ``Benefits'' would preclude transferred 
        projects from being able to continue to receive project power 
        benefits. Some projects have been transferred with the express 
        provision that allows for project power benefits to be retained 
        at pre-title transfer rates. If not allowed in some 
        circumstances, the cost of project operations would not be 
        economical and lead to the potential failure of the project. We 
        believe the legislation should give more flexibility to the 
        Secretary to allow these federal benefits to be analyzed and to 
        continue if they are in the best interest of the U.S. in moving 
        the transfer forward (e.g. compare the benefit to the U.S. of 
        reduced liability through title transfer vs. the cost of some 
        future level continued project power benefits).

    We are committed to working with Subcommittee staff, Reclamation, 
and other water users to see how we can work out some sort of solution 
to these concerns as the bill moves through the Senate.
          s. 1800, the bureau of reclamation transparency act
    Repairing and modernizing the West's aging infrastructure is a 
challenge critical to the Bureau of Reclamation and the water users 
served by Reclamation's aging facilities. Family Farm Alliance 
leadership worked extensively with Reclamation and the Congress over 
the past decade in seeking to find solutions with the Office of 
Management and Budget to discuss approaches to help finance aging 
federal infrastructure, including providing loan guarantee incentives 
and, perhaps, setting up a construction loan account associated with 
the Reclamation Fund.
    S. 1800 would require Reclamation to publicly report on its repair 
needs every other year. The Alliance certainly supports the 
transparency and reporting requirements intended with this legislation.
    However, we do believe that this bill would have unintended 
consequences for our member Reclamation project water users. We have 
shared this bill with our members, some of whom believe that 
transferred works should not be subjected to the reporting requirements 
of this bill, as the local non-federal entities are 100% responsible 
for maintaining and replacing these facilities at their expense. Also, 
the bill would require completion of a report that would describe the 
efforts of Reclamation to manage all its facilities, standardize and 
streamline data reporting and processes across regions, and expand on 
the information otherwise provided in Asset Management Reports. 
Fortunately, the costs of preparing the report would be considered non-
reimbursable project costs. Unfortunately, this provision would cause 
significant increased liability for nonfederal water contractors and 
could place Reclamation in a position of having to limit or cease water 
delivery operations of a federally owned facility if such ratings were 
applied and the maintenance/rehabilitation activity was delayed or not 
implemented at all due to lack of resources.
    As the Committee is probably aware, a large portion of the costs of 
maintaining, replacing, and rehabilitating these federal water 
facilities (reserved works) falls on the non-federal project water and 
power contractors, and as such, publicly portraying these facilities as 
somehow not current on maintenance or replacement could actually 
accelerate the work on these projects to a point that may not be 
currently affordable to the non-federal entities on the hook for 
paying, in advance, these costs. The lack of any federal financing 
tools is a key contributor to this inability to afford such projects on 
an accelerated basis. We believe that a better approach would be for 
Congress to require that Reclamation work collaboratively and 
transparently with their project water and power contractors to 
establish planned maintenance, replacement and rehabilitation work over 
a ten or fifteen year framework that could be reported to Congress on a 
regular basis. This way, project water and power contractors can plan 
for long-term financing for their share of the costs of the work to be 
performed in a much more business-like and organized manner.
    The Family Farm Alliance and other Western water interests stand 
poised to work with the authors of S. 1800 to help create a 
Transparency Act our family farmers and ranchers will embrace.
    Thank you for this opportunity to provide input on these matters, 
which are very important to our membership. If you have any questions 
about this letter, I encourage you or your staff to contact me at 
(541)-892-6244.
                                 ______
                                 
                                                 February 25, 2014.
Hon. Mike Schatz,
Chairman, Senate Energy and Natural Resources Water and Power 
        Subcommittee, 304 Dirksen Senate Building, Washington, DC,
Hon. Mike Lee,
Ranking Member, Senate Energy and Natural Resources Water and Power 
        Subcommittee, 304 Dirksen Senate Building Washington, DC.
    Dear Chairman Schatz and Ranking Member Lee:

    We are writing in support of S. 1 771, the ''Crooked River 
Collaborative Water Security Act,'' and to encourage the Committee to 
quickly approve this legislation.
    For nearly five years, we have collaborated with local, state and 
federal agencies, the Confederated Tribes of Warm Springs, local and 
national environmental groups, and others in support of legislation to 
enhance economic and environmental valu es associated with Oregon 's 
Crooked River. This legislation reflects our diligent efforts. Once 
enacted, this comprehensive bill would remove several federal barriers 
preventing our community from realizing the full potential of the 
Bureau of Reclamation's Bowman Dam and Prineville Reservoir. Key 
provisions would provide water supply certainty for local farmers and 
ranchers, the City of Prineville, and the environment. The construction 
of a new, small hydropower facility below Bowman Dam would also become 
possible. Our community supports the development of such a facility, 
and in fact is willing to independently advance the project.
    All of these prov sions are carefully balanced with one another. 
For example, it is essential to guarantee the water supply for local 
farm and ranch families who are such an important part of our 
community's heritage. More importantly, these families provide jobs, 
support numerous businesses in this region, and are a dynamic and 
reliable contributor to Oregon's economy. Additionally, the release of 
water for the City, which will enable the City to secure groundwater 
mitigation credits from the State of Oregon for additional groundwater 
pumping, will bolster Prineville's supplies for its residents and for 
businesses like Apple and Facebook. Important language regarding 
``carryover water'' and other provisions are part of the foundation for 
the new authorization for the Secretary to release ``uncontracted'' 
water for downstream fisheries purposes. The State, Tribes, and 
conservation interests have assured us that the release of some of 
these uncontracted water supplies, as well as the new water supplies 
for the McKay Creek lands, will significantly enhance instream habitat 
for steelhead and other fisheries. These provisions represent a prudent 
and thorough balancing of needs and interests among local, state and 
federal interests, and many stakeholders.
    The Crooked River Collaborative Water Security Act (S. 1771) would 
establish a new set of operational criteria for the project, and we've 
been asked repeatedly about one of them. The authorization for the 
Secretary to release uncontracted water supplies to benefit downstream 
fisheries has raised questions, by the general public and others, of 
whether shortages may occur more frequently, in greater severity, or 
for longer durations than may occur today--resulting in harm to 
agricultural water supplies or recreation.
    We believe this is a possibility, but one that can be responsibly 
managed. It's helpful to begin with a brief explanation ofthe project's 
well-documented history and operations. The Bureau of Reclamation 
annually stores up to 148,000 acre-feet of water in the reservoir. 
Sixteen different parties, including local irrigation districts and 
small family farm and ranch families, hold contracts with Reclamation 
for 68,000 acre-feet of water. Occasionally, North Unit Irrigation 
District purchases water from the project under a supplemental 
contract. The rest of the stored water is used for recreation, and is 
then either released into the Crooked River or maintained in the 
reservoir for the following water year. The uncontracted supplies have 
historically served as a buffer against drought and provided valuable 
recreational opportunities. Today, the project has ample water supplies 
for agriculture, recreation, and even releases of water that benefit 
fish and wildlife.
    Since 1974, for example, the Bureau of Reclamation has aimed to 
maintain at least 95,000 acre-feet of water in the reservoir through 
Labor Day to ensure a full supply of water for agriculture, and to 
ensure a safe and enjoyable recreation experience during this popular 
weekend. Reclamation has been able to do so nearly 75 percent of the 
time during this period. This is helpful because once the reservoir 
drops below this amount, two of the five boat ramps are unusable. It is 
important to note that this period covers the driest conditions on 
record for this region (1988-1992).
    Our support for the legislation, including the new management of 
the uncontracted water supplies, is based on our understanding that the 
legislation responsibly addresses the issue of potential shortages. 
Several provisions, including Section 6-First Fill Storage and Release, 
include key protections for agricultural water supplies, the City of 
Prineville, and fisheries releases associated with the McKay Creek 
Water Rights Switch. Additionally, Section 6-Dry Year Management 
Planning and Voluntary Releases establishes a planning process for 
Reclamation to work with diverse interests, including recreation, on a 
long-term plan to address future dry cond itions. Finally, we 
understand the intent of the legislation is to ensure that the 
project's operations, based on a multi-year management plan, would not 
be compromised but enhanced to achieve the project's full potential.
    As set forth in an August 2012 letter from Oregon Governor John 
Kitzhaber addressing this issue, we understand the State of Oregon and 
Confederated Tribes of Warm Springs, in their new advisory capacities, 
are committed to responsibly balancing their recommendations to 
Reclamation regarding the release of ``uncontracted'' water to ensure 
that recreation values are not compromised in the long-term. We also 
plan to collaborate with the State and the Tribes to mitigate any 
potential long-term impacts to the reservoir, whether they are to 
recreat ion, cultural resources, or other values. The extension of 
existing boat ramps is one suggestion that clearly merits further 
discussion with all of our partners in support of the legislation. Our 
commitment is to ensure a safe and enjoyable recreation experience for 
all of the families who use this popular reservoir for boating, 
fishing, swimming, and other activities.
    We appreciate the Subcommittee's review of the Crooked River 
Collaborative Water Security Act and encourage the full Committee to 
mark-up this legislation as soon as possible. Please feel free to 
contact any of us regarding this legislation or our perspective on its 
individual elements.
            Sincerely,
                                               Betty Roppe,
                                               Mayor of Prineville,
                                              Brian Barney,
                                                     Chairman, OID,
                                           Martin Richards,
                                                    Chairman, NUID,
                                               Mike McCabe,
                                               Judge, Crook County.
                                 ______
                                 
 Statement of David Moryc, Senior Director, River Protection American 
                                 Rivers
    On behalf of American Rivers and our 200,000 members, supporters 
and volunteers we write to express our support for S. 1771, the Crooked 
River Collaborative Water Security Act of 2103. By bringing irrigators 
and conservationists together this bill represents a uniquely 
collaborative solution to the age-old challenge of water use in the 
Wild and Scenic Crooked River watershed. With the support of the City 
of Prineville, irrigation districts, the Confederated Tribe of the Warm 
Springs, and conservation groups this bill represents a balanced 
approach, providing certainty for water users while keeping more water 
in the Wild and Scenic Crooked River to improve recreation and habitat 
for trout.
    Among other benefits for fisheries habitat, the bill:

  <bullet> Gives clear authority and direction to store and release 
        water for fish and wildlife purposes that will protect and 
        enhance the Wild and Scenic Crooked River downstream of Bowman 
        Dam.
  <bullet> Gives state and tribal officials more authority and 
        flexibility to manage releases and target them for the benefit 
        of downstream fish and wildlife resources.
  <bullet> Provides greater certainty for the management of the Crooked 
        River for the City of Prineville, irrigation districts, the 
        Confederated Tribes of the Warm Springs and fish and wildlife 
        management agencies.
  <bullet> Supports year-round flows in the Crooked River by 
        authorizing release of mitigation water for the City of 
        Prineville, regardless of whether it is needed by the City for 
        mitigation purposes, thereby ensuring an additional 5,100 acre 
        feet of flows annually through the Crooked River.
  <bullet> Provides a path forward to reduce or eliminate water 
        diversions from McKay Creek, a tributary of the Crooked that 
        provides critical habitat for steelhead below the dam. By 
        reducing or eliminating surface diversions from this key 
        tributary, this bill helps to ensure that McKay Creek will be 
        ready once again to support steelhead and native trout.
  <bullet> Creates new opportunities for voluntary measures to improve 
        fish flows and habitat by providing opportunities for instream 
        leasing, water conservation and other voluntary water sharing 
        agreements.
  <bullet> Supports opportunity for future development of responsible 
        hydropower at Bowman Dam.
  <bullet> Establishes a clear path forward for development of 
        collaborative solutions to improve river conditions in dry 
        years.

    The Crooked River Collaborative Water Security Act of 2103 is a 
balanced approach to water management and represents a hard fought 
agreement among diverse stakeholders. We deeply appreciate the effort 
that you and your staff have dedicated to this important issue and look 
forward to working with you and Rep. Greg Walden as this bill moves 
through the legislative process.
                                 ______
                                 
                                           Trout Unlimited,
                                    Seattle, WA, February 27, 2014.
Hon. Jeff Merkley,
Senator, 313 Hart Senate Office Building, Washington, DC,
Hon. Ron Wyden,
Senator, 221 Dirksen Senate Office Building, Washington, DC.
Re: S. 1771--The Crooked River Collaborative Water Security Act of 2013

    Dear Senator Merkley and Senator Wyden:

    Trout Unlimited supports S. 1771--a bill designed to improve water 
management at Bowman Dam and provide more dependable flows for fish and 
wildlife habitat in the Crooked River basin. This bill encourages 
pragmatic, creative solutions and partnerships to restore Crooked River 
fisheries, including steelhead. The bill improves water supply 
certainty for the City of Prineville and local irrigators, and sets the 
stage for hydropower development at Bowman Dam, while at the same time 
creating new opportunities for improved flows for fish and wildlife in 
the Crooked River downstream.
    Among other benefits, the bill:

  <bullet> Gives clear authority and direction to store and release 
        water for downstream fish and wildlife purposes.
  <bullet> Gives state and tribal officials more authority and 
        flexibility to manage releases and target them for the benefit 
        of downstream fish and wildlife resources.
  <bullet> Supports year-round flows in the Crooked River by allocating 
        5,100 acre feet of mitigation water to the City of Prineville 
        and providing for annual release of that water through the 
        Crooked River.
  <bullet> Provides a path forward to restore stream flow to McKay 
        Creek--a critical tributary for populations of wild steelhead 
        below Bowman Dam by shifting water use away from surface 
        diversions and toward stored supplies at Prineville Reservoir. 
        By reducing or eliminating surface diversions from this key 
        tributary and providing for out of stream water needs through 
        allocation of stored amounts, this bill helps to ensure that 
        McKay Creek will be ready once again to support returning 
        populations of steelhead and trout.
  <bullet> Creates new opportunities for voluntary measures to improve 
        fish flows and habitat by promoting opportunities for instream 
        leasing, water conservation and other voluntary water sharing 
        agreements.
  <bullet> Supports opportunity for future development of hydropower at 
        Bowman Dam.
  <bullet> Establishes a clear path forward for development of 
        collaborative solutions to improve river conditions in dry 
        years.

    The western states have a long history of water shortage and over-
allocations. In a situation that is nearly unheard of in the West, 
Prineville Reservoir behind Bowman Dam holds nearly 80,000 acre-feet of 
unallocated water. This situation presents a unique opportunity to 
improve conditions downstream fisheries while continuing to meet 
existing irrigation demand and support economic development 
opportunities for the City of Prineville.
    Since the completion of Bowman Dam in the 1960s, there have been 
multiple attempts to reach agreement on expanded water management at 
Prineville Reservoir--S. 1771 represents the carefully balanced 
solution that will break this decades old log-jam. Working together, 
local stakeholders are making huge strides to restore salmon and 
steelhead to the Crooked River basin. These native fish have 
inestimable value for anglers, local communities, and our recreation 
economy and quality of life. Moving this legislation forward is a key 
element in a broader picture of partnership and restoration efforts 
underway on the Crooked River and in the larger Deschutes Basin.
    Trout Unlimited strongly supports S. 1771 and we thank Sens. 
Merkley, Wyden and Rep. Walden for their leadership in promoting 
collaborative solutions for the Crooked River.
            Sincerely,
                                               Kate Miller,
                                  Western Energy and Water Counsel,
                                               Steve Moyer,
                             Vice President for Government Affairs.
                                 ______
                                 
    Statement of Jason Jordan, Director of Policy & Communications, 
                     American Planning Association
    The American Planning Association would like to thank you for your 
thoughtful leadership on helping the nation's communities plan more 
effectively for drought and long-term water policy. APA is pleased 
support your legislation reauthorizing and updating the Secure Water 
Act, S. 2019. Your legislation would strengthen the work of local and 
regional planning aimed at addressing drought. These plans, which often 
incorporate a range of critical water resource issues, are a critical 
tool in dealing with this growing challenge.
    APA provides leadership in the development of vital communities by 
advocating excellence in community planning, promoting citizen 
empowerment, and providing the tools and support to meet the challenges 
of local growth and change. Issues of drought have been an increasingly 
important part of the work of APA's Hazards Planning Research Center. 
In partnership with the National Integrated Drought Information Center, 
APA has just published a new report on planning and drought.
    Bolstering the resiliency of communities to extreme weather and 
natural hazards is vital to the nation's economy and the health of 
local residents. The federal government is uniquely situation to 
provide communities with vital data, new research and best practices in 
more effectively managing water resources. Your legislation is an 
important step forward and would make the federal government a more 
effective partner in working with states and local communities on 
drought and water hazard mitigation.
    APA thanks you for your leadership and looks forward to working 
with you on this important issue.
                                 ______
                                 
  Statement of Robert W. Johnson, Executive Vice President, National 
                       Water Resources Assocation
    On behalf of the Board of Directors and the members of the National 
Water Resources Association (NWRA), I write in support of S. 2019, the 
SECURE Water Amendments Act of 2014. The NWRA is a nonprofit federation 
made up of agricultural and municipal water providers, state 
associations, and individuals dedicated to the conservation, 
enhancement and efficient management of our nation's most important 
natural resource, water. Our members provide clean water to millions of 
individuals, as well as families, agricultural producers and other 
businesses throughout the western United States.
    Meeting the growing demand for water in the West is an important 
charge. Access to a safe and reliable supply of water is a necessary 
component for job growth and economic stability. The NWRA believes that 
the federal government should complement the ability of state and local 
governments to better manage their water supplies by providing 
increased funding for storage opportunities, water conservation, 
drought mitigation and assistance, and recycled water projects and 
programs.
    S. 2019, the SECURE Water Amendments Act of 2014, will help meet 
the nation's water needs by extending the authorization and funding 
level for important grant programs within the Bureau of Reclamation. 
These cost share programs effectively leverage money by combining non-
federal funds with federal grant money. In recent years grants have 
helped fund projects in: Arizona, California, Colorado, Idaho, Kansas, 
Montana, Nebraska, New Mexico, Nevada, Oklahoma, Oregon, Texas, Utah 
and Washington State. These projects have worked to conserve water on 
Tribal lands, expand ground water storage opportunities, and conduct 
important infrastructure work such as canal lining and headgate 
improvements. The SECURE Water Amendments Act of 2014 also clarifies 
that grant funds can be used for drought preparation and mitigation. In 
addition, S. 2019 extends the authorization for the United States 
Geological Survey to continue nationwide data gathering efforts focused 
on water usage and availability.
    On behalf of NWRA's members I thank you for your attention to the 
critical water supply issues facing our nation, and for supporting our 
members as they continue to be stewards of our nation's water supply 
and a critical part of the economy.
                                 ______
                                 
  Statement of Phillip C. Ward, Chairman, Western States Water Council
    On behalf of the Western States Water Council, representing the 
eighteen western governors on water policy issues, I am writing to 
comment on the SECURE Water Amendments Act of 2014 (S. 2019) for the 
record. These comments are based on the Council's October 8, 2013 
letter to then-Chairman Ron Wyden and Ranking Member Lisa Murkowski 
expressing our continued support for implementation of the SECURE Water 
Act (Position #357).*
---------------------------------------------------------------------------
    * Document has been retained in subcommittee files.
---------------------------------------------------------------------------
    Congress passed the SECURE Water Act in 2009 to authorize a number 
of important programs that support the states' primary responsibility 
to manage the nation's water resources. The Act's authorized activities 
provide much needed support that states and other non-federal entities 
in the West use to provide adequate and safe supplies of water for 
human health, the economy, and the environment, as well as enhancing 
public safety. However, many of these programs are unfunded or 
underfunded. Thus, reauthorization and appropriations are needed for 
these programs to fulfill their intended purposes.
    As introduced, S. 2019 would address the Council's concerns by 
extending the authorization for two important SECURE Water Act 
programs, namely the Bureau of Reclamation's WaterSMART Grants Program 
and the U.S. Geological Survey's (USGS) National Water Availability and 
Use Assessment Grant Program.
                      a. watersmart grants program
    The WaterSMART Grants Program provides cost-shared funding to 
states, tribes, and other entities on a competitive basis to address 
crucial water supply issues, stretch limited water supplies, and 
improve water management. Water managers have used this funding to 
improve their systems' operations and make more efficient use of 
limited supplies, which helps in responding to the severe and prolonged 
drought conditions that continue to impact much of the West. For 
example, from 2010-2012, the program leveraged non-federal investments 
by a two-to-one ratio to help conserve more than 616,000 acre-feet of 
water in the West.
    The WaterSMART Grants Program's current authorized spending is 
expected to expire later this year and S. 2019 would ensure that 
Reclamation can continue assisting states in their water conservation 
efforts by reauthorizing the program through 2023. Failure to do so 
would greatly diminish Reclamation's ability to partner with states and 
local communities to increase water efficiency in the West, threatening 
a range of economic and environmental interests, even as unprecedented 
drought afflicts many areas. Consequently, the Council strongly 
supports reauthorization of the WaterSMART Grants Program.
    b. national water availability and use assessment grant program
    The availability of water data is critical for planning and timely 
responses to droughts, flooding, and other extreme weather events. In 
particular, a lack of timely and accurate data on water use and 
availability places human life, health, welfare, property and 
environmental and natural resources at a considerably greater risk of 
loss. Unfortunately, erosion of the federal investment over the years 
has led to the discontinuance, disrepair, or obsolescence of vital data 
systems and programs needed to inform water resources management across 
the country.
    The SECURE Water Act authorized the National Water Availability and 
Use Assessment as part of a suite of activities aimed at enhancing the 
Department of the Interior's water data efforts. The Assessment is a 
USGS program aimed at providing better information on water resources 
budgets in the U.S., identifying trends in use and availability, 
helping forecast water availability for future needs, and maintaining a 
national inventory of water uses. Since states have the primary 
responsibility for gathering and managing data about water use, the 
SECURE Water Act authorized USGS to provide grants to state water 
management agencies to assist in acquiring locally-generated water data 
to be integrated with national datasets. However, USGS' requests for 
such grants have not been funded and its program authority expired with 
fiscal year 2013.
    S. 2019 would reauthorize the Assessment's grant program through 
2023 allowing for continuing support for state efforts to gather and 
analyze water data in a consistent manner. The Council supports 
reauthorization of this program. The Council also notes that its Water 
Data Exchange (WaDE) initiative has created the architecture for 
sharing information between states and with federal agencies, which 
will support this federal effort.
    We commend the Subcommittee for its work in addressing important 
water needs in the West. We also look forward to working with the 
Subcommittee and the Congress to continue to improve western water 
management.
                                 ______
                                 
 Statement of the Chairman, Tribal Council, The Confederated Tribes of 
                 the Warm Springs Reservation of Oregon
    On behalf of the Tribal Council of the Confederated Tribes of the 
Warm Springs Reservation of Oregon. I am writing to express our strong 
support for S. 1771, Crooked River Collaborative Water Security Act--
introduced by Senators Merkely and Wyden.
    In short, this legislation is the result of countless hours of 
deliberation of a diverse group of local stakeholders. It helps resolve 
a decades-long question of how to balance water interests between 
municipal and irrigation users, while also ensuring the recovery of the 
salmon, trout and steelhead in the Crooked River.
    Specifically, the Confederated Tribes believe that the ``first 
fill'' provision for irrigators is firmly balanced by the dedication of 
un-allocated water for downstream fish and wildlife. For both 
provisions to work and for the policy to be defensible in the future, 
we also believe the ESA rpovisions are appropriately and narrowly 
crafted. This will allow the collaborative management process to 
achieve ecological results with all stakeholders at the table.
    Thank you for scheduling a hearing on this landmark legislation.
                                 ______
                                 
   Statement of Kimberley Priestley, Sr. Policy Analyst, Waterwatch, 
                        Portland, OR, on S. 1771
    Founded in 1985, WaterWatch of Oregon is a non-profit river 
conservation group dedicated to the protection and restoration of 
natural flows in Oregon's rivers. We work to ensure that enough water 
is protected in Oregon's rivers to sustain fish, wildlife, recreation 
and other public uses of Oregon's rivers, lakes and streams. We also 
work for balanced water laws and policies. WaterWatch has thousands of 
members and supporters across Oregon who care deeply about our rivers, 
their inhabitants and the effects of water laws and policies on these 
resources.
    On behalf of WaterWatch of Oregon's members and supporters we write 
in support of S. 1771, the Crooked River Collaborative Water Security 
Act of 2013, as introduced.
        s. 1771, crooked river collaborative water security act
    In the Crooked River Basin there exists a rare opportunity to pass 
a bill that could benefit all economic sectors in the region---farmers, 
cities and fisheries. In a situation that is nearly unheard of in the 
water parched West, Prineville Reservoir behind Bowman Dam holds over 
80,000 acre feet of water that has not been allocated to any particular 
use. This fact presents an extraordinary opportunity to release the 
unallocated stored water to restore flows to the river and its 
economically important fisheries, without taking water away from 
existing irrigation districts or impeding growth opportunities for the 
City of Prineville.
    S. 1771 takes advantage of this rare opportunity and delivers a 
bill that:

  <bullet> Dedicates nearly 80,000 acre feet of unallocated water 
        stored in Prineville Reservoir to downstream fisheries. This 
        bill will result in significant flow increases to the 
        historically water-parched Crooked River.
  <bullet> Provides the City of Prineville with 5,100 acre-feet of 
        water to serve as instream mitigation to offset the impacts of 
        new groundwater pumping (under state law, new groundwater wells 
        in this basin must provide instream mitigation).
  <bullet> Provides farmers who currently hold irrigation contracts for 
        water from the reservoir with guarantees to their longstanding 
        use.
  <bullet> Allows hydropower development to now proceed on Bowman Dam.
  <bullet> Charts a path forward for flow restoration projects on McKay 
        Creek (a creek that is key to steelhead introduction efforts).
  <bullet> Requires dry year management planning.

    S.1771, as introduced, represents a carefully crafted agreement 
between irrigation districts, the State of Oregon, the City of 
Prineville, conservation groups and the Confederated Tribes of the Warm 
Springs Reservation. We thank Senators Merkley and Wyden for 
introducing this bill that represents a balance amongst varied basin 
interests that, until now, was unattainable.
    S. 1771 marks the end of over 30 years of fighting over the 
unallocated water behind Bowman Dam. The vision provided by this 
groundbreaking legislation could not only help save the Crooked River, 
its prized redband trout, and its newly reintroduced steelhead - it 
would also make a major contribution to the region's economy.
    Thank you for all your work on bringing together the many varied 
interests of the Crooked River Basin and the State of Oregon to craft 
this truly collaborative legislation.
                                 ______
                                 
                    Statement of the Tualatin Basin
   s.1946 will improve dam safety, help secure regional water supply
    Building on the Bureau of Reclamation's (Reclamation) Water 2025 
Initiative and the principles of cooperative conservation, Tualatin 
Basin Water Supply Partners and Reclamation staff have been working 
collaboratively with regional business, environmental and agricultural 
stakeholders to meet the long-term water resource needs of the Tualatin 
River Basin in Washington County, Oregon.
    Scoggins Dam/Hagg Lake is Washington County's primary source of 
water and a central component of the region's water supply. It is also 
among the most seismically at-risk dams in Reclamation's inventory. 
Passage of S. 1946, a bill to reauthorize and amend Reclamation's 
Safety of Dams program, would provide Reclamation with the ability to 
continue monitoring and improving the safety of its 476 facilities, 
including Scoggins.
                 s. 1946 earns strong community support
    On behalf of economic, agricultural, environmental and municipal 
interests in the region, partners of The Tualatin Basin Water Supply 
Project would like to enter the enclosed letters of support for S. 1946 
into the record. Stakeholders include:

  <bullet> Oregon Governor John Kitzhaber
  <bullet> Washington County
  <bullet> Clean Water Services
  <bullet> City of Hillsboro
  <bullet> City of Beaverton
  <bullet> City of Forest Grove
  <bullet> City of Tigard
  <bullet> City of Tualatin
  <bullet> Tualatin Valley Water District
  <bullet> Joint Water Commission
  <bullet> Tualatin Valley Irrigation District
  <bullet> Oregon Water Resources Congress
  <bullet> Intel Corporation
  <bullet> Greater Hillsboro Chamber of Commerce
  <bullet> Westside Economic Alliance
  <bullet> Oregon Business Association
  <bullet> Portland General Electric
  <bullet> Portland Metro Homebuilders Association
  <bullet> Tualatin Riverkeepers
  <bullet> Tualatin River Watershed Council
                                 ______
                                 
       Statement of Denny Doyle, Mayor, Beaverton, OR, on S. 1946
    On behalf the City of Beaverton, I am writing to thank you and 
express our support for S. 1946, a bill to reauthorize and amend the 
Bureau of Reclamation Safety of Dams program. This bill would provide 
the Bureau of Reclamation with the ability to continue to monitor and 
improve the safety of its 476 facilities, including Scoggins Dam in 
Washington County, Oregon.
    Scoggins Dam/Hagg Lake is Beaverton's and Washington County's 
primary source of water and a central component to our region's water 
supply. Hagg Lake supports nearly 250,000 jobs, provides drinking water 
for more than 400,000 residents, irrigates 17,000 acres of cropland, 
important flood control and recreation opportunities, and sustains 
water quality in the Tualatin River to protect fish and wildlife 
habitat. In 2010, Reclamation identified Scoggins Dam as among the most 
seismically at-risk dams in their inventory. Scoggins Dam must be 
modified to reduce the risk of failure in a major earthquake in order 
to protect public safety, secure our region's water supply, and help 
meet future needs. This legislation would allow Reclamation to move 
forward with securing structurally deficient facilities like Scoggins 
Dam.
    Washington County is the second-fastest growing county in the 
state, with a population of more than 542,000, and is the economic 
engine of Oregon, home to Intel, Nike, SolarWorld, Genentech, and a 
vibrant agricultural economy. The number of jobs on the Westside has 
more than doubled in the last 20 years, reaching over 250,000. A safe, 
secure, and reliable water resource is central to the state and 
region's continued economic success.
    Construction of the Tualatin Project was authorized by the Congress 
with the Act of September 20, 1966 (80 Stat. 822, Public Law 89-596). 
Since 1973, when Reclamation was developing stored water in the 
Tualatin Project (Scoggins Dam, Hagg Lake), the City of Beaverton has 
been a direct municipal ``repayment contractor'' to Reclamation for 
4,000 acre-feet annually. Beaverton has two current contracts with 
Reclamation dating as far back as 1971.
    The City of Beaverton received a letter from Reclamation dated 
October 20, 2011, which stated that: ``Scoggins Dam could lose 
freeboard due to large deformations and fail from overtopping during a 
seismic event. Scoggins Dam could fail from erosion through cracking 
during a seismic event. The spillway walls at Scoggins Dam could fail 
during a seismic event leading to failure of the dam. Failure would 
result in the loss of lives and property downstream and the loss of 
project benefits for year to come. The seismic hazard at Scoggins Dam 
is among the most severe earthquake loadings within Reclamation's 
inventory of dam, largely due to the proximity to the Cascadia 
Subduction Zone. Assuring the safety of Scoggins Dam is a key element 
that Reclamation continues to deliver the authorized benefits of the 
project. The Reclamation Safety of Dams Act provides the necessary 
authority to reduce risks at Scoggins Dam. It should be noted that a 
project the size of Scoggins Dam will exhaust Reclamation's funding 
authority.''
    Consequently, this bill is very important to the future of Scoggins 
Dam and to the City of Beaverton.
    Thank you for introducing this important legislation and for your 
leadership in helping our region plan for a secure water future for all 
of Oregon.
                                 ______
                                 
Statement of Andy Duyck, Chairman, Clean Water Services, Hillsboro, OR, 
                               on S. 1946
    On behalf of Clean Water Services, I am writing to thank you and 
express our support for S. 1946, a bill to reauthorize and amend the 
Bureau of Reclamation Safety of Dams program. This bill would provide 
the Bureau of Reclamation with the ability to continue to monitor and 
improve the safety of its 476 facilities, including Scoggins Dam in 
Washington County, Oregon.
    Scoggins Dam/Hagg Lake is Washington County's primary source of 
water. It supports nearly 250,000 jobs, provides drinking water for 
more than 400,000 residents, irrigates 17,000 acres of cropland, and 
sustains water quality in the Tualatin River to protect fish and 
wildlife habitat. Within the next decade, the population and economic 
growth of Washington County will begin to outstrip the ability of our 
water supply infrastructure to deliver fresh water to homes, factories 
and farms. Expansion of the Scoggins Dam/Hagg Lake complex is a 
critical piece of the region's future water supply infrastructure.
    In 2010, the Bureau of Reclamation identified Scoggins Dam as among 
the most seismically at-risk dams in their inventory. Scoggins Dam must 
be modified to reduce the risk of failure in a major earthquake in 
order to protect public safety and present water supply. Modification 
would also enable planning for the expansion of Scoggins Dam to move 
forward, which would move us further along the path to securing our 
community's future water needs. Clean Water Services, the water 
resource management utility for more than 542,000 residents of urban 
Washington County and surrounding areas, is a managing partner for the 
water supply project.
    Washington County is the second-fastest growing county in the 
state, with a population of more than 542,000, and is the economic 
engine of Oregon, home to Intel, Nike, SolarWorld, Genentech, and a 
vibrant agricultural economy. The number of jobs on the Westside has 
more than doubled in the last 20 years, reaching over 250,000. A safe, 
secure, and reliable water resource is central to the state and 
region's continued economic success.
    Thank you for introducing this important legislation and for your 
leadership in helping our region plan for a secure water future for 
Oregon.
                                 ______
                                 
       Statement of Michael Sykes, City Manager, Forest Grove, OR
    On behalf of the City of Forest Grove, I am writing to thank you 
and express our support for S. 1946, a bill to reauthorize and amend 
the Bureau of Reclamation Safety of Dams program. This bill would 
provide the Bureau of Reclamation with the ability to continue to 
monitor and improve the safety of its 476 facilities, including 
Scoggins Dam in Washington County, Oregon.
    Scoggins Dam/Hagg Lake is Washington County's primary source of 
water and a central component to our region's water supply. Hagg Lake 
supports nearly 250,000 jobs, provides drinking water for more than 
400,000 residents, irrigates 17,000 acres of cropland, and sustains 
water quality in the Tualatin River to protect fish and wildlife 
habitat. In 2010, Reclamation identified Scoggins Dam as among the most 
seismically at-risk dams in their inventory. Scoggins Dam must be 
modified to reduce the risk of failure in a major earthquake in order 
to protect public safety, secure our region's water supply, and help 
meet future needs. This legislation would allow Reclamation to move 
forward with securing structurally deficient facilities like Scoggins 
Dam.
    Washington County is the second-fastest growing county in the 
state, with a population of more than 542,000, and is the economic 
engine of Oregon, home to Intel, Nike, SolarWorld, Genentech, and a 
vibrant agricultural economy. The number of jobs on the Westside has 
more than doubled in the last 20 years, reaching over 250,000. A safe, 
secure, and reliable water resource is central to the state and 
region's continued economic success.
    The City of Forest Grove relies on water from Scoggins Reservoir 
for its,22,000 person population and industry. In addition, portions of 
our town could be flooded by a large dam failure.
    Thank you for introducing this important legislation and for your 
leadership in helping our region plan for a secure water future for 
Oregon.
                                 ______
                                 
Statement of Richard Whitman, Natural Resources Policy Advisor, Office 
                of Governor John A. Kitzhaber, Salem, OR
    On behalf of the Governor of the State of Oregon, I am writing to 
express the state's support for S. 1946, a bill to reauthorize and 
amend the Bureau of Reclamation Safety of Dams program. This bill would 
provide the Bureau of Reclamation with the authority to continue to 
monitor and improve the safety of its 476 facilities, including 
Scoggins Darn in Washington County, Oregon.
    Scoggins Dam/Hagg Lake is Washington County's primary source of 
water and a central component of our region's water supply. Hagg Lake 
supports nearly 250,000 jobs, provides drinking water for more than 
400,000 residents, irrigates 17,000 acres of cropland, and sustains 
water quality in the Tualatin River to protect fish and wildlife 
habitat. In 2010, Reclamation identified Scoggins Darn as among the 
most seismically at-risk dams in their inventory. Scoggins Dam must be 
modified to reduce the risk of failure in a major earthquake in order 
to protect public safety, secure our region's water supply, and help 
meet future water needs. This legislation would allow Reclamation to 
move forward with securing structurally-deficient facilities like 
Scoggins Dam.
    Washington County is the second-fastest growing county in the 
state, with a population of more than 542,000, and is the economic 
engine of Oregon, home to Intel, Nike, SolarWorld, Genentech, and a 
vibrant agricultural economy. The number of jobs on the Westside has 
more than doubled in the last 20 years, reaching over 250,000. A safe, 
secure, and reliable water resource is central to the state and 
region's continued economic success.
    Thank you for introducing this important legislation and for your 
leadership in helping Washington County plan for a secure water future.
                                 ______
                                 
   Statement of Justin Wood, Director of Government Relations, Home 
                          Builders Association
    On behalf of the Home Builders Association of Metropolitan 
Portland, I am writing to thank you and express our support for S. 
1946, a bill to reauthorize and amend the Bureau of Reclamation Safety 
of Dams program. This bill would provide the Bureau of Reclamation with 
the ability to continue to monitor and improve the safety of its 476 
facilities, including Scoggins Dam in Washington County, Oregon.
    Scoggins Dam/Hagg Lake is Washington County's primary source of 
water and a central component to our region's water supply. Hagg Lake 
supports nearly 250,000 jobs, provides drinking water for more than 
400,000 residents, irrigates 17,000 acres of cropland, and sustains 
water quality in the Tualatin River to protect fish and wildlife 
habitat. In 2010, Reclamation identified Scoggins Dam as among the most 
seismically at-risk dams in their inventory. Scoggins Dam must be 
modified to reduce the risk of failure in a major earthquake in order 
to protect public safety, secure our region's water supply, and help 
meet future needs. This legislation would allow Reclamation to move 
forward with securing structurally deficient facilities like Scoggins 
Dam.
    Washington County is the second-fastest growing county in the 
state, with a population of more than 542,000, and is the economic 
engine of Oregon, home to Intel, Nike, SolarWorld, Genentech, and a 
vibrant agricultural economy. The number of jobs on the Westside has 
more than doubled in the last 20 years, reaching over 250,000. A safe, 
secure, and reliable water resource is central to the state and 
region's continued economic success.
    The Home Builders Association of Metropolitan Portland and our over 
1,100 members represent the many builders, developers, remodelors and 
trade contractors throughout the Portland Metro area. Homebuilding is a 
major component to the economic health of our state and region. 
Washington County provides the foundation for jobs and growth in our 
region and it is vital that this project be moved forward, providing 
the county with a safe a reliable water infrastructure to support 
continued economic growth.
    Thank you for introducing this important legislation and for your 
leadership in helping our region plan for a secure water future for 
Oregon.
                                 ______
                                 
Joint Statement of Jerry W. Willey, Mayor, City of Hillsboro, and John 
             Godsey, Chair, Hillsboro Utilities Commission
    On behalf of the City of Hillsboro, we are writing to thank you and 
to express our support for S. 1946, a bill to reauthorize and amend the 
Bureau of Reclamation Safety of Dams program. This bill would provide 
the Bureau of Reclamation with the ability to continue to monitor and 
improve the safety of its 476 facilities, including Scoggins Dam in 
Washington County, Oregon.
    Scoggins Dam/Hagg Lake is Washington County's primary source of 
water and a central component to our region's water supply. Hagg Lake 
supports nearly 250,000 jobs, provides drinking water for more than 
400,000 residents, irrigates 17,000 acres of cropland, and sustains 
water quality in the Tualatin River. In 2010, Reclamation identified 
Scoggins Dam as among the most seismically at-risk dams in their 
inventory. Scoggins Dam must be modified to reduce the risk of failure 
in a major earthquake in order to protect public safety, secure our 
region's water supply, and help meet future needs. This legislation 
would allow Reclamation to move forward with securing structurally 
deficient facilities like Scoggins Dam.
    Washington County is the second-fastest growing county in the 
state, with a population of more than 542,000. It is the economic 
engine of Oregon and a vibrant agricultural economy. The number of jobs 
on the Westside has more than doubled in the last 20 years, reaching 
over 250,000. A safe, secure, and reliable water resource is central to 
the state and region's continued economic success.
    Hillsboro is a fast-growing community with a population of over 
93,000. It is home to Intel, SolarWorld, Genentech, and many other 
businesses. The reliable water supply these industries receive from the 
city of Hillsboro is critical to their success. Hillsboro's contract 
for stored water at Scoggins Dam is an irreplaceable element in our 
ability to continue to supply those long term water needs. Protecting 
the reliability of that supply by funding Reclamation's construction of 
seismic improvements to Scoggins Dam is imperative.
    Thank you for introducing this important legislation and for your 
leadership in helping our region plan for a secure water future for 
Oregon.
                                 ______
                                 
   Statement of Deanna Palm, President, Hillsboro Chamber, on S. 1946
    On behalf of the Hillsboro Chamber of Commerce, I am writing to 
thank you and express our support for S. 1946, a bill to reauthorize 
and amend the Bureau of Reclamation Safety of Dams program. This bill 
would provide the Bureau of Reclamation with the ability to continue to 
monitor and improve the safety of its 476 facilities, including 
Scoggins Dam in Washington County, Oregon.
    Scoggins Dam/Hagg Lake is Washington County's primary source of 
water and a central component to our region's water supply. Hagg Lake 
supports nearly 250,000 jobs, provides drinking water for more than 
400,000 residents, irrigates 17,000 acres of cropland, and sustains 
water quality in the Tualatin River to protect fish and wildlife 
habitat. In 2010, Reclamation identified Scoggins Dam as among the most 
seismically at-risk dams in their inventory. Scoggins Dam must be 
modified to reduce the risk of failure in a major earthquake in order 
to protect public safety, secure our region's water supply, and help 
meet future needs. This legislation would allow Reclamation to move 
forward with securing structurally deficient facilities like Scoggins 
Dam.
    Washington County is the second-fastest growing county in the 
state, with a population of more than 542,000, and is the economic 
engine of Oregon, home to Intel, Nike, SolarWorld, Genentech, and a 
vibrant agricultural economy. The number of jobs on the Westside has 
more than doubled in the last 20 years, reaching over 250,000. A safe, 
secure, and reliable water resource is central to the state and 
region's continued economic success.
    Hillsboro and its businesses play a vital role in the regional and 
state's economy. The ability to locate new or expand businesses and 
grow jobs in our industrial areas is a critical element for economic 
success. An adequate water resource that is safe and secure is 
fundamental in achieving those goals.
    Thank you for introducing this important legislation and for your 
leadership in helping our region plan for a secure water future for 
Oregon.
                                 ______
                                 
      Statement of Jill Eiland, Intel, Corporate Affairs Director
    On behalf of Intel Corporation, I am writing to thank you and to 
join our government partners, businesses, and environmental 
organizations across the region in supporting S. 1946, a bill to 
reauthorize and amend the Bureau of Reclamation Safety of Dams program. 
This bill would provide the Bureau of Reclamation with the ability to 
continue to monitor and improve the safety of its 476 facilities, 
including Scoggins Dam in Washington County, Oregon.
    Scoggins Dam/Hagg Lake is Washington County's primary source of 
water and a central component to the region's water supply. In 2010, 
the Bureau of Reclamation identified Scoggins Dam as among the most 
seismically at-risk dams in their inventory. Scoggins Dam must be 
modified to reduce the risk of failure in a major earthquake in order 
to protect public safety, secure the region's water supply needs for 
cities, economic development, agriculture, and improve water quality in 
the Tualatin River and its tributaries. This legislation would allow 
Reclamation to move forward with securing structurally deficient 
facilities like Scoggins Dam.
    Intel's operations in Oregon represent the Company's largest and 
most comprehensive site in the world--a global center of semiconductor 
research and manufacturing. With over 17,000 employees in Washington 
County, Intel appreciates the work you are doing to help make necessary 
infrastructure investments that will provide a reliable water supply 
for this growing region.
    Thank you for your leadership on this important effort and for 
introducing this legislation.
                                 ______
                                 
    Statement of Marilyn McWilliams, Chair, Joint Water Commission, 
                               on S. 1946
    On behalf of the Joint Water Commission, I am writing to thank you 
and to express our support for S. 1946, a bill to reauthorize and amend 
the Bureau of Reclamation Safety of Dams program. This bill would 
provide the Bureau of Reclamation with the ability to continue to 
monitor and improve the safety of its 476 facilities, including 
Scoggins Dam in Washington County, Oregon.
    Scoggins Dam/Hagg Lake is Washington County's primary source of 
water and a central component to our region's water supply. Hagg Lake 
supports nearly 250,000 jobs, provides drinking water for more than 
400,000 residents, irrigates 17,000 acres of cropland, and sustains 
water quality in the Tualatin River to protect fish and wildlife 
habitat. In 2010, Reclamation identified Scoggins Dam as among the most 
seismically at-risk dams in their inventory. Scoggins Dam must be 
mortified to reduce the risk of failure in a major earthquake in order 
to protect public safety, secure our region's water supply, and help 
meet future needs. This legislation would allow Reclamation to move 
forward with securing structurally deficient facilities like Scoggins 
Dam.
    Washington County is the second-fastest growing county in the 
state, with a population of more than 542,000, and is the economic 
engine of Oregon, home to Intel, Nike, SolarWorld, Genentech, and a 
vibrant agricultural economy. The number of jobs on the Westside has 
more than doubled in the last 20 years, reaching over 250,000. A safe, 
secure, and reliable water resource is central to the state and 
region's continued economic success.
    The Joint Water Commission (JWC) is a water supply partnership 
between the cities of Hillsboro, Beaverton, Forest Grove, and the 
Tualatin Valley Water District. Together these agencies serve a 
population of over 400,000 in Washington County. The stored water at 
Scoggins Dam provides the majority of JWC's summer water supplies. As 
the JWC member communities continue to grow, they will continue to rely 
on a safe and secure supply from Scoggins Dam as the long-term 
foundation of their water supply. Protecting the reliability of that 
supply by funding the construction of seismic improvements to Scoggins 
Dam is imperative.
    Thank you for introducing this important legislation and for your 
leadership in helping our region plan for a secure water future for 
Oregon.
                                 ______
                                 
  Statement of Ryan Deckert, President, Oregon Business Association, 
                       Portland, OR, on S. 1946,
    On behalf of the Oregon Business Association (OBA), I am writing to 
thank you and express our support for S. 1946, a bill to reauthorize 
and amend the Bureau of Reclamation Safety of Dams program. This bill 
would provide the Bureau of Reclamation with the ability to continue to 
monitor and improve the safety of its 476 facilities, including 
Scoggins Dam in Washington County, Oregon.
    Scoggins Dam/Hagg Lake is Washington County's primary source of 
water and a central component to our region's water supply. Hagg Lake 
supports nearly 250,000 jobs, provides drinking water for more than 
400,000 residents, irrigates 17,000 acres of cropland, and sustains 
water quality in the Tualatin River to protect fish and wildlife 
habitat. In 2010, Reclamation identified Scoggins Dam as among the most 
seismically at-risk dams in their inventory. Scoggins Dam must be 
modified to reduce the risk of failure in a major earthquake in order 
to protect public safety, secure our region's water supply, and help 
meet future needs. This legislation would allow Reclamation to move 
forward with securing structurally deficient facilities like Scoggins 
Dam.
    Washington County is the second-fastest growing county in the 
state, with a population of more than 542,000, and is the economic 
engine of Oregon, home to Intel, Nike, SolarW orld, Genentech, and a 
vibrant agricultural economy. The number of jobs on the Westside has 
more than doubled in the last 20 years, reaching over 250,000. A safe, 
secure, and reliable water resource is central to the state and 
region's continued economic success.
    Thank you for introducing this important legislation and for your 
leadership in helping our region plan for a secure water future for 
Oregon.
                                 ______
                                 
 Statement of April Snell, Executive Director, Oregon Water Resources 
                          Congress, Salem, OR
    On behalf of the Oregon Water Resources Congress (OWRC), I am 
writing to thank you and express our support for S. 1946, a bill to 
reauthorize and amend the U.S. Bureau of Reclamation (Reclamation) 
Safety of Dams program. OWRC is a nonprofit association representing 
irrigation districts, water control districts, improvement districts, 
drainage districts and other agricultural water suppliers. These local 
government entities operate complex water management systems, including 
water supply reservoirs, canals, pipelines, and hydropower production, 
and deliver water to roughly 1/3 of all irrigated land in Oregon. OWRC 
has been promoting the protection and use of water rights and the wise 
stewardship of water resources on behalf of agricultural water 
suppliers since 1912.
    S. 1946 would provide Reclamation with the ability to continue to 
monitor and improve the safety of its 476 facilities, including 
Scoggins Dam in Washington County, Oregon. Scoggins Dam/Hagg Lake is 
Washington County's primary source of water and a central component to 
the region's water supply. One of OWRC's members, the Tualatin Valley 
Irrigation District, manages the reservoir and delivers water to 
approximately 17,000 acres of farm land that sustains a variety of high 
value crops. Scoggins Dam/Hagg Lake also supports nearly 250,000 jobs, 
provides drinking water for more than 400,000 residents, and improves 
water quality in the Tualatin River to protect fish and wildlife 
habitat.
    In 2010, Reclamation identified Scoggins Dam as among the most 
seismically at-risk dams in their inventory. Scoggins Dam must be 
modified to reduce the risk of failure in a major earthquake in order 
to protect public safety, secure our region's water supply, and help 
meet future needs. Scoggins Dam controls releases from Henry Hagg Lake, 
sending water down Scoggins Creek toward the Tualatin River, which runs 
through Tualatin, Durham, Rivergrove and Lake Oswego and then on to the 
Willamette River in West Linn. The inundation zones of Scoggins Dam 
cross three counties: including numerous cities, water districts and 
unincorporated communities. In the event of a dam failure, there would 
be flooding, putting citizens at risk.
    This legislation would allow Reclamation to move forward with 
securing structurally deficient facilities like Scoggins Dam and would 
help the local communities in planning for the potential impact of 
future seismic activity in and around Scoggins Dam.
    Washington County is the second-fastest growing county in the 
state, with a population of more than 542,000, and is the economic 
engine of Oregon, home to Intel, Nike, SolarWorld, Genentech, and a 
vibrant agricultural economy. The number of jobs on the Westside has 
more than doubled in the last 20 years, reaching over 250,000. A safe, 
secure, and reliable water resource is central to the state and 
region's continued economic success.
    Thank you for introducing this important legislation and for your 
leadership in helping our water suppliers plan for a secure water 
future for Oregon.
                                 ______
                                 
     Statement of Sunny Radcliffe, Director, Government Affairs & 
                    Environmental Policy, on S. 1946
    On behalf of Portland General Electric, I am writing to thank you 
and express our support for S. 1946, a bill to reauthorize and amend 
the Bureau of Reclamation Safety of Dams program. This bill would 
provide the Bureau of Reclamation with the ability to continue to 
monitor and improve the safety of its 476 facilities, including 
Scoggins Dam in Washington County, Oregon.
    Scoggins Dam/Hagg Lake is Washington County's primary source of 
water and a central component to our region's water supply. Hagg Lake 
supports nearly 250,000 jobs, provides drinking water for more than 
400,000 residents, irrigates 17,000 acres of cropland, and sustains 
water quality in the Tualatin River to protect fish and wildlife 
habitat. In 2010, Reclamation identified Scoggins Dam as among the most 
seismically at-risk dams in their inventory. Scoggins Dam must be 
modified to reduce the risk of failure in a major earthquake in order 
to protect public safety, secure our region's water supply, and help 
meet future needs. This legislation would allow Reclamation to move 
forward with securing structurally deficient facilities like Scoggins 
Dam.
    Washington County is the second-fastest growing county in the 
state, with a population of more than 542,000, and is the economic 
engine of Oregon, home to Intel, Nike, SolarWorld, Genentech, and a 
vibrant agricultural economy. The number of jobs on the Westside has 
more than doubled in the last 20 years, reaching over 250,000. A safe, 
secure, and reliable water resource is central to the state and 
region's continued economic success.
    This project is of great importance to PGE and our customers. As 
Oregon's largest electric utility, we know how critical it is that all 
of our region's infrastructure keeps up with the needs of our growing 
population.
    Thank you for introducing this important legislation and for your 
leadership in helping our region plan for a secure water future for 
Oregon.
                                 ______
                                 
    Statement of John L. Cook, Mayor, City of Tigard, OR, on S. 1946
    On behalf of the City of Tigard, I am writing to express our 
support for S.1946, a bill to reauthorize and amend the Bureau of 
Reclamation's Safety of Dams program. This bill would give the Bureau 
of Reclamation the ability to continue monitoring and improving the 
safety of its 476 facilities, including Scoggins Dam in Washington 
County, Oregon.
    Scoggins Dam/Hagg Lake is a primary source of water for Washington 
County and a central component to our region's water supply. Water from 
Hagg Lake provides drinking water for more than 400,000 residents, 
irrigates 17,000 acres of cropland, supports countywide employment with 
nearly 250,000 jobs and sustains water quality in the Tualatin River to 
protect fish and wildlife habitat.
    In 2010, Reclamation identified Scoggins Dam as one of the most 
seismically at-risk dams in their inventory. Scoggins Dam must be 
modified to reduce the risk of failure in a major earthquake in order 
to protect public safety, secure the region's water supply and help 
meet future needs. This legislation would allow Reclamation to move 
forward with the important task of securing structurally deficient 
facilities like Scoggins Dam.
    Washington County is the second-fastest growing county in our state 
with a population of more than 542,000. It is the economic engine for 
Oregon; home to Intel, Nike, SolarWorld, Genentech, and a vibrant 
agricultural economy. Employment on the Westside has more than doubled 
in the last 20 years, exceeding 250,000 jobs. A safe, secure and 
reliable water resource is critical to the state and region's continued 
economic success.
    The City of Tigard provides drinking water to over 50,000 people in 
Tigard and surrounding communities. Tigard provides many of the jobs 
mentioned above and depends on Hagg Lake as our redundant water supply 
and Scoggins Dam for flood control. Improvements to these facilities 
are critical for our continued economic prosperity.
    I want to thank you for introducing this important legislation and 
for your unwavering leadership in helping our region plan for a secure 
water future in Oregon.
                                 ______
                                 
    Statement of Lou Ogden, Mayor, City of Tualatin, OR, on S. 1946
    On behalf of the City of Tualatin, I am writing to thank you and 
express our support for S. 1946, which would reauthorize and amend the 
Bureau of Reclamation Safety of Dams program. This bill would provide 
the Bureau of Reclamation with the ability to continue to monitor and 
improve the safety of its 476 facilities, including Scoggins Dam in 
Washington County, Oregon.
    Scoggins Dam/Hagg Lake is Washington County's primary source of 
water and a central component to our region's water supply. Hagg Lake 
supports nearly 250,000 jobs, provides drinking water for more than 
400,000 residents, irrigates 17,000 acres of cropland, and sustains 
water quality in the Tualatin River to protect fish and wildlife 
habitat. In 2010, Reclamation identified Scoggins Dam as among the most 
seismically at-risk dams in their inventory. Scoggins Dam must be 
modified to reduce the risk of failure in a major earthquake in order 
to protect public safety, secure our region's water supply, and help 
meet future needs. This legislation would allow Reclamation to move 
forward with securing structurally deficient facilities like Scoggins 
Dam.
    Washington County is the second-fastest growing county in the 
state, with a population of more than 542,000, and is the economic 
engine of Oregon, home to Intel, Nike, SolarWorld, Genentech, and a 
vibrant agricultural economy. The number of jobs on the Westside has 
more than doubled in the last 20 years, reaching over 250,000. A safe, 
secure, and reliable water resource is central to the state and 
region's continued economic success.
    Thank you for introducing this important legislation and for your 
leadership in helping our region plan for a secure water future for 
Oregon.
                                 ______
                                 
  Statement of Dave Waffle, Chair, Tualatin River Watershed Council, 
                       Hillsboro, OR, on S. 1946
    On behalf of the Tualatin River Watershed Council, I am writing to 
thank you and express our support for S. 1946, a bill to reauthorize 
and amend the Bureau of Reclamation Safety of Dams program. This bill 
would provide the Bureau of Reclamation. with the ability to continue 
to monitor and improve the safety of its 476 facilities, including 
Scoggins Dam in Washington. County, Oregon,
    Scoggins Dam/Hagg Lake is Washington County's primary source of 
water and a central component to our region's water supply. Hagg Lake 
supports nearly 250,000 jobs, provides drinking water for more than 
400,000 residents, irrigates 17,000 acres of cropland, and sustains 
water quality in the Tualatin River to protect fish and wildlife 
habitat. In 2010, Reclamation identified Scoggins Dam as among the most 
seismically at-risk dams in their inventory. Scoggins Dam must be 
modified to reduce the risk of failure in a major earthquake in order 
to protect public safety, secure our region's water supply, and help 
meet future needs. This legislation would allow Reclamation to move 
forward with securing structurally deficient facilities like Scoggins 
Dam.
    Washington County is the second fastest growing county in the 
state, with a population of more than 542,000, and is the economic 
engine of Oregon, home to Intel, Nike, SolarWorld, Genentech, and a 
vibrant agricultural economy. The number of jobs on the Westside has 
more than doubled in the last 20 years, reaching over 250,000. A safe, 
secure, and reliable water resource is central to the state and 
region's continued economic success.
    The Tualatin River Watershed Council (Council) is an organization 
whose mission is ``to foster better stewardship and understanding of 
the Tualatin River watershed resources; address natural resource 
issues; and ensure sustainable watershed health, function, and uses.'' 
The 21-member Council represents key interests and stakeholders in the 
Tualatin River watershed, including the agricultural community, 
business and industry, education, environmental, forestry, local 
government, commercial/recreational fisheries, utility districts and 
citizens.
    The Council values environmental protection of the Tualatin Basin 
and believes that improving the safety of Scoggius Dam/Hagg Lake would 
address environmental destruction that would result from a catastrophic 
dam failure. The Council is willing to work with the Bureau of 
Reclamation in addressing any impacts to the natural environment caused 
by the project that would improve the dam's structural safety.
    Thank you for introducing this important legislation and for your 
leadership in helping our region plan for a secure water future for 
Oregon.
                                 ______
                                 
  Statement of Brian Wegener, Riverkeeper, Advocacy & Communications 
                   Manager, Tualatin, OR, on S. 1946
    On behalf of Tualatin Riverkeepers, I am writing to thank you and 
express our support for S. 1946, a bill to reauthorize and amend the 
Bureau of Reclamation Safety of Dams program. This bill would provide 
the Bureau of Reclamation with the ability to continue to monitor and 
improve the safety of its 476 facilities, including Scoggins Dam in 
Washington County, Oregon.
    Scoggins Dam/Hagg Lake is Washington County's primary source of 
water and a central component to our region's water supply. Hagg Lake 
supports nearly 250,000 jobs, provides drinking water for more than 
400,000 residents, irrigates 17,000 acres of cropland, and sustains 
water quality in the Tualatin River to protect fish and wildlife 
habitat. In 2010, Reclamation identified Scoggins Dam as among the most 
seismically at-risk dams in their inventory. Scoggins Dam must be 
modified to reduce the risk of failure in a major earthquake in order 
to protect public safety, secure our region's water supply, and help 
meet future needs. This legislation would allow Reclamation to move 
forward with securing structurally deficient facilities like Scoggins 
Dam. According to information provided by the Bureau of Reclamation at 
a recent open house, 200 workers lives at the Stimson mill are at risk 
with only 15 minutes to evacuate following a subduction zone 
earthquake.
    Tualatin Riverkeepers is a non-profit organization dedicated to 
holistic watershed management for the benefit our communities. TRK 
takes a proactive approach to advocacy for clean waters, empowers the 
diversity of stakeholders in the Tualatin river basin to care for our 
unique river, and educates youth and future activists with creative 
curriculum inspired by local ecological traditions. We seek 
partnerships with agencies and landowners throughout the watershed to 
conserve the lands and biodiversity found within the broader landscape 
and analyze watershed issues from the floodplain's perspective. As 
such, we find strength from farmer to ecologist's viewpoints and 
believe bringing multiple parties together based on shared common 
ground will enhance sustainable management of the Tualatin watershed. 
TRK is a registered 501(c)(3) tax-deductible nonprofit charity and a 
member of the Waterkeeper Alliance.
    Restoration of the Tualatin River has made tremendous progress over 
the last 25 years. Restoring cooling flows to tributary streams is a 
key missing element in recovery of steelhead trout in the basin. 
Expansion of Hagg Lake should make water available for tributary 
streamflow augmentation to aid in the recovery of our native fish. 
Seismic upgrade of the dam should also provide mitigation for blocked 
passage and lost habitat associated with the original construction of 
the dam.
    Thank you for introducing this important legislation and for your 
leadership in helping our region plan for a secure water future for 
Oregon.
                                 ______
                                 
Statement of Richard P. Burke, President, TVWD Board of Commissioners, 
                       Beaverton, OR, on S. 1946
    On behalf of TVWD, I am writing to thank you for your leadership in 
sponsoring legislation that will address the need for a safer Scoggins 
Darn and specifically express our support for S. 1946 in order 
reauthorize and amend the Bureau of Reclamation Safety of Dams program. 
The reliability of Scoggins Darn is essential to sustain the vital 
economy of Washington County.
    In 2010, Reclamation identified Scoggins Darn as among the most 
seismically at-risk darns in their inventory. Scoggins Darn must be 
modified to reduce the risk of failure in a major earthquake in order 
to protect public safety, secure an important regional water supply, 
and help meet future needs. We appreciate your work on sponsoring 
legislation to allow Reclamation to move forward with securing 
structurally deficient facilities like Scoggins Dam.
    TVWDs Board passed Resolution 05-13 (attached) in May of 2013 as a 
way to demonstrate our support and encourage efforts to complete the 
seismic upgrades to Scoggins Darn as soon as possible. The Resolution 
has been a way to show our support and encourage regional cooperation 
and partnerships between water providers in order to develop and 
maintain multiple sources of water to meet Washington County's future 
water demands. Scoggins Dam is an important part of enableing water 
providers in the area to meet that objective.
    Thank you for introducing this important legislation and for your 
leadership in helping our region plan for a secure water future for 
Oregon.
                                 ______
                                 
    Statement of James Love, Chairman of the Board, Tualatin Valley 
           Irrigation District, Forest Grove, OR, on S. 1946
    On behalf of Tualatin Valley Irrigation District, I am writing to 
thank you and express our support for S.1946, a bill to reauthorize and 
amend the Bureau of Reclamation Safety of Dams program. This bill would 
provide the Bureau of Reclamation with the ability to continue to 
monitor and improve the safety of its 476 facilities, including 
Scoggins Dam in Washington County, Oregon.
    The Tualatin Valley Irrigation District was formed by Oregon 
statute in 1962 for the purpose of shepherding the Tualatin Project 
through the Congress of the United States. The Tualatin Project, 
constructed by the US Department of the Interior, Bureau of 
Reclamation, provides water for the cities of Beaverton, Hillsboro and 
Forest Grove. It also provides water to improve the quality of the 
Tualatin River and most importantly the project provides water for the 
irrigation of crops within the district boundaries.
    Scoggins Dam/Hagg Lake is Washington country's primary source of 
water and a central component to our region's water supply. Hagg Lake 
supports nearly 250,000 jobs, provides drinking water for more than 
400,000 residents, irrigates 17,000 acres of cropland, and sustains 
water quality in the Tualatin River to protect fish and wildlife 
habitat. In 2010, Reclamation identified Scoggins Dam as among the most 
seismically at-risk dams in their inventory. Scoggins Dam must be 
modified to reduce the risk of failure in a major earthquake in order 
to protect public safety, secure our region's water supply, and help 
meet future needs. This legislation would allow Reclamation to move 
forward with securing structurally deficient facilities like Scoggins 
Dam.
    Washington County is the second-fastest growing county in the 
state, with a population of more than 542,000, and is the economic 
engine of Oregon, home to Intel, Nike, SolarWorld, Genentech, and a 
vibrant agricultural economy. The number of jobs on the Westside has 
more than doubled in the last 20 years, reaching over 250,000. A safe, 
secure, and reliable water resource is central to the state and 
region's continued economic success.
    Thank you for introducing this important legislation and for your 
leadership in helping our region plan for a secure water future for 
Oregon.
                                 ______
                                 
     Statement of Andy Duyck, Chairman, Washington County Board of 
                Commissioners, Hillsboro, OR, on S. 1946
    On behalf of Washington County Board of Commissioners I am writing 
to thank you and express our support for S. 1946, a bill to reauthorize 
and amend the Bureau of Reclamation's Safety of Dams program. This bill 
would provide the Bureau of Reclamation with the ability to continue to 
monitor and improve the safety of its 476 facilities, including 
Scoggins Dam here in Washington County, Oregon.
    Scoggins Dam / Hagg Lake is Washington County's primary source of 
water and a central component to our region's water supply. Hagg Lake 
supports more than 250,000 jobs, provides drinking water for over 
400,000 residents, irrigates 17,000 acres of cropland, and sustains 
water quality in the Tualatin River to protect fish and wildlife 
habitat.
    In 2010, Reclamation identified Scoggins Dam as one of the most 
seismically at-risk dams in their inventory. Scoggins Dam must be 
modified to reduce the risk of failure in a major earthquake in order 
to protect public safety, secure our region's water supply, and help 
meet future needs. This legislation would allow the Bureau to move 
forward with securing structurally deficient facilities like Scoggins 
Dam.
    With a population of more than 550,000, Washington County is the 
fastest-growing county in the state, and has become the economic engine 
of Oregon and home to Intel, Nike, SolarWorld, Genentech, as well as a 
diverse agricultural economy. The number of jobs in our County has more 
than doubled in the last 20 years, surpassing 260,000 in 2013. A safe, 
secure, and reliable water resource is essential to our state and 
region's continued economic success.
    Thank you for introducing this important legislation and for your 
leadership in helping our region plan for a secure water future for 
Oregon.
                                 ______
                                 
   Statement of Pamela Treece, Executive Director, WestSide Economic 
                    Alliance, Tigard, OR, on S. 1946
    On behalf of Westside Economic Alliance (WEA) I am writing to thank 
you and express our support for S. 1946, a bill to reauthorize and 
amend the Bureau of Reclamation Safety of Dams program. This bill would 
provide the Bureau of Reclamation with the ability to continue to 
monitor and improve the safety of its 476 facilities, including 
Scoggins Dam in Washington County, Oregon.
    Scoggins Dam/Hagg Lake is Washington County's primary source of 
water and a central component to our region's water supply. Hagg Lake 
supports nearly 250,000 jobs, provides drinking water for more than 
400,000 residents, irrigates 17,000 acres of cropland, and sustains 
water quality in the Tualatin River to protect fish and wildlife 
habitat. In 2010, Reclamation identified Scoggins Darn as among the 
most seismically at-risk darns in their inventory. Scoggins Dam must be 
modified to reduce the risk of failure in a major earthquake in order 
to protect public safety, secure our region's water supply, and help 
meet future needs. This legislation would allow Reclamation to move 
forward with securing structurally deficient facilities like Scoggins 
Dam.
    Washington County is the second-fastest growing county in the 
state, with a population of more than 542,000, and is the economic 
engine of Oregon. It is home to high technology and manufacturing 
firms, headquarters for active sportswear companies and the seat of a 
vibrant agricultural economy. The number of jobs on the Westside has 
more than doubled in the last 20 years, reaching over 250,000. A safe, 
secure, and reliable water resource is central to the state and 
region's continued economic success.
    WEA is a business advocacy group, representing members from both 
the public and private sectors in Washington and western Clackamas 
counties. Together we work to improve the local business climate and 
the economic health of our region.
    Thank you for introducing this important legislation and for your 
leadership in helping our region plan for a secure water future for 
Oregon.

                                    

      

</pre></body></html>
